<html>
<title> - EXAMINING NOAA'S CLIMATE SERVICE PROPOSAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



               EXAMINING NOAA'S CLIMATE SERVICE PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JUNE 22, 2011

                               __________

                           Serial No. 112-27

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



       Available via the World Wide Web: http://science.house.gov




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-927PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY















                            C O N T E N T S

                        Wednesday, June 22, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    11

                               Witnesses:

Dr. Jane Lubchenco, Administrator, National Oceanic and 
  Atmospheric Administration
    Oral Statement...............................................    12
    Written Statement............................................    15

Mr. Robert Winokur, Deputy Oceanographer, Department of the Navy
    Oral Statement...............................................    32
    Written Statement............................................    34

             Appendix 1: Answers to Post-Hearing Questions

Dr. Jane Lubchenco, Administrator, National Oceanic and 
  Atmospheric Administration.....................................    60

             Appendix 2: Additional Material for the Record

Letters submitted by Ms. Johnson and Mr. Wu......................    85

 
               EXAMINING NOAA'S CLIMATE SERVICE PROPOSAL

                              ----------                              


                        WEDNESDAY, JUNE 22, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to other business, at 10:10 
a.m., in Room 2318 of the Rayburn House Office Building, Hon. 
Ralph Hall [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

               Examining NOAA's Climate Service Proposal

                        wednesday, june 22, 2011
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, June 22, 2011, at 10:00 a.m. the House Committee on 
Science, Space, and Technology will hold a hearing to review the 
Administration's FY 12 budget request proposal to reorganize NOAA to 
create a climate service.

Witnesses

    <bullet>  Dr. Jane Lubchenco, Administrator, National Oceanic and 
Atmospheric Administration

    <bullet>  Mr. Robert Winokur, Deputy Oceanographer, Department of 
the Navy

Background

    The Administration's FY 12 budget request included a proposal for 
the creation of a Climate Service at the National Oceanic and 
Atmospheric Administration (NOAA). The stated goal of this new line 
office is to bring together NOAA's existing climate capabilities under 
a single entity to more efficiently and effectively respond to demands 
for climate services. According to NOAA, the Climate Service ``will 
provide a single, reliable and authoritative source for climate data, 
information, and decision-support services to help individuals, 
businesses, communities and governments make smart choices in 
anticipation of a climate changed future.''
    The proposal would constitute the largest reorganization of NOAA 
since its establishment in 1970. NOAA proposes to spend $346 million on 
the new Climate Service in FY 12. It intends for this effort to be 
budget neutral, paid for through the transfer of transfer assets and 
resources from existing line offices (Figure 1). The assets that would 
move include:

    <bullet>  Three data centers from the National Environmental 
Satellite, Data and Information Service (NESDIS)

    <bullet>  Two science labs, including the Earth System Research Lab 
and the Geophysical Fluid Dynamics Lab, and the Climate Program Office 
from the Office of Oceanic and Atmospheric Research (OAR)

    <bullet>  The Climate Prediction Center and management oversight 
for the Climate Observing Network from the National Weather Service 
(NWS)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The National Ocean Service (NOS), National Marine Fisheries Service 
(NMFS), and Program Planning and Integration (PPI) would be untouched 
in this reorganization.
    The new line office would be subdivided into three offices: the 
Office of Climate Research; the Office of Observation, Monitoring and 
Prediction; and the Office of Service Development and Delivery. The 
management structure that would oversee these three offices would 
consist of an Assistant Administrator for Climate Services, a Deputy 
Assistant Administrator for Climate Services, and a Climate Senior 
Scientist. These new positions would not require Senate confirmation, 
which is consistent with the structure of other NOAA line offices.
    Table 1 shows the NOAA FY12 budget request and the impact the 
creation of the Climate Service has on the three line offices its 
assets come from. Most notably, OAR is reduced by 53 percent--by far 
the largest reduction from any line office--due to the loss of 
approximately $203 million in research funding to the Climate Service.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Climate Service Proposal Timeline

    NOAA first announced its intent to create a climate service on 
February 8, 2010. This announcement was accompanied by the creation of 
six new NOAA Regional Climate Services Director positions at 
laboratories across the country. Additionally, Administrator Lubchenco 
appointed senior officials Tom Karl and Chet Koblinsky as Climate 
Service Transition Director and Deputy Director, respectively. In a 
December 2010 interview regarding NOAA's Climate Service activities, 
Karl said ``We've moved in . . . we're waiting for the marriage 
certificate, but we're acting like we have a Climate Service.'' This 
statement, as well as the absence of a formal Climate Service budget 
submission to Congress, raised questions regarding NOAA's intended path 
for creation of the new office.
    Earlier in 2010, the Consolidated Appropriations Act, 2010 (P.L. 
111-117) included language directing NOAA to contract with the National 
Academy of Public Administration (NAPA) to study the formation of a 
climate service at NOAA.

    The conferees direct NOAA to enter into a contract with the 
National Academy of Public Administration (NAPA) within 60 days after 
the enactment of this Act for a study and analysis of organizational 
options for a National Climate Service within NOAA, emphasizing maximum 
effectiveness and efficiency. The study should consider how to provide 
information at the global, regional, and State levels over varying 
timescales; support interaction among the government and various users, 
stakeholders, researchers, and information providers of climate 
information in both the private and public sectors; develop and 
distribute products and information that will support decision making 
to better prepare the Nation for climate variability and climate 
change; coordinate and align existing programs and resources internal 
and external to NOAA to reduce duplications and leverage existing 
climate-related resources; and provide estimates on projected funding 
levels. The study shall be completed no later than 120 days after the 
contract is awarded.

    As such, NOAA delayed its formal proposal until the NAPA study was 
complete. The scope of the study was defined by four study questions:

    <bullet>  (1) Are NOAA's organizational design criteria 
appropriate?

    <bullet>  (2) Is NOAA's proposal to align core climate programs and 
resources into a Climate Science and Service Line Office the 
recommended approach?

    <bullet>  (3) Are NOAA's current resources sufficient to establish 
a Climate Science and Service Line Office that can meet current and 
future demands?

    <bullet>  (4) What additional business practices should NOAA 
consider to enhance climate services beyond NOAA's proposed 
organizational changes?

    Limited to the scope of the study questions, the NAPA did not 
consider the potential impacts of a new Climate Service line office on 
non-climate-focused activities or the functionality of other line 
offices, such as NOAA's research enterprise housed in OAR. Although 
NAPA endorsed NOAA's proposal for the creation of a Climate Service 
within the scope of the questions listed above, its report emphasized 
that it ``is skeptical that current funding levels (even as augmented 
at levels consistent with the President's FY2011 budget request) will 
adequately sustain public and private sector expectations for climate 
services and research in the years ahead.'' \1\
---------------------------------------------------------------------------
    \1\  National Academy of Public Administration. Building Strong for 
Tomorrow: NOAA Climate Service. September 13, 2010.
---------------------------------------------------------------------------
    On September 22, 2010, NOAA released a draft Climate Service vision 
and strategic framework for public comment. On January 24, 2011, NOAA 
released a new version of the Climate Service vision and strategic 
framework reflecting input from the public comment period. Finally, on 
February 14, 2011, the President's 2012 budget was released, containing 
the formal proposal to establish a Climate Service in NOAA.
    Table 2 shows the operating plan proposed by NOAA for FY 2011.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Signed into law on April 15, 2011, The Department of Defense and 
Full-Year Continuing Appropriations Act, 2011 (P.L. 112-10) prohibits 
the use of funding to implement, establish or create a NOAA Climate 
Service.

     Section 1348. None of the funds made available by this division 
may be used to implement, establish, or create a NOAA Climate Service 
as described in the ``Draft NOAA Climate Service Strategic Vision and 
Framework'' published at 75 Federal Register 57739 (September 22, 2010) 
and updated on December 20, 2010: Provided, That this limitation shall 
expire on September 30, 2011.
    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order.
    Good morning. Welcome to today's hearing entitled 
``Examining NOAA's Climate Service Proposal.'' In front of you, 
your packets contain the written testimony, biographies and 
Truth in Testimony disclosures for today's witnesses. At this 
time I recognize myself for five minutes for an opening 
statement.
    I want to welcome everyone here for this hearing on 
Examining NOAA's Climate Change Proposal, and I would first 
like to note my irritation about witness testimony. This 
Committee has always been very accommodating and appreciative 
of the busy schedules of our witnesses, each of us, the 
Republican and Democratic side have always had that 
appreciation. That is why we try to give them as much notice as 
possible. The Committee invited NOAA more than 3 weeks ago, and 
it is truly appalling that this testimony was 26 hours late and 
over 27 pages.
    This lack of consideration of the Committee Members' time 
is not an encouraging sign that there is a willingness on the 
part of this witness or of this Administration to work with 
this Committee on important issues. I am disappointed that we 
have already started on the wrong foot. Dr. Lubchenco came to 
my office on November 15, 2010. I asked her several questions 
and she said she would seek this Committee's approval before 
implementing her proposal.
    The purpose of this hearing is to consider the proposal put 
forth in the President's fiscal year 2012 budget request issued 
in February to totally reorganize NOAA and create a new line 
office called the Climate Service.
    Though NOAA announced its intent to create this line office 
in early 2010, this is the first time Congress has had the 
opportunity to fully examine the implications of transitioning 
$226 million of fundamental research into an operations-focused 
climate office.
    Over the past 18 months, I have communicated several 
concerns about this endeavor to Administrator Lubchenco. My 
hesitation can be divided into two categories, the first being 
the process by which this new climate change proposal has come 
into being. After our budget hearing on March 10th, this 
Committee sent a series of questions for the record, some of 
which asked about the Climate Service proposal and would have 
provided the Committee further information to make today's 
hearing more productive. It has been three months since we sent 
those questions, and we still have not heard back from NOAA. It 
is very difficult for the Committee to conduct proper oversight 
of agencies if they are delinquent, or at best, evasive, in 
responding to Members' inquiries. Given that the Administration 
and the Administrator have claimed that this topic is a high 
priority for her, I find it curious that these responses are 
taking this long to formulate.
    The other part of this proposal that I find troubling is 
the actual substance of NOAA's design for a Climate Service. 
The foremost concern I have had is regarding the amount of 
resources NOAA is planning on moving from the Office of Oceanic 
and Atmospheric Research. More than half the resources of 
NOAA's research enterprise would be moved into a climate 
service. This proposal appears to contradict the notion that 
fundamental research must not be driven by operational demands.
    In 2004, a research review team produced a report for 
NOAA's Science Advisory Board that proposed consolidating 
research across NOAA into a more focused and integrated line 
office in order to enhance cooperation and collaboration to 
promote research investment in innovation. However, instead of 
consolidating research activities, NOAA's proposal seeks to 
break up its research enterprise and move more than half of it 
into an operational service.
    The issue before us today is about the major reorganization 
of an agency and the impact that such reorganization will have 
on the functioning of the agency. I recognize that certain 
climate services can provide value. For example, the drought 
forecasts issued by the National Integrated Drought Information 
System are very useful to farmers, water planners, and other 
state and local officials. I have no objection to these types 
of products, but I hope and expect they will continue to 
provide value as part of NOAA's existing agency structure.
    My objection and our objection to this proposal has been 
the concern that the focus to create a climate service will 
severely harm vital research at NOAA by transferring resources 
away from fundamental science to mission-oriented research and 
service-driven products. This hearing is only the first step in 
the Committee's examination of NOAA's proposed Climate Service.
    [The prepared statement of Mr. Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall
    I want to welcome everyone here today for this hearing on examining 
NOAA's Climate Service proposal.
    I would first like to note my irritation about witness testimony. 
This Committee has always been very accommodating and appreciative of 
the busy schedules of our witnesses. That is why we try to give them as 
much time as possible. The Committee invited NOAA more than three weeks 
ago. It is truly appalling that this testimony was 26 hours late and is 
27 pages.
    This lack of consideration of the Committee Member's time is not an 
encouraging sign that there is a willingness on the part of this 
witness or of this Administration to work with this Committee on 
important issues. I am disappointed that we have already started on the 
wrong foot. Dr. Lubchenco came to my office on November 15th of 2010. I 
asked her several questions and she said she would seek our approval 
before implementing her proposal.
    The purpose of this hearing is to consider the proposal put forth 
in the President's FY 2012 Budget Request issued in February to 
reorganize NOAA and create a new line office called the Climate 
Service.
    Though NOAA announced its intent to create this line office in 
early 2010, this is the first time Congress has had the opportunity to 
fully examine the implications of transitioning several hundred million 
dollars of fundamental research into an operations-focused climate 
office. Over the past 18 months, I have communicated several concerns 
about this endeavor to the Administrator Lubchenco. My hesitation can 
be divided into two categories. The first being the process by which 
this new Climate Service proposal has come into being.
    After our budget hearing on March 10th, this Committee sent a 
series of questions for the record, some of which asked about the 
Climate Service proposal and would have provided the Committee further 
information to make today's hearing productive. It has been three 
months since we sent those questions, and we still have not heard back 
from NOAA. It is very difficult for the Committee to conduct proper 
oversight of agencies if they are delinquent-- or at best evasive--in 
responding to Member inquiries. Given that the Administrator has 
claimed that this topic is a high priority for her, I find it curious 
that these responses are taking this long to formulate.
    The other part of this proposal that I find troubling is the actual 
substance of NOAA's design for a Climate Service. The foremost concern 
I have had is regarding the amount of resources NOAA is planning on 
moving from the Office of Oceanic and Atmospheric Research. More than 
half the resources of NOAA's research enterprise would be moved into a 
climate service. This proposal appears to contradict the notion that 
fundamental research must not be driven by operational demands.
    In 2004, a Research Review Team produced a report for NOAA's 
Science Advisory Board that proposed consolidating research across NOAA 
into a more focused and integrated line office in order to enhance 
cooperation and collaboration to promote research investment in 
innovation. However, instead of consolidating research activities, 
NOAA's proposal seeks to break up its research enterprise and move more 
than half of it into an operational service.
    The issue before us today is about the major reorganization of an 
agency and the impact that such reorganization will have on the 
functioning of the agency. I recognize that certain climate services 
can provide value.
    For example, the drought forecasts issued by the National 
Integrated Drought Information System, are very useful to farmers, 
water planners, and other state and local officials. I have no 
objection to these types of products, and I hope and expect they will 
continue to provide value as part of NOAA's existing agency structure.
    My objection to this proposal has been the concern that the focus 
to create a climate service will severely harm vital research at NOAA 
by transferring resources away from fundamental science to mission-
oriented research and service-driven products. This hearing is only the 
first step in the Committee's examination of NOAA's proposed Climate 
Service.
    I now recognize Ranking Member Johnson for five minutes for an 
opening statement.

    Chairman Hall. I now recognize Ranking Member Ms. Johnson 
for five minutes for an opening statement, and I yield back my 
time.
    Ms. Johnson. Thank you very much, Mr. Chairman. I 
appreciate you holding this hearing today to discuss the 
climate science and services of NOAA and their efforts to 
create a Climate Service line office within the agency. We will 
also discuss the range of services and products NOAA already 
provides for the countless numbers of users, including the U.S. 
Navy, who is with us today.
    This Committee has heard as much as, if not more than, any 
other Committee on the subject of climate change. The 
scientific evidence is strong and, in my opinion, 
incontrovertible. Unfortunately, despite years of hearings and 
support for climate science through both Republican and 
Democratic Administrations and Majorities, it is clear that the 
Congress has taken a step backwards and allowed fear, doubt, 
and ignorance to undo the progress we were beginning to make on 
climate science. Instead of denying the existence of climate 
change, today we should be asking ourselves what we can do to 
help America adapt to the impacts of a changing climate.
    These impacts will extend far beyond mere inconvenience. 
For anyone that is more concerned about financial costs of 
taking action to prevent and adapt to climate change, I ask you 
to consider the economic impacts such as prolonged droughts and 
heat waves, increased flooding, more intense storms, species 
extinction and invasive species, sea level rise, melting polar 
icecaps, and mass migration, just to name a few.
    From the tornadoes in the South, drought and fires in the 
West, and flooding in the Midwest, regardless of their relation 
to climate change, we have seen in recent months how even 
isolated instances of these phenomena can devastate economies. 
That said, why should we not want to give people the tools and 
information needed to anticipate what is to come?
    Many sectors of our society--farmers, natural resource 
managers, coastal resource managers, State and local government 
officials, the transportation sector, and water, utility and 
energy companies, just to name a few--all benefit from NOAA's 
ability to predict the intensity and duration of climate 
events. On the national, regional, and local scale, these 
services and products will make it easier for decision makers 
and managers to prepare and develop plans to respond to the 
various weather and climate events.
    As the demand for more climate information has grown, so 
has the need for our scientists to better understand and 
explain the various climate cycles and patterns. This is not a 
new need. In fact, in the 107th Congress, this Committee passed 
legislation authored by Mr. Hall to expand climate services by 
authorizing the National Integrated Drought Information 
Service, or NIDIS. It was a commonsense measure, unburdened by 
today's political rhetoric on climate change.
    I hope that this hearing is not going to be another 
discussion about whether NOAA, in some underhanded way, has 
already established a Climate Service office without the 
consultation and approval of Congress. Dr. Lubchenco has stated 
several times, both verbally in this Committee and in letters, 
that NOAA has not established nor implemented a Climate Service 
line office. To rehash that discussion again today would be a 
waste of our time and taxpayers' dollars when we should be 
working to determine how NOAA can best serve the public's need 
for these services. It really is time to move forward.
    This Committee has been discussing the creation of a 
Climate Service for the last few years now, and weighing the 
pros and cons of the different options for structuring the 
program. And there has been no shortage of input. In addition 
to the relevant agencies, many stakeholders have testified 
before this Committee and written letters, and numerous 
articles have been published about the growing need for, and 
the key elements of, an organized Climate Service. We must 
ensure that the services are aligned in a way that there is 
robust interagency coordination, and that the Federal 
Government is positioned to support the different regions and 
the State, local and tribal governments in their efforts. We 
must also make sure we continue to strengthen NOAA's climate 
science capabilities while also delivering timely and needed 
services. I expect that we will hear a commitment and a plan 
from NOAA for how to ensure that both the research and the 
services are maintained, and that other crucial missions of the 
agency are not compromised.
    We may not yet agree on the mechanics, scope or scale of a 
program, but I believe we can all see the benefit of providing 
the individuals, communities, governments, and businesses in 
our districts with the type of reliable long-term climate 
information and services that will reduce our vulnerability to 
weather and climate events. I would hate to look back and 
regard these years we have spent discussing this as a lost 
opportunity to do something good for the next generation.
    Thank you, Mr. Hall, and before I yield back, I would like 
to ask unanimous consent to submit a few letters of support for 
this Climate Service. I have letters here. One is a bipartisan 
one from two former Under Secretaries of NOAA that preceded our 
current Administration, Vice Admiral Lautenbacher from the Bush 
Administration and James Baker from the Clinton Administration. 
I also have letters from the Southern Regional Climate Center, 
the Desert Research Institute and the Midwestern Regional 
Climate Center. These groups and others are urging us to 
support the reorganization of NOAA's proposal for the creation 
of Climate Service.
    Thank you, and I yield back, Mr. Hall.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you, Chairman Hall. I appreciate you holding this hearing 
today to discuss the climate science and services of NOAA and their 
efforts to create a Climate Service line office within the agency. We 
will also discuss the range of services and products NOAA already 
provides for countless numbers of users, including the U.S. Navy, who 
is with us today.
    This Committee has heard as much as, if not more than, any other 
Committee on the subject of climate change. The scientific evidence is 
strong and, in my opinion, incontrovertible. Unfortunately, despite 
years of hearings and support for climate science through both 
Republican and Democratic Administrations and Majorities, it is clear 
that Congress has taken a step backwards and allowed fear, doubt, or 
ignorance to undo the progress we were beginning to make on climate 
change science. Instead of denying the existence of climate change, 
today we should be asking ourselves what we can do to help Americans 
adapt to the impacts of a changing climate.
    These impacts will extend far beyond mere inconvenience. For anyone 
that is more concerned about financial costs of taking action to 
prevent and adapt to climate change, I ask you to consider the economic 
impacts such as prolonged droughts and heat waves, increased flooding, 
more intense storms, species extinction and invasive species, sea level 
rise, melting polar ice caps, and mass migration, just to name a few.
    From the tornadoes in the South, drought and fires in the West, and 
flooding in the Midwest, regardless of their relation to climate 
change, we have seen in recent months how even isolated instances of 
these phenomena can devastate economies. That said, why would we not 
want to give people the tools and information needed to anticipate what 
is to come?
    Many sectors of our society--farmers; natural resource managers; 
coastal resource managers; State and local government officials; the 
transportation sector; and water, utility, and energy companies, just 
to name a few--all benefit from NOAA's ability to predict the intensity 
and duration of climatic events. On the national, regional, and local 
scale, these services and products will make it easier for decision 
makers and managers to prepare and develop plans to respond to the 
various weather and climate events.
    As the demand for more climate information has grown, so has the 
need for our scientists to better understand and explain the various 
climate cycles and patterns. This is not a new need. In fact, in the 
107th Congress, this Committee passed legislation authored by Mr. Hall 
to expand climate services by authorizing the National Integrated 
Drought Information Service or NIDIS. It was a common sense measure, 
unburdened by today's political rhetoric on climate change.
    I hope that this hearing is not going to be another discussion 
about whether NOAA, in some underhanded way, has already established a 
Climate Service office without the consultation and approval of 
Congress. Dr. Lubchenco has stated several times, both verbally in this 
Committee and in letters, that NOAA has not established or implemented 
a Climate Service line office. To rehash that discussion again today 
would be a waste of our time and taxpayer dollars when we should 
working to determine how NOAA can best serve the public's need for 
these services. It is time to move forward.
    This Committee has been discussing the creation of a Climate 
Service for a few years now, weighing the pros and cons of the 
different options for structuring the program. And there has been no 
shortage of input. In addition to the relevant agencies, many 
stakeholders have testified before this Committee and written letters, 
and numerous articles have been published about the growing need for, 
and the key elements of, an organized climate service.
    We must ensure that the services are aligned in a way that there is 
robust interagency coordination, and that the Federal Government is 
positioned to support the different regions and the State, local, and 
tribal governments in their efforts. We must also make sure we continue 
to strengthen NOAA's climate science capabilities while also delivering 
timely and needed services. I expect that we will hear a commitment and 
a plan from NOAA for how to ensure that both the research and the 
services are maintained, and that other crucial missions of the agency 
are not compromised.
    We may not yet agree on the mechanics, scope, and scale of a 
program, but I believe we can all see the benefit of providing the 
individuals, communities, governments, and businesses in our districts 
with the type of reliable long-term climate information and services 
that will reduce our vulnerability to weather and climate events, I 
would hate to look back and regard the years we have spent discussing 
this as a lost opportunity to do something good for the next 
generation.
    Thank you, Chairman Hall.

    Chairman Hall. Thank you, Ms. Johnson.
    Without objection, they will be admitted.
    [The information can be found in Appendix 2.]

    Chairman Hall. The gentlelady from Texas yields back.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witness panel. I 
would like to introduce our first of two witnesses, Dr. Jane 
Lubchenco. Prior to her service as Administrator at NOAA, Dr. 
Lubchenco served as the president of the American Society for 
the Advancement of Science, a professor at Harvard and Oregon 
State University, and she was also on the Board of Directors 
for the National Science Foundation. Dr. Lubchenco was sworn in 
on March 20, 2009, and this is the fourth time she has appeared 
before this Committee, and I thank you for being here. I 
recognize you for five minutes. I will not hold you to five 
minutes, just do your best to stay around it.

                  STATEMENT OF JANE LUBCHENCO,

 ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Lubchenco. Thank you very much, Chairman Hall, Members 
of the Committee. It is a pleasure to be here today, and I 
greatly appreciate the opportunity to talk to you about the 
proposed reorganization that was included in the President's 
fiscal year 2012 budget. This proposal would strengthen science 
across the agency, increase organizational effectiveness and 
create a new line office to allow NOAA to better meet the 
growing demand for information and services to help Americans 
plan for drought, prepare for floods, and support U.S. national 
security priorities around the globe.
    The proposed realignment would enable NOAA to continue to 
advance our high-quality science and more readily transition 
scientific findings into usable services for American farmers, 
emergency managers, health care providers, weather-dependent 
businesses, Department of Defense, and more.
    Before proceeding, I would like to again assure you that 
NOAA has not established a Climate Service. We fully understand 
that Congressional approval is needed, and I would like to 
apologize for the fact that my testimony was delayed in getting 
to the Committee, and I reiterate my regret for the manner in 
which the conversation between Congress, the Department and 
NOAA began.
    In February of 2010, we announced our intention to 
establish a Climate Service. That announcement did not go well, 
and I apologize that we got off on the wrong foot. That 
announcement was intended to mark the beginning of a dialogue 
with Congress. Mr. Hall, it is my sincerest hope that the time 
and effort that we have committed to sharing information with 
the Committee and responding to your requests over the last 
year have begun to restore the good will that long 
characterized the relationship between NOAA and the Science 
Committee, and it is my sincere hope that we can continue to 
work together going forward to build a stronger science and 
service enterprise at NOAA.
    Few environmental factors affect our economy, ecosystems, 
and livelihoods more than weather and climate. Severe weather 
and climate extremes pose risks to human health, safety and 
property. Everyone understands the influence of weather on 
everyday life. Will it be hot or cold? Do I need an umbrella? 
Just as weather affects our daily decisions, so too does long-
term weather or climate. Can farmers in northeastern Minnesota 
grow higher-value crops such as soybeans on their farms? How 
far from the Mississippi River or the Gulf Coast should houses 
be built? Will there be enough water to support the anticipated 
growth in Atlanta suburbs 20 years from now? NOAA's information 
about climate conditions is essential to smart planning and to 
create better prepared and more resilient businesses and 
communities.
    The public is demanding more data and increasingly complex 
products at scales that are relevant to their decisions, and 
NOAA is working in concert with our partners to address these 
needs. A prime example of this, NOAA and the Western Governors 
Association are working toward a memorandum of understanding to 
improve the development, coordination, and dissemination of 
climate information to support the priorities and resource 
management decisions of western states. This MOU will build on 
NOAA's longstanding collaboration with the Western Governors 
Association on drought services and it explicitly recognizes 
the need for engagement among federal agencies and non-federal 
partners on this issue.
    NOAA's climate services are also supporting the growth of a 
new category of economic, scientific and technologic 
innovation, entrepreneurs and businesses that specialize in the 
provision of tailored climate services and products that 
support specific users. This emerging private sector climate 
service industry takes information and products generated by 
the public sectors, adds value and markets them to businesses, 
states and the public. A roughly $1 billion private sector 
weather industry has grown up around NOAA's weather services 
and it is expected that a similar industry will emerge around 
NOAA's climate services.
    NOAA is acutely aware that we do not stand alone on 
climate. We are key partners in the provision of climate data 
and services with other agencies, and we recognize that to meet 
America's growing need for timely, relevant, and authoritative 
information will require the concerted effort of the entire 
public and private climate enterprise.
    The idea of creating a Climate Service at NOAA is not new. 
The concept first surfaced in the 1970s and took hold in the 
Bush Administration when Vice Admiral Lautenbacher recognized 
NOAA could not support the Nation's rising demand for NOAA's 
climate services within our existing organizational structure 
where in our core climate science information and service 
activities are distributed across multiple line offices, thus 
inhibiting our ability to efficiently target and deploy our 
resources and efforts.
    To resolve these inefficiencies and to meet the needs of 
the public, Administrator Lautenbacher announced his intent to 
establish a Climate Service organization in NOAA in 2008. Under 
my tenure at NOAA, we built upon the work he began and formally 
proposed an internal agency reorganization to consolidate the 
management of climate-related programs. This proposal would 
consolidate management, capture material efficiencies, and 
provide enhanced traceability and transparency across our 
climate activities, thus providing an efficient and effective 
research to service enterprise at NOAA. Throughout this 
process, NOAA has worked with the brightest minds on 
institutional planning and administration to design and 
implement a proposed reorganization. These principles and 
options were informed by recommendations from NOAA's Science 
Advisory Board, the Science Advisory Board's Climate Working 
Group, and a broad array of other interests including the 
National Academy of Public Administration panel that was formed 
at the request of Congress. After careful review, and as 
detailed in my written testimony, it was determined that the 
option that strengthens and maintains our Office of Oceanic and 
Atmospheric Research while establishing a separate Climate 
Service line office was the best solution. It minimizes 
disruption to Weather Service operations. It strengthens 
science across the agency and best aligns climate science with 
service delivery. Throughout, NOAA's SAB and our Climate 
Working Group actively considered the Nation's need for climate 
services and NOAA's climate capabilities and shortcomings.
    Mr. Hall, we both care deeply about NOAA and about the 
science that occurs in NOAA. Science is the foundation of all 
that we do, and a cornerstone of this proposal is to strengthen 
OAR and NOAA science more broadly to support our mission and 
our services. In addition, this proposal would not diminish our 
investment in research and it would not move resources away 
from non-climate programs in OAR or other NOAA offices or 
programs. Similarly, none of NOAA's climate or other research 
capabilities is diminished by the proposed reorganization, and 
we don't propose any fundamental changes to the balance of 
internal versus external funding.
    The proposal would open the door for OAR to turn its 
attention to incubating solutions to tomorrow's long-term 
science challenges, to integrating agency-wide science 
portfolio and driving NOAA science and technology innovation. 
OAR's ability to conduct long-term world-class research 
observation and modeling exemplified most recently in our 
contribution to the Deepwater Horizon response makes this line 
office instrumental to achieving our long-term vision. OAR 
would be positioned to lead crucial research and integrate 
collective capabilities across NOAA.
    I am grateful that you, Mr. Hall, and the Committee Members 
have such a passion for our scientific enterprise. We share 
that with you, and we are committed to working closely with you 
to strengthen science at NOAA. I believe that our proposal 
embraces the highest standards of scientific excellence and 
integrity, and last week we released NOAA's draft scientific 
integrity policy for public comment. Its purpose is to ensure a 
continued culture of scientific excellence and integrity at 
NOAA, and it explicitly prohibits science managers from 
suppressing or censoring scientific findings.
    In summary, then, our proposal would allow NOAA to better 
enable Americans to make informed investment choices, build 
private sector jobs, grow a climate service-oriented sector of 
the economy, and create resilient communities while refocusing 
and strengthening NOAA's capacity for high-quality 
transformational research across the agency. I know that 
strengthening NOAA's science is an issue on which the Committee 
shares our strong commitment and we are grateful for your 
support. We look forward to working with the Committee to 
continue to advance NOAA's mission-focused science enterprise 
as we move forward. I believe that this is the right solution 
for NOAA and it is a good thing for American taxpayers, 
businesses, and for Congress. It does not grow government. It 
is not regulatory in nature nor does it cost American taxpayers 
any additional money. This is a proposal to do the job that 
Congress and the American public have asked NOAA to do but to 
do it better. Thank you very much.
    [The prepared statement of Ms. Lubchenco follows:]
               PREPARED STATEMENT OF DR. JANE LUBCHENCO,
     ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION
    Chairman Hall, Ranking Member Johnson, and Members ofthe Committee, 
before I begin my testimony, I would like to thank you for the 
leadership, interest, and support that you have shown the National 
Oceanic and Atmospheric Administration (NOAA), one of the Nation's 
premier Earth science and service agencies. I am honored to be here as 
the Under Secretary of Commerce for Oceans and Atmosphere at NOAA to 
discuss the proposed reorganization that was included in the 
President's Fiscal Year (FY) 2012 budget. This proposal would 
strengthen science across the agency, increase organizational 
efficiencies, and create a new Climate Service Line Office at KOAA--to 
allow us to better meet the growing demand for climate information and 
services on climatic conditions and long-term forecasts that are vital 
to America's businesses and communities. I would like to emphasize 
upfront that this reorganization is a proposal, and NOAA has not 
created a new Line Office.

Summary

    NOAA's short-term weather forecasts of conditions on an hourly 
basis to about two weeks out are a key component of our mission to 
protect American lives and property. Likewise, NOAA's long-range 
weather and seasonal forecasts, also known as climate forecasts, inform 
advance planning decisions, from weeks to months ahead of time, that 
allow for a rapid response to the onset of events such as severe 
storms, droughts, and floods.
    Although many people think very long term when they hear the word 
``climate,'' climate simply picks up where weather leaves off. 
``Climate services'' refer to forecasts of conditions any time in the 
future beyond two weeks. For more than a century, NOAA has provided 
information about the weather, by way of short-term forecasts of less 
than two weeks, and about the climate through long-range forecasts from 
two weeks to seasons or years out. For example, NOAA's climate 
forecasts, including seasonal precipitation and drought outlooks, are 
helping firefighters in Texas prepare for and respond to this record 
wildfire season. These data and products are not just critical to 
Americans when it comes to saving lives and property; NOAA's 
information is being used by businesses, industry, and governments to 
make smart investments in the economy and infrastructure. For example, 
just one of NOAA's information tools is helping the U.S. home building 
industry save an estimated $300 million per year in construction costs 
alone, by using NOAA's temperature trend information to design cost-
effective building foundations.
    Americans also depend on NOAA's climate information to reduce their 
risk to natural hazards (such as drought and flooding) and to take 
advantage of opportunities to use scarce resources more efficiently 
(such as reducing irrigation schedules during periods of above-normal 
precipitation). And they are now demanding more data and increasingly 
complex products in a timely manner that, in turn, requires advanced 
scientific study. Appendix A ofthis testimony provides examples of the 
impressive growth in demand for NOAA's climate service, as well as 
additional examples of the types of services and data requests NOAA 
receives.
    NOAA cannot meet the Nation's increased demand for this information 
with our current organizational structure. Our core climate science, 
information, and service activities are distributed across multiple 
line offices and therein inhibit our ability to efficiently target and 
deploy our resources and efforts. To address these administrative 
inefficiencies, the Department of Commerce and NOAA proposed an 
internal agency reorganization to consolidate the management of our 
climate-related programs, laboratories, and centers in a new NOAA 
Climate Service. Appendix B outlines the extensive criteria used to 
evaluate the various options for organizational structure of a climate 
service within NOAA, and reviews the analysis of the various options 
not selected. This effort was initiated under George W. Bush's 
Administration, and it has been highly vetted by a diverse array of 
organizational experts, scientists, NOAA's own Science Advisory Board 
(SAB), and, at the request of Congress, the National Academy of Public 
Administration (NAPA).
    The Climate Service Line Office at NOAA would be a single point of 
contact in NOAA to provide credible, useful, and timely information 
products. It would work with the broader climate service enterprise, 
including other Federal, State, and local government agencies, the 
academic community, and the private sector to provide businesses, 
communities, and resource managers with services and information for 
decision making. The proposed Climate Service Line Office at NOAA would 
improve NOAA's organization, such that the agency can be a more 
accessible, transparent, and collaborative partner to achieve the 
agency's climate goals and to ensure that all Americans' needs for 
climate information are met. In doing so, NOAA's reorganization would 
also support economic innovation and entrepreneurship. This includes 
supporting development of the private sector climate services industry 
emerging around NOAA's climate information, in much the same way that 
the roughly $1 billion plus private sector weather industry has grown 
up around NOAA's weather data and services. Please see Appendix C for a 
description of the many benefits the proposed Climate Service Line 
Office at NOAA would provide.
    A cornerstone of this reorganization is strengthening the Office of 
Oceanic and Atmospheric Research (OAR) and NOAA science more broadly to 
advance our scientific understanding and develop new technology to 
support NOAA's mission and services. NOAA's proposal embraces the 
highest standards of scientific excellence and integrity. In doing so, 
our proposed reorganization would preserve, strengthen, and integrate 
the existing solid foundation of science across the agency, advance 
innovative and transformational research and development, and incubate 
solutions to NOAA's next grand science challenges. I know this is an 
issue on which the Committee shares our strong commitment, and we are 
grateful for your support. We look forward to working with the 
Committee to continue to advance NOAA's mission-focused science 
enterprise as we move forward.
    The proposed reorganization is good government. It comes at no 
additional cost to the American taxpayer, and would sustain NOAA's 
scientific research capabilities and focus them on these new 
challenges. In short, Americans are demanding more and better products 
to help them prepare for severe weather events and other hazards, and 
NOAA is proposing to more efficiently use the resources we receive to 
advance our science and improve our delivery of services to the public.

Climate, Weather, and Service Products

    The Nation has relied on climate information and services for 
decades, in the same way we have relied on weather information (like 
severe weather forecasts and warnings) and other weather services. 
Throughout history, as well as today, people around the country and the 
world use climate information to minimize risks and maximize 
opportunities across a diversity of sectors. Weather information is 
short term, provided in hourly to roughly two-week forecasts. Many 
think of climate as far into the future, but in fact, climate picks up 
where weather leaves off at about the two-week mark. Climate services, 
like weather services but on a longer time scale, generally from two 
weeks out to seasons and beyond, are rooted in historical records of 
temperature, precipitation, storms, sea level, ice coverage, and 
related oceanic and atmospheric processes. Climate services are easily 
accessible and provide timely scientific data and information about the 
climate that help people make informed decisions in their lives, 
businesses, and communities. For decades, NOAA has been at the 
forefront of advancing climate science and delivering climate 
information products. Specific examples of NOAA's climate products 
include:

    <bullet>  Seasonal Atlantic and Pacific basin hurricane outlooks,

    <bullet>  Seasonal Outlooks (three-month) for precipitation and 
temperature,

    <bullet>  Seasonal to weekly drought outlooks,

    <bullet>  Monthly U.S. and global climate summaries,

    <bullet>  Annual State of the Climate reports,

    <bullet>  Annual Arctic Report Card updates,

    <bullet>  Sea Level Rise predictions,

    <bullet>  Climate projections and scenarios about future climate 
conditions.

    As NOAA's climate science and services continue to mature, we 
should be better able to keep people out of harm's way, and enable them 
to plan for their communities' future and make smart business 
investments.

The Overarching Goals of the Reorganization Proposal

    In the President's FY 2012 budget to Congress, the Secretary of 
Commerce proposed a budget-neutral reorganization of NOAA to improve 
its ability to provide Americans with information and services that 
will help them prepare for natural hazards and to make informed 
decisions.
    The proposal outlines two major objectives essential to achieving 
this goal: (1) improve NOAA's ability to efficiently and effectively 
respond to the Nation's increasing demands for climate information, 
consistent with the Department of Commerce's (DOC) authority under the 
National Climate Program Act (15 U.S.C. Sec. 2901, et seq.); and (2) 
strategically renew and strengthen the agenda of the Office of Oceanic 
and Atmospheric Research's (OAR), NOAA's core research organization, 
making it a forward-looking charge to--incubate solutions to long-term 
science challenges, integrate an agency-wide science portfolio, and 
drive science and technology innovation. The reorganization would allow 
NOAA to better execute its mission, legislative mandates, and funding 
in a more effective, and transparent manner, It would consolidate 
NOAA's existing, widely dispersed climate capabilities under a single 
Line Office management structure to better organize NOAA to respond to 
the Nation's rapidly increasing demand for climate information and 
services.
    This strategic aligmnent of climate assets will allow NOAA to 
improve its ability to provide the reliable and authoritative climate 
data, information, and decision-support services that Americans seek 
through a centralized, coherent, unified structure that will better 
facilitate coordination with other federal, state, local, and tribal 
partners. NOAA recognizes that no one federal agency, nor the Federal 
Government alone, can meet the Nation's need for climate science and 
services. This proposal would improve NOAA's organization such that the 
agency can be a more accessible, transparent, and collaborative 
partner. NOAA will continue to rely on governmental, academic, and 
private sector partnerships to ensure that all Americans' needs for 
climate information are met.
    We are not requesting an increase in funds to implement this 
proposed organizational change. Equally important, the proposal does 
not move resources away from non-climate programs in OAR, or other NOAA 
offices or programs, to fund the Climate Service Line Office at NOAA. 
We are simply proposing to use existing climate-related funds and 
assets more effectively. In the same way, none of NOAA's climate or 
other research capabilities is diminished by the proposed 
reorganization. In fact, the proposal would free OAR to renew its focus 
on other innovative long-term research priorities across the agency, 
much as it has focused on and matured climate science over the past 
four decades, bringing it to the point that it is now ready to be more 
closely aligned with services, Furthermore, we do not propose any 
fundamental change to the balance of internal versus extramural 
funding, pending Congressional appropriation, Much like you would tune 
up your car's engine to obtain better performance, we are proposing to 
``tune up'' our agency so we can better meet our Congressional mandates 
to provide Americans with climate information for smart decision 
making.

Scope and Demand for NOAA's Climate Services

    Few environmental factors affect our economy, ecosystems, and 
livelihoods more than weather and climate. Severe weather and climatic 
extremes pose risks to human health, safety and property. Apart from 
the extremes, everyone understands the influence of weather on everyday 
life. Will it be hot or cold, windy or calm? Do I need an umbrella? 
Just as weather affects our daily decisions, so too does climate. Can 
farmers in northeastern Minnesota grow soybeans on their farms? How far 
from the Mississippi River or the Gulf Coast should houses be built? 
Will there be enough water to support the anticipated growth in 
Atlanta's suburbs 20 years from now? Information about climate 
conditions is essential to smart planning, and to create better 
prepared and more resilient businesses and communities. NOAA's climate 
capabilities have matured significantly and grown in sophistication 
over the past 40 years. Today, more Americans than ever before depend 
upon this essential information to make decisions. The public is now 
demanding more data and increasingly complex products at scales that 
are relevant to them. Detailed accounts of the volume and scope of 
requests for NOAA's climate service products are provided in Appendix 
A.

Creating Opportunities for the Private Sector

    NOAA's climate services are supporting the growth of a new category 
of economic, scientific and technology innovation: entrepreneurs and 
businesses that specialize in the provision of tailored climate 
services and products that support specific users. This emerging 
private sector climate service industry utilizes information and 
products generated by the public sector, adds value, and markets them 
to businesses and the public in much the same way as the existing 
private sector weather services industry. For example, private sector 
service providers use NOAA's long-term temperature and precipitation 
records to develop tailored products to help the energy sector plan for 
electricity demand and water availability. An explicit goal of the 
proposed Climate Service Line Office at NOAA is sustained engagement 
with the private sector to ensure that all of NOAA's climate data and 
products are easily accessible and supporting the development of this 
emerging market with tremendous growth potential. A roughly billion 
dollar private sector weather industry has grown up around NOAA's 
weather services, and it is expected that a similar private sector 
climate industry will emerge in coordination with NOAA's climate 
services.

History of NOAA's Climate Services and Existing Congressional 
                    Authorization

    One of NOAA's longest and proudest legacies is that of being a 
leader in the field of climate science and service delivery. NOAA 
maintains the official U.S. and global climate data record, produces 
operational seasonal forecasts that include drought and flood outlooks, 
maintains the longest continuous data record of carbon dioxide 
measurements, and operates more than 50 percent of global ocean 
observation platforms, as well as other environmental sensors that span 
the globe. We have Nobel Prize-winning scientists who collaborate with 
peers from around the world to advance our knowledge of the planet's 
ever-changing climate system using data from observations and models.
    In 1978, Congress had the foresight to see that climate information 
was important to the Nation, and officially passed the National Climate 
Program Act, which stated, ``It is the purpose of the Congress in this 
Act to establish a national climate program that will assist the Nation 
and the world to understand and respond to natural and man-induced 
climate processes and their implications.'' This legislation also 
recognized NOAA's role, within the Department of Commerce, as the 
leading provider of climate information and services. With this charge 
from Congress, NOAA has been actively working to help society 
understand, plan for, and respond to climate variability and change. 
NOAA is committed to providing a suite of relevant climate science and 
services to help governments, businesses, and communities to manage 
their risks and take advantage of new opportunities. NOAA's climate 
capabilities are focused in core areas:

    <bullet>  Climate Observations and Monitoring to describe and 
understand the state of the climate system through integrated 
observations, monitoring, data stewardship;

    <bullet>  Climate Research and Modeling to understand and predict 
climate variability and change in time frames ranging from weeks to a 
century; and

    <bullet>  Climate Information Services to improve society's ability 
to plan and respond to climate variability and climate change.

    Congress and this Committee have long recognized NOAA's leadership 
and capacities in the development and delivery of climate science and 
services, The Global Climate Change Research Act, the National Climate 
Program Act, the National Weather Service Organic Act, and the National 
Integrated Drought Information System Act (NIDIS) not only underpin the 
strong federal interagency climate science enterprise that has advanced 
the U.S.' and world's understanding of the Earth system, but also 
provide NOAA its foundational authorities to advance climate science 
and develop and deliver the climate services that serve the Nation. 
Over time, as our understanding of the climate system has improved, 
NOAA has worked with and alongside its partners to transition NOAA data 
into climate services that support a broad range of decision makers. 
NOAA's NIDIS program is an excellent example of how our environmental 
information services can be critical to local decision makers, farmers, 
ranchers, energy producers, resource managers, and emergency 
responders. NIDIS demonstrates how our understanding of the climate 
system has advanced to the point where we can begin to develop regional 
climate services, and it holds repeated endorsements for the value of 
its services from a broad range of groups, including the Western 
Governors Association.
    In its most recent recognition of NOAA's important role in climate 
science and services, Congress called for an expert panel ofthe 
National Academy of Public Administration (NAPA) to conduct a study of 
organizational options for the development of a Climate Service in 
NOAA. \1\ The Panel of private and public sector business and 
administrative experts concluded that NOAA's assessment of user demand 
is accurate, but the business processes that NOAA has employed to meet 
this demand, including matrix management, were beneficial but largely 
inadequate. Next, they reviewed a broad range of organizational options 
specific to optimizing NOAA's ability to develop and deliver climate 
services. Ultimately, NAPA concluded that a Climate Service Line Office 
at NOAA would be needed for the agency to adequately respond to the 
increasing demand for climate information, and provided some valuable 
recommendations for its design and implementation.
---------------------------------------------------------------------------
    \1\  U.S. Congress, House, Conference Committee Report to Accompany 
Consolidated Appropriations Act, 2010, 111th Congress, 1st Session, 
2009, Report 111-366.

---------------------------------------------------------------------------
Challenges of NOAA's Current Organization

    Today, climate science and service capacities are distributed 
across five Line Offices at NOAA, resulting in bureaucratic 
inefficiencies, no clear access point to NOAA's climate information for 
users, and missed opportunities for synergies between scientific 
advances and fast-evolving services. Historically, this was less of a 
problem, as service development and delivery was less in demand, 
However, growing demand for advanced climate services has highlighted 
the limitations of NOAA's current organizational structure. Scientific, 
industry, government and public concerns about natural hazards such as 
floods and drought are fueling the tremendous growth in the demand for 
climate-related information from NOAA. All sectors of society are faced 
with the need to better understand and anticipate the impacts of 
climate variability and change in order to make more informed decisions 
and be competitive at home and abroad.

Existing Structure Is Unable to Keep Pace With Demand

    Through our existing network of laboratories. data centers. 
programs, and operational assets distributed throughout the agency, 
NOAA responds to millions of annual requests for climate information. 
However, under our current distributed organizational structure for 
climate science and services, the rapidly increasing user demand is 
outpacing NOAA's capacity to effectively deliver requested products and 
information and exceeding NOAA's ability to meet or be responsive to 
future needs.
    NOAA stakeholders who want access to our information have expressed 
frustration that they do not know who to go to as we have too many 
points of entry for climate information. For example, although the 
Climate Prediction Center produces the seasonal forecasts, information 
on historical climate is kept at the National Climatic Data Centers. It 
is reasonable for a stakeholder to include seasonal predictions and 
trends in a single request to NOAA, but they currently need to go 
through two different Line Offices to get this information. As another 
example, coastal managers looking for information on sea level rise 
will need to work with the National Oceanographic Data Center in the 
National Environmental Satellite, Data and Information Service (NESDIS) 
to find the data, the Climate Program Office in OAR and the regional 
climate services director in the National Climatic Data Center for 
information on grants and partners, and our labs in OAR, including the 
Geophysical Fluid Dynamics Laboratory and the Earth System Research 
Laboratory, for the models that help us understand future sea level 
trends. The single point of entry that the Climate Service Line Office 
at NOAA will provide is obviously needed.
    Numerous external studies by NOAA's Science Advisory Board 
(SAB),the National Academies, NAPA, and others have reiterated the 
Nation's demand for easy-to-find, reliable, and understandable 
information and products ahout climate variability and change. A 
centralized Climate Service Line Office at NOAA will increase the 
agency's ability to anticipate, understand and provide the information 
Americans need to meet the challenge of being competitive and resilient 
in the climate of the future by incorporating relevant climate 
knowledge in their decision making today.

A New Organizational Structure Is Needed

    Reorganizing NOAA's existing climate capabilities under a single 
Line Office will create a more integrated and efficient organization to 
better respond to these critical needs at the national and local level, 
and allow the agency to make key contributions in the development and 
delivery of climate science and services. Creating one office will 
establish a stronger position for NOAA to conduct its climate research, 
monitoring and assessment work in a coordinated fashion. It will also 
create a visible and easy-to-find single point of entry for people to 
access NOAA's science and service assets; enable improved information 
sharing and more productive partnerships with federal agencies, local 
governments, private industry and other users and stakeholders; and 
further increase transparency.
    Since NOAA was established in 1970, its broad array of climate 
science and services has developed independently within each Line 
Office to meet each of their specific user needs and Congressional 
mandates. NOAA's existing framework for climate activities was 
established before the potential of climate services was fully 
recognized, and it is not optimized for efficient or coordinated 
climate service delivery. The oversight and management of this network 
of labs, centers and programs remains a decentralized.and loosely 
organized enterprise. NAPA specifically addressed the issue of current 
cross-line coordination efforts in their report. For the past eight 
years, NOAA has used a matrix management system to integrate climate 
activities across the agency. The NAPA review stated:

    The introduction of matrix management and the creation ofthe 
Climate Goal Team were thoughtful and significant investments to 
respond to demand by improving performance across NOAA's distributed 
network of climate activities. Matrix management has helped improve 
alignment across a range of activities and organizational stovepipes.

    NOAA has maximized the use of matrix management, but the rising 
demand for climate services requires NOAA to take additional action. 
NAPA concluded:

     A major challenge of [NOAA's] Climate Goal Team has ultimately 
been its lack of consolidated management control of personnel and 
budgets . . . This has limited NOAA's ability to meet strategic climate 
objectives, and the agency has cited it as an important reason for why 
it proposed creation of a Climate Service.

    NOAA has delivered science and services for decades, responds to 
thousands of direct requests per week, and serves data to tens of 
thousands of users per month via the Internet; however, the reality is 
that NOAA must improve our information and service delivery in order to 
meet the rapidly increasing public demand in this area. We have every 
reason to expect that demand will continue to increase in the future as 
people, business, and communities begin to more fully utilize 
environmental information, including climate forecasts, in their daily 
decision making.
    Organizational structures have many virtues, and the major virtue 
NOAA will achieve here is accountability. During listening sessions and 
engagement activities across the Nation, across sectors, and across 
stakeholder groups, climate services is repeatedly raised as the number 
one area where people would like more from NOAA. However, despite this 
overwhelming demand and business case for our work, there is currently 
no position within NOAA that is accountable for the performance of our 
climate portfolio, resulting in ad hoc coordination and integration 
among dedicated NOAA employees who are willing and eager to step 
outside their traditional management boundaries to advance NOAA's 
climate science and services. As any business will tell you, however, 
this model has its limitations. Strong, focused leadership that is 
committed to executing a unified vision is central to any successful 
business. This is one of the key conclusions of the NAPA Panel, which 
was comprised not of climate scientists, but of business leaders and 
administrative experts who recognized this as NOAA's key challenge in 
growing our service delivery abilities.

How NOAA Arrived at the Reorganization Proposal

    The idea of creating a Climate Service Line Office at NOAA is not 
new. The concept first surfaced in the early 1970s, not long after NOAA 
was established, and later gained prominence and traction in NOAA 
during the George W. Bush Administration. The Bush Administration 
turned the Nation's attention towards the need for a Climate Service 
entity within the Federal Government, and supported rooting its 
foundation within NOAA. Dr. John Marburger, President Bush's Chief 
Science Advisor, also supported the establishnlent of a Climate Service 
and wrote in a letter to the Honorable Senator Inouye that, ``given its 
distinctive observational assets, assessment and prediction capacity, 
and service delivery capabilities, the functions of a National Climate 
Service clearly require a leadership role for NOAA.'' Ultimately it was 
Vice Admiral Conrad C. Lautenbacher, Jr., U.S. Navy (Ret.), the 
previous Under Secretary of Commerce for Oceans and Atmosphere and NOAA 
Administrator under President George W. Bush, who first announced the 
agency's intent to create a Climate Service organization in NOAA.
    Vice Admiral Lautenbacher made great advancements in promoting 
cross-Line Office integration within NOAA by implementing a matrix 
management system. Upon initiating matrix management, the Vice Admiral 
wrote in a NOAA memorandum that one of his first and highest priorities 
under that system was climate. Throughout the course of the previous 
Administration, the Vice Admiral oversaw a level of coordination on 
climate that has had an enduring benefit within NOAA and strengthened 
NOAA's climate science and services enterprise. However, over time the 
Bush Administration leadership recognized that matrix management alone 
was insufficient to ensure NOAA was positioned to support the Nation's 
climate service needs. Thus, in 2008, Administrator Lautenbacher 
announced his intent to establish a Climate Service Line Office in 
NOAA.
    In addition, from 2008 to 2009, the NOAA SAB and its Climate 
Working Group (CWG) undertook an effort to compare and contrast 
specific options for the development of a National Climate Service--a 
broad enterprise of agencies, including NOAA, and organizations 
comprised of users, researchers and information providers. This effort 
resulted in the June 5, 2009, SAB report entitled Options for 
Developing a National Climate Service. The SAB's report concluded that 
each option had significant strengths and weaknesses and that no option 
was viewed as an ideal option for a National Climate Service. The 
report did not make specific recommendations as to how NOAA should 
reorganize its own internal climate capabilities. Among its findings, 
however, the SAB clearly stated, ``The current NOAA organization is not 
well-suited to the development of a unified climate services function. 
Greater connectivity between weather and climate functions and between 
research, operations and users is required.'' Later, NAPA endorsed both 
this and the previous Administration's conclusions and decision to 
establish a climate service organization in NOAA. As noted above, NAPA 
agreed that the previous Administration made significant progress 
towards integrating NOAA's climate assets through matrix management. 
Ultimately, however, NAPA supported the assessment of both the previous 
and current administrations: matrix management alone is not sufficient 
to strategically align NOAA's assets towards our climate service 
objectives.
    Upon arriving at NOAA, I had the opportunity to continue to build 
on the large body of information and analysis that had been done on the 
issue of a climate service organization in NOAA. Ever since the 
previous Administration's decision to establish a Climate Service 
organization, NOAA and external groups have been engaged in efforts to 
further develop the specific design and implementation considerations 
for a Climate Service. NOAA has both been working internally to further 
scope out the concept, as weIl as externally to gather input from its 
partners, including federal, state and local agencies, Congress, 
business and industry, the academic community, and non-governmental 
organizations. NOAA has held dozens of roundtables with our partners 
and constituents to discuss their needs for climate services. In 
addition, at Congress' request, NOAA commissioned NAPA to conduct the 
aforementioned study of organizational options for delivering climate 
services, which included its own extensive stakeholder and partner 
engagement process. Only after serious considerations and 
deliberations, a specific proposal was developed that outlined the NOAA 
programs that should be included in the Climate Service Line Office at 
NOAA.

Options Considered

    There has been significant analysis and discussion both internal to 
NOAA and among external groups about the best organizational structure 
for a climate service in NOAA. The breadth of expertise and interests 
represented and the time that was afforded for these discussions was 
tremendously beneficial to the formulation of NOAA's proposed 
reorganization. DOC and NOAA have taken such discussions and the ideas 
they have generated very seriously. In response, NOAA has worked with 
some of the brightest minds on institutional planning and 
administration, service delivery, stakeholder involvement, and climate 
science to develop, evaluate and integrate the many ideas that have 
arisen from these discussions into the proposed reorganization 
contained in the President's FY 2012 Budget Request.
    Under Vice Admiral Lautenbacher's leadership, NOAA worked with 
private sector management experts for two years to study NOAA's 
structure for climate activities. In addition, NOAA's internal 
management developed numerous strategy documents that have been the 
foundation of the work that has followed under my tenure. Prior to 
developing a suite of options to consider, NOAA set out several design 
principles for all reorganization options that would be considered. 
These principles, and the subsequent options evaluated were informed by 
the recommendations received from our SAB and a variety of other 
internal and external sources of input and advice. The specific 
principles NOAA set out to guide its development of options included 
the following:

    <bullet>  Although various programs and activities would be 
consolidated, renamed, and managed collectively, any reorganization 
could not initiate or create new programs or activities not provided 
for in NOAA's existing authorizations and appropriations;

    <bullet>  All realigned activities in the current year would 
continue to be funded at Congressionally directed levels;

    <bullet>  The reorganization would not increase or decrease the 
NOAA Full-Time Equivalent (FTE) or billet allocation, or require any 
relocation of employees;

    <bullet>  The reorganization would not require any physical 
relocation of programs or labs, or require any new facilities to 
accommodate this reorganization;

    <bullet>  Result in a zero sum realignment of funds within the 
current NOAA budget; and

    <bullet>  Not increase the size of NOAA overhead.

    Adhering to these principles, NOAA subsequently developed and 
analyzed four potential organizational structures to reorganize 
existing NOAA climate assets against a set of design criteria. All 
options considered were budget neutral, none grew the size of 
headquarters, and all had no impact on funding for NOAA's science 
portfolio. These options included: (a) consolidating major climate 
science and service assets in the National Weather Service, (b) 
consolidating major climate science and service assets in a new Climate 
Service Line Office and eliminating OAR by moving its research into 
relevant Line Offices, (c) consolidating major climate science and 
service assets in OAR, and (d) maintaining OAR and consolidating major 
climate science and service assets in a new Climate Service Line 
Office. More information on the design criteria and analysis of options 
that were not selected can be found in Appendix B.

NOAA's Proposal

    After careful review against the design criteria outlined in 
Appendix B, and consideration of all input received, including from the 
SAB, NAPA, and a breadth of internal and external experts, NOAA 
determined that the option that strengthens and maintains OAR while 
establishing a separate Climate Service Line Office was paramount. The 
proposal is equally focused on and committed to strengthening and 
integrating NOAA's science enterprise and advancing the vision of OAR. 
The establishment of a separate Climate Service Line Office and 
maintenance of OAR, as a research-focused Line Office had numerous 
benefits as compared to the other options. OAR will continue to serve 
as NOAA's centralized research Line Office, serving all of NOAA by 
supporting and producing preeminent research and technology innovation 
that advances NOAA's mission. Because high-quality climate science is 
at the core of climate services, housing both climate science and 
services under one organizational structure will allow NOAA to better 
transition climate research findings into usable information and 
services that help businesses and communities make more informed 
economic decisions and safeguard lives and property. Since climate 
services are rapidly evolving, it is beneficial that the climate 
science and service development go hand in hand in order to develop 
products and services that can evolve and be initiated rapidly when 
needed in response to scientific information as it emerges. The 
continuous advancements in climate science demand a close proximity to 
the service, not only so that those advancements can constantly improve 
products (science push), but also so that the users can be asking new 
questions of the science (user pull). More information on the 
efficiencies that would be gained through this proposal, and the 
benefits that would be produced can be found in Appendix C.
    Under NOAA's proposal, the building blocks of the proposed Climate 
Service Line Office would be drawn from three existing NOAA Line 
Offices:

    <bullet>  From OAR: The Geophysical Fluid Dynamics Laboratory, the 
Climate Program Office, and from the Earth System Research Laboratory--
the Chemical Sciences Division, the Global Monitoring Division, the 
Physical Sciences Division;

    <bullet>  From NESDIS: The three data centers--the National 
Climatic Data Center (NCDC),the National Oceanographic Data Center and 
the National Geophysical Data Center; and

    <bullet>  From NWS: The Climate Prediction Center, and management 
responsibilities for climate observing networks including the Tropical 
Atmosphere Ocean (TAO) array and the modernization of the Historical 
Climate Network (HCN-m).

    There will not be any programmatic changes to the National Ocean 
Service, the National Marine Fisheries Service, or the Office of Marine 
and Aviation Operations. It is important to point out that NOAA is 
aware that we must do more than simply reorganize our assets. For 
example, the nation is looking to NOAA for linkages between weather and 
climate, coasts and climate, and living marine resources and climate. 
This will require close working relationships between the new climate 
office and our other Line Offices, and although the Climate Service 
Line Office would take a leadership role, meeting these challenges 
effectively is a NOAA-wide endeavor.
    The proposed Climate Service Line Office structure reflects NOAA's 
response to the needs of numerous demands for climate services, so that 
the agency can: (1) promote integration of NOAA's climate science and 
service assets; (2) heighten the accessibility and visibility of NOAA's 
climate services for our partners and users; and (3) allow NOAA to more 
efficiently address user and partner needs compared to our current 
distributed structure. To make this new organization successful, it 
will encompass a core set of longstanding NOAA capabilities with proven 
success, including climate observations, research, modeling, 
predictions and projections, assessments, and service delivery 
infrastructure. NOAA envisions the proposed Climate Service Line Office 
providing a single point of entry for people to access NOAA's 
information assets, and enabling improved information sharing and more 
productive partnerships with a broader enterprise that includes: 
federal agencies, local governments, private industry, other users, and 
stakeholders. To help realize this broader enterprise, NOAA is co-
chairing (along with U.S. Geological Survey and the Office of Science 
and Technology Policy) a Roundtable on Climate Information and Services 
under the auspices of the National Science and Technology Council.
    NOAA's proposed reorganization also maintains the highest standards 
of scientific integrity for all NOAA science and seeks to strengthen 
and integrate science across the agency. Through the reorganization 
NOAA is seizing the opportunity to refocus OAR's efforts to incubate 
solutions to tomorrow's long-term science challenges, to integrate an 
agency-wide science portfolio, and to drive NOAA science and technology 
innovation. For example, OAR provides: the next-generation weather 
prediction and forecast tools, including the Multi-function Phased 
Array Radar (MP AR) that provides a data refresh every 43 seconds 
versus traditional radar refresh rates of every three minutes; new 
research platforms such as the dedicated Okeanos Explorer that help us 
better understand what is happening under the ocean; and an Earth 
System Prediction Capability that is a NOAA-wide planning effort to 
identify future needs for environmental predictions. Realigning OAR and 
strengthening science across the agency is a core component of the 
proposed reorganization.
    To further ensure that NOAA's commitment to continuing to develop 
leading-edge climate science is strengthened, a climate senior 
scientist position is included in the reorganization proposal. This 
position would ensure sound business practices wherein climate science 
informs, but does not prescribe, decision making, and decision making 
informs climate science but does not prescribe research priorities. 
Additionally, this position will be key to ensuring the highest 
standards of data quality are employed for climate science and 
services.
    In contrast to the NWS model, where science and service (or 
operations) are housed in separate Line Offices, NOAA does not envision 
a service delivery component for the Climate Service Line Office that 
is remotely near the scale of the NWS with its 122 local forecast 
offices and other regional infrastructure. In fact, the research and 
science component of the proposed Climate Service Line Office is 
expected to continue to be much larger than its services component, 
where NOAA intends to employ approaches leveraging outside assets. 
Within NOAA, we will continue leveraging the service delivery 
infrastructure of the NWS and other partners like the Regional 
Integrated Sciences and Assessments (RISAs), Regional Climate Centers. 
State climatologists, Sea Grant extension, Coastal Services Centers, 
National Marine Sanctuaries, and other parts of NOAA. Given the growing 
demands for climate information from business, we are working with 
private sector companies that are providing climate information today 
or are interested in developing this line of business. The latter 
approach is much akin to the relationship between the National Weather 
Service and the vibrant private weather community that exists today.

Specific Endorsements of a Climate Service Line Office

    The unanimous conclusion of internal and external scientists and 
decision makers was that establishing a single management structure for 
the agency's core climate capabilities is required if the agency is to 
rise to meet the Nation's growing need for increasingly sophisticated 
information. One of the key sources of input from among NOAA's external 
advisers that led NOAA to this option were the recommendations of the 
NAPA expert panel that concluded, ``The Panel strongly supports the 
creation of a NOAA Climate Service to be established as a Line Office 
in NOAA.''
    More recently, the SAB CWG winter 2011 report further reinforced 
NOAA's proposal for a dedicated Climate Service Line Office, stating:

    The lack of action in several areas highlighted in the previous 
reviews speaks loudly to the need for a new line organization for 
climate services. These responses clearly illustrated the considerable 
inertia that exists within the present system and the difficulty in 
moving from a matrix-managed program to a line organization. Let there 
be no mistake: there is a tremendous amount of world-class climate 
research being performed within the agency. Yet, transitioning such 
high-quality research into a service-oriented and operational setting 
is quite another matter. There are some fairly major systemic 
challenges that need to be confronted going from a loose federation of 
somewhat independent NOAA organizations to a functioning climate 
service. Short of a Climate Service line organization with budgetary 
authority, the CWG believes it will prove very difficult to effect 
change if NOAA's approach to climate services continues in a matrix 
structure or manner. \2\
---------------------------------------------------------------------------
    \2\  NOAA Science Advisory Board Climate Working Group. 2011 Winter 
Report.

    NOAA's reorganization proposal closely aligns with NAPA's final 
recommendations, such as the inclusion of the NWS's Climate Prediction 
Center, and recognizes the importance of having a temporary leadership 
position for change management in the new organization. It is clear 
that to meet the Nation's growing need for increasingly sophisticated 
information about our changing climate and potential impacts to various 
sectors, internal and external experts and decision makers have 
agreed--NOAA must establish a single management structure to more 
---------------------------------------------------------------------------
efficiently utilize and synergize the agency's core capabilities.

Strengthening NOAA Science and Renewing OAR

    At its core, NOAA is a science agency and science underpins all 
that NOAA does. NOAA is committed to using the best possible science to 
inform our delivery of services, formulation of policies, and execution 
of management responsibilities. We are developing policies and 
practices that will promote scientific excellence inside and outside 
the agency, and enable scientists within NOAA to thrive as they make 
the discoveries and pursue the research necessary to inform our 
services and our stewardship responsibilities. NOAA has been working to 
develop a scientific integrity policy that would ensure a continued 
culture of transparency, integrity, and ethical behavior in NOAA. 
Additionally, NOAA is working to support recruitment and retention of 
scientists through development of a more robust science career track 
and expansion of senior science positions. NOAA's proposed 
reorganization adheres to this commitment to scientific excellence and 
embraces the highest standards of scientific integrity. We appreciate 
and share in the Committee's strong interest in ensuring that NOAA's 
science enterprise continues to advance our understanding of the Earth 
system such that we can provide Americans with the best possible 
information to aid their decision making.

Strengthen Science Within OAR and Across the Agency

    In addition to establishing the Climate Service Line Office, the 
reorganization proposal is equally focused on and committed to 
strengthening and integrating NOAA's science enterprise and advancing 
the vision of OAR. The proposed reorganization does not diminish or 
eliminate any of NOAA's research or science activities, including OAR. 
OAR will continue to serve as NOAA's centralized research Line Office, 
serving all of NOAA by supporting and producing preeminent research and 
technology innovation that advances NOAA's mission. OAR will innovate 
(make new discoveries and find new technology applications), incubate 
(conduct long-term research and develop technology to make new 
discoveries that are useful to NOAA's operations), and integrate 
(strengthen research and technology across NOAA and with partners).
    Throughout the process of developing the proposal, NOAA carefully 
reviewed the role and structure of OAR, and it is our firm view that 
OAR is uniquely important in providing a dedicated science and research 
enterprise within NOAA and should be maintained as NOAA's core capacity 
to provide long-term atmospheric and oceanic research, science 
integration, and technology innovation. The experience of Deepwater 
Horizon highlighted the value of NOAA science to support decision 
making and the delivery of trusted and accurate information. During the 
crisis, OAR was able to take advantage of a deployed research asset 
that was already being used for research purposes--the P-3 aircraft--to 
estimate oil leak rates from the air. That flexibility and ingenuity 
are what enables a strong research enterprise that is responsive to 
real-time and long-term future needs. NOAA will look to OAR to play an 
expanded role as the integrator of science and technology across NOAA 
and provide research that supports NOAA's Next Generation Strategic 
Plan, and OAR will continue to foster and grow collaborations with both 
the interal and external scientific community. While the Climate 
Service Line Office will strengthen climate science and deliver climate 
services, OAR will continue to grow as an incubator of long-term and 
innovative research and integrate science across all of NOAA.
    Renewing OAR's research agenda is part and parcel with the proposal 
to create a Climate Service Line Office. Our motivation is that just as 
OAR has served to incubate and advance climate science over the last 
four decades to a state where it can more readily inform climate 
services, the proposed reorganization will renew OAR's focus as an 
innovator and incubator of new grand challenges in oceanic and 
atmospheric science, technologies, and applications. In the proposed 
reorganization, OAR's portfolio would rise to meet science challenges 
including:

    <bullet>  Coordinating and managing emerging and transformational 
research portfolios including ocean acidification; innovative 
development of improved meteorological, oceanic and atmospheric 
observing technologies; modeling and forecasting to expand the use of 
renewable energy sources; unmanned air and underwater observing 
systems; high-performance computing; and weather ``warn-on-forecast'' 
programs to increase lead time and accuracy for hazardous weather.

    <bullet>  Emphasizing areas that are important challenges and 
opportunities for NOAA, such as fostering integrated ecosystem science 
beyond its current scope to include new tools for sustainable community 
planning, novel ways to observe the world around us, new ways to 
conduct fishery assessments, and innovative aquaculture and feed 
technologies.

    <bullet>  Moving NOAA toward a fully integrated approach to 
environmental modeling that spans the full domain of physical, 
chemical, and biological systems.

    That said, strengthening science and fostering a culture of 
innovation across the agency remains a critical priority for NOAA. OAR 
performs a critical set of functions for NOAA's research enterprise as 
NOAA's central research Line Office, serving all of NOAA by supporting 
and producing long-term and transformational research and technology 
innovation that advances NOAA's mission. In its report, NAPA echoed 
this important role and the need to sustain OAR as a Line Office, as we 
work to stand up a Climate Service Line Office that necessarily 
includes climate science and service, ``all parts of NOAA benefit from 
OAR's work to incubate fundamentally new approaches to mission-centered 
science, a capability best sustained by maintaining a nimble, 
freestanding OAR Line Office.''
    Under the proposed reorganization, OAR would, in cooperation with 
other Line Offices, including a Climate Service Line Office when 
approved, guide the analysis and direction of NOAA's agency-wide 
research portfolio. This responsibility includes: identifying NOAA's 
science challenges and gaps; recommending novel research portfolio 
management approaches; integrating science across NOAA's Line Offices 
to gain a comprehensive understanding of the Earth system. To this end, 
the OAR Assistant Administrator would serve as vice chair of the NOAA 
Research Council. Further, as leader of the central research Line 
Office, OAR's Assistant Administrator will be designated as the Senior 
Advisor to the NOAA Chief Scientist and responsible for providing him 
or her with science program analysis and policy support.

NOAA's Scientific Integrity Policy

    I am excited to share today progress on what I consider the 
cornerstone for strengthening NOAA's scientific foundation. Last week 
we published NOAA's draft scientific integrity policy for public 
comment. Transparency is a key principle in this policy, and in keeping 
with this principle, we are seeking comments from the public for 60 
days. This policy reflects the commitment I made when I first came to 
NOAA to strengthen science, ensure it is not misused or undermined, and 
base decisions on good science. By being honest and open about our 
science, we build understanding and trust. This policy is about 
fostering an environment where science is encouraged, nurtured, 
respected, rewarded, and protected. It applies to all NOAA employees, 
political and career, and addresses applicable policy for grantees and 
contractors. The policy establishes principles for scientific integrity 
and codes of conduct for scientists and science managers, including 
explicitly prohibiting science managers from suppressing or censoring 
scientific findings. As part of institutionalizing this policy, we are 
developing a scientific integrity common Web site with additional 
resources, training opportunities, and FAQ for our staff. Our process 
has been deliberative and inclusive, and we look forward to feedback 
from the public on the draft policy we have developed. Over the next 
several months we will work to revise the policy in response to 
comments, and work with our staff and the Department to finalize and 
implement a policy that will ensure a continuing culture of scientific 
excellence at NOAA, and promote a culture of transparency, integrity, 
and ethical behavior. We look forward to having a Chief Scientist in 
place to help us compete and implement this policy expeditiously.

Increasing Budget Transparency

    As part of the development of the proposed reorganization, NOAA 
considered the overall goal for increasing budget transparency across 
the agency. The proposed reorganization constitutes a consolidation and 
technical transfer of climate programs into a new Line Office that can 
better link climate science with decision support and other services 
being requested by the public. It does not eliminate or otherwise 
diminish any of NOAA's science mission, and NOAA's overall funding for 
cutting edge-research--whether climate or other critically important 
areas like oceans and weather--is not proposed to be reduced.
    The structure of the proposed Climate Service Line Office and OAR 
budgets provides considerable transparency into the funding levels for 
the underlying programs, there better enabling Congress and the public 
to ensure that climate or other NOAA science is not diminished. The 
funding associated with the labs and programs that are proposed to be 
transferred from OAR to the Climate Service Line Office will be 
maintained and in some instances, such as ocean acidification and 
weather radar research, the FY 2012 Budget proposes targeted new 
investments in OAR for cutting-edge science.

Conclusion

    We have not yet created a Climate Service Line Office, but believe 
doing so would be the best thing for NOAA and the Nation in order to 
provide the services American businesses and communities need to 
compete and respond to changing environmental and economic landscapes. 
The proposal to bring climate science and services together under one 
Line Office is fundamentally sound and provides a tremendous 
opportunity to integrate science and service delivery without 
detracting from a commitment to pursue, fund, and sustain basic 
research and science across the agency. NOAA's proposal has been highly 
vetted within the agency by our scientists, managers, and SAB, across 
the Federal Government, and from numerous external groups and 
individuals representing the brightest minds and thought leaders on 
climate science, service and organizational development. The proposal 
reflects the same basic organizational structure recommended by NAPA, 
and was submitted to Congress for approval as part of NOAA's FY 2012 
Budget Request.
    The proposed Climate Service Line Office would provide NOAA with 
the most efficient and effective structure to engage the American 
public and deliver timely and trusted information to a diversity of 
sectors and communities to make informed decisions to prepare for and 
become more resilient to environmental hazards. Climate information 
users recognize that climate variability and change bring not only new 
challenges to managing business, industry and the environment, but also 
new opportunities for innovation, adaptation and commerce. They want 
trusted and timely information so they can make informed decisions that 
minimize their own exposure to climate impacts while maximizing their 
future opportunities.
    NOAA's deep regard for our responsibilities as sound stewards of 
taxpayer dollars is reflected in this reorganization proposal where we 
outlined our strategy to deliver sound products to our users while 
maximizing organizational efficiency, creating jobs and stimulating 
economic growth, These are chief priorities for NOAA and the entire 
Federal Government. In addition, the Climate Service Line Office will 
create a place where new markets for private sector service providers 
can grow. These businesses can take information and products generated 
by the government and convey them to the public, using a model similar 
to those that provide weather products.
    This proposal is a good thing for the American taxpayer, for 
Congress, and for NOAA. I believe it is the right solution for NOAA to 
better meet the Nation's current and future climate service demand. In 
summary, the proposed reorganization will allow NOAA to better enable 
Americans to make informed investment choices, build private sector 
jobs, grow a climate service-oriented sector of the economy, and create 
resilient communities while refocusing and strengthening NOAA's 
capacity for high-quality, transformational research across the agency. 
This proposal does not grow government, it is not regulatory in nature, 
nor does it cost the American taxpayer any additional money, This is a 
proposal to do the job that Congress and the American public have asked 
us to do--only better.

Appendix A: Scope and Demand for NOAA's Climate Services

    The increasing demand for NOAA's climate data and service products 
is real and it is happening now. The following statistics demonstrate 
the tremendous increase in public user demand from requests through a 
number of NOAA's user interfaces, such as our data centers and climate 
Web portal.

    <bullet>  From FY 2009 to 2010, NOAA saw an 11 percent increase in 
direct requests for climate-related data and information services 
(including individual requests via phone calls, emails, and other 
direct correspondence)--from 26,000 to 29,000 individual requests.

    <bullet>  NOAA's data centers provided 86% more climate related 
data products in FY 2010 compared to FY 2009--from 806 terabytes to 
1,500 terabytes (or 1.5 petabytes). To put this in context, a Kindle or 
other electronic book download averages about 800,000 bytes. In 2010, 
NOAA served up a total of at least 1.9 billion Kindle books worth of 
climate data, roughly 867 million more Kindle book equivalents than in 
2009.

    <bullet>  In 2010, NOAA's National Climatic Data Center's (NCDC) 
Comprehensive Large Array Data Stewardship System site served over five 
times as much climate related data as in calendar year 2009--from 43 
terabytes to 253 terabytes.

    <bullet>  From FY 2009 to FY 2010, NOAA had a 57% increase in 
climate-related data and information Web site hits--from 906 million to 
1.4 billion hits in addition to hits to the NOAA Climate Portal that 
launched in February 2010 and currently hosts over 27,000 visitors 
every month.

    Within this increasing demand are requests from a breadth of 
economic and industrial sectors, including government, private sector, 
and non-government users. Demand starts at the most basic and 
familiar--your local TV weather forecaster relating the daily 
temperature and precipitation to an ``average'' for the day, to the 
strategic--forecasting climate conditions around the world to inform 
national security priorities. Below are specific examples of the types 
of services and data requests that have been received by NOAA.

    <bullet>  Farmers require seasonal temperature, precipitation, and 
frost-freeze data to determine what types of crops will grow well and 
when they should be planted.

    <bullet>  The U.S. Department of Agriculture uses NOAA's climate 
information to develop regional, national and global crop outlooks that 
provide the agricultural industry information about short- and long-
term conditions that may impact crop production. NOAA's data are used 
to develop Plant Hardiness Zones which you can see on the tags of 
virtually all plants and trees you buy to ensure they will thrive in 
the climate conditions in which you live. As these zones change, NOAA's 
climate data provide the basis to ensure accurate depiction of the 
Plant Hardiness Zones.

    <bullet>  Local communities and emergency management offices use 
NOAA's sea level and storm frequency information to help them prepare 
for and become more resilient to short-term storm events, such as 
hurricanes and longer-term phenomena, such as sea level rise.

    <bullet>  Municipalities accessed NOAA's U.S. Snowfall Climatology 
information, which includes historical information about the severity 
of extreme snowfall events and return period probability, to develop 
annual snowfall removal budgets resulting in cost savings.

    <bullet>  Home builders follow guidelines that use NOAA data to 
determine the type of foundation and the optimal thermal 
characteristics of buildings for insulation purposes. This information 
is said to save roughly $330M in annual building construction costs and 
annual energy cost savings of 586,000 megawatt hours (the annual energy 
savings equivalent to almost nine million gallons of gasoline) from 
using just one of NOAA's climate tools. \3\
---------------------------------------------------------------------------
    \3\ Economic Value for the Nation, NOAA Satellites and information, 
September 2001.

    <bullet>  Ice thickness and freezing rain data are used for 
engineering design consideration in the construction of certain 
---------------------------------------------------------------------------
structures that are subject to outdoor weather.

    <bullet>  NOAA's maximum precipitation predictions have been used 
to develop new standards for dam design that are now used to improve 
dam safety and reliability.

    <bullet>  NOAA's climate forecasts, from seasonal precipitation and 
drought outlooks to weekly on-the-ground assessments of the U.S. 
Drought Monitor, are helping firefighters in Texas to prepare for and 
respond to a record wildfire season.

    <bullet>  NOAA works closely with the U.S. Army Corps of Engineers 
and water resource managers to provide longer-term drought and flooding 
outlooks and river forecasts, which are critical to effectively manage 
water levels in rivers important for transportation, such as the 
Mississippi, Missouri, and Ohio rivers.

    <bullet>  Insurance companies use NOAA data (e.g., the ``normal'' 
temperature, precipitation, mean height above sea level, and storm 
frequency) to calculate insurance premiums.

    <bullet>  Public health departments use NOAA data to inform air 
quality and UV forecasts.

    <bullet>  Coastal managers use NOAA's sea level data in efforts to 
restore wetlands for fish, shellfish, and bird habitat.

    <bullet>  Salmon fishery managers use information about 
temperature, precipitation, and snowpack to plan for and manage fish 
hatchery operations and in-stream habitat restoration efforts.

    <bullet>  Counties use NOAA information, such as trends in 
precipitation, to make long-term investments in storm-water management 
and storage capacity.

    <bullet>  Public service and utility conunissions around the 
country download NOAA's Climate Normals, which include spatial and 
temporal averages of climatological variables (e.g., temperature and 
precipitation) that describe base climatic conditions. Utilities 
subsequently use this information in formal processes to determine the 
rates that utilities charge.

APPENDIX B: Review Criteria and Options Not Selected for NOAA's 
                    Proposal

    NOAA evaluated its four organizational options against the 
following design criteria:

    Strengthen science in the agency.

    <bullet>  Strengthen and enhance the visibility, quality and 
relevance of science that supports NOAA's Mission and long-term 
strategy.

    <bullet>  Integrate climate science within the Climate Service Line 
Office and across NOAA to address cross-disciplinary areas such as 
climate and coastal, and climate and ecosystems.

    Minimize disruptions and promote efficiency.

    <bullet>  Promote efficient implementation and operation.

    <bullet>  Minimize organizational complexity.

    <bullet>  Utilize existing programs to the greatest extent 
possible.

    Establish climate leadership.

    <bullet>  Create a single line of accountability and responsibility 
for performance.

    <bullet>  Create a senior advocate for climate policy, strategy and 
budget within NOAA.

    Enhance program coordination.

    <bullet>  Develop effective mechanisms that leverage program 
execution from across the agency and with our partners.

    Promote user engagement on climate.

    <bullet>  Create clear points of access for users.

    <bullet>  Facilitate and improve stakeholder engagement.

    <bullet>  Integrate user input into service development.

    The following options were reviewed by NOAA but not selected:

    Option A. Consolidate Major Climate Science and Service Assets in 
NWS.

    <bullet>  Relevant climate activities from across the agency would 
be removed from their current Line Office and consolidated in the NWS 
Line Office.

    <bullet>  The NWS Line Office would be renamed the National Weather 
and Climate Service Line Office.

    <bullet>  Climate science, services, and data stewardship would be 
added to NWS.

    Analysis: The dedicated people of NOAA's NWS excel at the 24-hours-
a-day, seven-days-a-week, on-time and on-demand operational aspects of 
delivering weather services that the Nation relies on to protect life 
and property. NOAA must ensure that the business practices and 
management structures that have made the NWS successful are not 
compromised. Preserving the business structure that is needed for 
weather service delivery, which entails providing products in a short 
time frame (from minutes to days), could inhibit the development and 
growth of climate service delivery, which occurs on a longer time 
scale. In addition to the well-recognized concerns of ``research versus 
operations,'' our decision not to risk compromising the critical 
operations of the NWS was rooted in the fundamental nature of weather 
service operations, versus climate service operations. Weather and 
climate services are related, but they have fundamental differences. 
Climate services are relevant to longer time scale decisions, such as 
where and how to build critical infrastructure, or whether water 
conservation measures need to be taken now to mitigate the upcoming 
drought season. Although climate assets would be consolidated, the 
management of a National Weather Service and Climate Service Line 
Office would have to focus on an overly broad array of national 
priorities, ranging from immediate needs, such as this year's flooding 
in the Midwest and the outbreak of tornadoes, to working with other 
agencies to chart the course of the Nation's long-term climate science 
strategy. In addition, the option was not characterized as having a 
highly positive impact on strengthening climate science. Finally, in 
evaluating the impact of this option on promoting user engagement, NOAA 
found that while this structure would allow the leveraging of the NWS' 
connections to the user community that adding the full scope of an 
emerging and evolving climate engagement effort may detract from 
critical weather engagement functions.

    Option B. Eliminate OAR and Consolidate Major Climate Science and 
Service Assets in a New Climate Service Line Office.

    <bullet>  OAR is eliminated and a Climate Service Line Office is 
created.

    <bullet>  OAR labs, programs, and activities relevant to climate 
would be housed in the Climate Service Line Office.

    <bullet>  OAR programs and activities not relevant to climate would 
be moved from OAR into other relevant Line Offices, aligning science 
with operations across the agency.

    <bullet>  The only Line Office dedicated to innovative, long-term 
research would be eliminated.

    Analysis: The value of having a central research function that 
supports long-term research and innovation, and integrates science for 
all of NOAA's key mission areas is critical for NOAA's success. 
Aligning all of our research assets with their operational counterparts 
would likely result in positive outcomes in some instances (e.g., 
further aligning ecosystem research that supports fisheries management 
within the National Marine Fisheries Service) but not in others (e.g., 
moving weather research to within NWS). This option would also be 
contrary to the criteria for strengthening science within the agency. 
It would narrow the vision and scope of NOAA's research (e.g., 
ecosystem research would have more difficulty expanding beyond 
fisheries if all of it were located in the National Marine Fisheries 
Service). Having an entity within NOAA that is looking over the horizon 
and at NOAA's next-generation science needs is critical. This option 
also created significant organizational disruption to all other Line 
Offices that would be acquiring new assets.

    Option C. Consolidate Major Climate Science and Service Assets in 
OAR.

    <bullet>  Centers, programs, and other climate-relevant activities 
would be moved from their current Line Offices into OAR.

    <bullet>  OAR would be renamed the NOAA Climate Service and Earth 
Systems Science.

    <bullet>  Services and data stewardship would be added to NOAA's 
centralized research capacity.

    Analysis: Including all of NOAA's climate capabilities in the same 
Line Office as NOAA's non-climate research was viewed as creating a 
single entity within NOAA with too broad and diverse a mission. This 
option was anticipated to: (1) compromise the ability of OAR to focus 
on next-generation science for all of NOAA by putting a service 
delivery function into their mission, and (2) prevent climate services 
from being fully developed due to competing mission requirements. Such 
a Line Office would have multiple competing interests under a single 
management structure, which only continues NOAA's current 
organizational challenges associated with its climate portfolio. These 
competing organizational demands were also viewed to detract from 
NOAA's ability to have a Line Office dedicated to strengthening NOAA 
science across the agency, and similarly create too diverse an office 
mission to focus on climate program coordination and user engagement.

APPENDIX C: The Proposed Structure Will Increase Efficiency and Produce 
                    Benefits

    The proposed Climate Service Line Office would consolidate 
management of a number of NOAA's climate science, research and 
observation centers along with NOAA's data and service delivery 
infrastructure. This arrangement would provide an efficient and 
effective climate research to service enterprise under a central 
management authority to further the goal of having a single, 
authoritative source of climate information. I strongly believe that 
this proposed reorganization is the right solution.

Organizational Efficiencies

    By consolidating NOAA's climate activities in one Line Office, we 
will be able to realize organizational efficiencies that will translate 
into a more effective response to the Nation's increasing demands for 
climate information, including a single point of access to NOAA's 
climate data and tools and supporting the growth of the emerging 
private sector climate services industry. These organizational 
efficiencies include:

Reduce Multiple Administrative Requirements and Better Transition 
        Science into Usable Services

    In proposing to house NOAA's existing climate research capacities 
in the proposed Climate Service Line Office, a structure strongly 
endorsed by NAPA, NOAA will both be able to continue to advance its 
high-quality climate science and more readily transition scientific 
findings into usable services. The proximity of science and service 
capabilities will provide more streamlined and efficient interaction 
between these components and allow climate science and service 
development to go hand in hand to develop products and services that 
can evolve in response to scientific information as it emerges. The 
consolidation of management for both science and service under one 
organization will reduce multiple planning, coordination, evaluation, 
and reporting burdens that are currently required as a result of the 
distribution of climate capabilities in multiple Line Offices. By 
reducing these inefficiencies, greater effectiveness can be achieved in 
executing NOAA's funding for science and service development and 
delivery.

Capture Material Efficiencies

    Some activities not entirely dedicated to climate are included in 
the proposed Climate Service Line Office in order to realize 
significant material efficiencies. For example, both the National 
Oceanographic Data Center and the National Geophysical Data Center are 
proposed to reside in the Climate Service Line Office as complements to 
the National Climate Data Center. NOAA has been working to consolidate 
our data center functions across the agency by putting NCDC, NODC, and 
NGDC in the same Line Office. Although the scope of their work supports 
a variety of mission areas, the common foundational infrastructure on 
which data centers are built is uniform and should be kept together. 
NOAA will continue to consolidate these functions to grow material 
efficiencies by moving all three data centers into the Climate Service 
Line Office.

Improved Science and Service

    The proposed Climate Service Line Office will provide a reliable 
and authoritative source for climate data, information, and decision-
support services to help individuals, businesses, communities and 
governments make informed choices to help prepare for and anticipate 
the effects of a changing climate. It will make our information more 
visible, accessible and useful to our many partners and users, allow us 
to more efficiently and effectively steer and coordinate our existing 
world-class science and information products, and improve our capacity 
to leverage the other assets--both within NOAA and externally--through 
a unified set of priorities and a single management structure. The 
proposed Climate Service Line Office will:

    <bullet>  Develop a sustained capacity to provide regional and 
sectoral climate vulnerability and risk assessments to meet NOAA's 
requirements under the U.S. Global Change Research Act;

    <bullet>  Clearly establish a regional focus coordinating and 
providing climate services--deliver locally relevant climate 
information that will help existing businesses and local communities 
maximize opportunities and minimize their exposure to risks in a 
changing environment to safeguard lives, property, and ecomonic 
investments;

    <bullet>  Better align climate observing and modeling assets with 
strategic needs;

    <bullet>  Improve integration and coordination of climate 
communications and outreach efforts throughout the agency;

    <bullet>  Create a visible and easy-to-find, one-stop trusted 
source for information from the public, the private sector, and other 
government agencies to access NOAA's climate science and service 
assets; and

    <bullet>  Enable improved information sharing and more productive 
partnerships with federal agencies, local governments, private 
industry, and other users and stakeholders.

    <bullet>  Establish an improved budget structure that provides 
considerable transparency into the funding levels for the underlying 
climate programs, thereby allowing Congress and the public to ensure 
climate science is not diminished.

Strong Internal and External Partnerships

    No one agency or community can provide all of the climate services 
that the Nation needs, and the Climate Service Line Office requires an 
organizational framework that fosters sustained dialogue with diverse 
scientific and service communities. These communities include DOC; 
other parts of NOAA; federal, tribal, state, and local agencies; 
academic partners; private industry, non-governmental organizations, 
and the international community. The Climate Service Line Office will 
work with each sector, ensuring that emerging scientific findings are 
transformed into high-quality products responsive to user needs.

Science and Service Synergies Through a National Climate Service 
        Enterprise \4\
---------------------------------------------------------------------------
    \4\  The ``National Climate Service Enterprise'' is used as 
shorthand in reference to the emerging interagency and private-sector 
investment in climate services.

    In general, climate science and services are still in their infancy 
compared to, for example, weather science and services. The Climate 
Service Line Office will evolve iteratively, incorporating vigorous 
research investigations and discovery, and considering new processes, 
user requirements, and feedback. Weather services are driven by the 
necessarily fast information transmission and the sheer quantity of 
forecasts, watches, and warnings. Integrating emerging science into 
these demanding mission-critical operations requires a deliberate 
approach. Because climate services will often have a longer time 
horizon, new and emerging science can be more readily used in climate 
services.
    An effective Climate Service Line Office will adopt an approach of 
``co-production of knowledge'' with decision makers. \5\ The intent of 
``co-production'' is climate science that informs, but does not 
prescribe, decision making. Similarly, decision making should inform 
climate science, but not prescribe research priorities. The Climate 
Service Line Office must balance this ``user pull and science push.'' 
Rapidly growing demand for climate services will challenge the Climate 
Service Line Office to expand its products and research information to 
address user needs, It is also important to recognize that science can 
anticipate the emergence of new risks.
---------------------------------------------------------------------------
    \5\  Ostrom, E., 1999: Crossing the Great Divide: Coproduction, 
synergy, and development. In: Polycentric governance and development: 
Readings from the workshop in political theory and policy analysis 
[McGinnis, M.D. (ed.)]. University of Michigan Press, Ann Arbor, MI, 
346-374.

---------------------------------------------------------------------------
Expanded Engagement Through Assessment Services

    Climate Science Assessments comprehensively summarize the knowledge 
gathered from many studies and disciplines into authoritative overviews 
of climate variability, change, and impacts. Science assessments 
characterize uncertainties based on documented information and identify 
gaps in understanding to help prioritize future research and service 
development. Because the assessment process exemplifies the synergy 
between science and service, the Climate Service Line Office will use 
assessments to inform policy advisors, community planners, and decision 
makers, as well as its own research agenda. The Climate Service Line 
Office will only participate in Climate Science Assessments that have 
standards in place which meet or exceed those of Information Quality 
Act. The Climate Service Line Office wi11 focus on two types of Climate 
Science Assessments: (l) national and international assessments, and 
(2) problem-focused assessments. A third type of assessment--
stakeholder needs assessments--will help ensure that the climate 
science and services are brought to bear on relevant issues. Together, 
these three types of assessments serve as powerful tools to guide the 
design of high-quality regional service products, and will frame 
dialogues among climate scientists and service providers and regional 
users.

Enhanced Traceability, Credibility, and Transparency

    Through strength in research, tbe Climate Service Line Office will 
aim to grow the body of scientific knowledge about climate variability 
and change, including the determination and quantification of 
uncertainties and confidence intervals. Because the Climate Service 
Line Office will use and tailor new science to address applications and 
user needs, the Climate Service Line Office will ensure its data, 
information, and services meet the highest standards of scientific 
excellence. This mandates careful quality assurance, including:

    <bullet>  Rigorous and internationally recognized procedures for 
calibration and validation of observation and monitoring systems;

    <bullet>  Transparent peer-review procedures for articles, 
documents, and assessment reports;

    <bullet>  Quantification and accurate communication of uncertainty 
in model outputs;

    <bullet>  Accessible metadata documenting the quality of data 
products and services.

Creating a Culture for Success in the Climate Service Line Office

    To create a new culture of shared learning that values the co-
production of knowledge, advances scientific understanding of climate, 
and delivers relevant, usable services, the Climate Service Line Office 
will need to adopt business practices that:

    <bullet>  Promote ongoing and sustained engagement with policy 
advisors, community planners, and decision makers;

    <bullet>  Provide for the rapid infusion of research findings into 
products and services;

    <bullet>  Nurture the growth of science and service within a single 
organization as complementary rather than competing actuvities;

    <bullet>  Balance what users want and what is justifiable 
scientifically;

    <bullet>  Recognize science and research as valuable services in 
their own rights;

    <bullet>  Value communication and education as both a contribution 
to services and to research;

    <bullet>  Link research to decision making as an alternative to the 
more traditional research-to-operations paradigm;

    <bullet>  Incorporate a fast-track review process for information 
products to meet the time-dependent information needs of decision 
makers;

    <bullet>  Leverage innovative tools to enhance communication and 
collaboration with stakeholders.

    Chairman Hall. Thank you, Dr. Lubchenco. I certainly accept 
your apology and hope you will have that same attitude toward 
answering the requests that we have sent to you. We appreciate 
you doing that.
    Our second witness is Mr. Robert Winokur, Deputy and 
Technical Director, Office of the Oceanographer of the Navy, 
Chief of Naval Operations. He has been in this position since 
December 2003 and previously occupied the position from 1985 to 
1993. From 1993 to 1999, Mr. Winokur served as the Assistant 
Administrator for Satellite and Information Services at NOAA. 
Thank you, sir, for appearing before the committee today. I ask 
you to stay as close to the five minutes as you can. Thank you.

                  STATEMENT OF ROBERT WINOKUR,

       DEPUTY OCEANOGRAPHER, U.S. DEPARTMENT OF THE NAVY

    Mr. Winokur. Thank you, Chairman Hall, Members of the 
Committee, Dr. Lubchenco. Thank you for the opportunity to 
discuss with you the Navy's interest in climatological data and 
information. As introduced, I am the Deputy Oceanographer of 
the Navy. The Oceanographer is also the Director of Navy's Task 
Force Climate Change. Today I am speaking about the Navy's 
needs for actionable climate information, how we have used 
climatology in the past, and how we would use projections in 
the future.
    The Navy has used climatological information for over 150 
years based initially on the groundbreaking work of Commander 
Matthew Fountaine Maury in the mid-19th century. The Navy 
Hydrographic Office continued Maury's work, providing 
climatological data until 1951 when the National Climatic Data 
Center in Asheville, North Carolina, became the authoritative 
source for federal climatological data.
    Since operations at sea are very susceptible to 
environmental conditions, a better sense of what might be 
experienced allows mission planners to make critical decisions 
that help ensure safety and efficiency. Climatological data 
provides essential information for planning exercises, near-
shore flight operations, ammunition transfers during pre- and 
post-deployment, and search and rescue operations. Likewise, 
climatological models of the upper atmosphere coupled with our 
forecast models allow us to route long-distance flights to 
maximize fuel efficiency. For our short facilities, climatology 
allows us to more efficiently plan for heating and cooling 
costs.
    Increasing evidence, however, suggests that historical 
records will be inadequate for describing conditions of the 
future. While we know the climate is changing, we also know 
that specific details are uncertain. What we do know is that 
changes are magnified in the Arctic, which could impact naval 
missions later this decade. Broader trends in global climate 
indicators point to even more changes in mission requirements 
in the next few years. In fact, both the National Maritime 
Strategy, a cooperative strategy for the 21st century sea 
power, and the Quadrennial Defense Review highlight climate 
change as a significant factor to be considered when 
anticipating naval requirements of the 21st century.
    Part of the military mission is to anticipate threats and 
changes to national security. Climate change and its 
interaction with and impacts on demographics, technology, 
globalization and resource allocation and management will be 
some of the drivers of security in this century. It is in this 
spirit that the Navy has identified its needs for improving 
understanding of a changing global environment.
    The Navy's role and responsibility regarding climate 
services would be as a customer using the information for 
technical, operational, and strategic planning and execution, 
and to provide feedback to those organizations that provide the 
services so that they may continue to improve them. The Navy 
believes that an organizational focus for providing reliable 
and authoritative climate data information and related products 
would be beneficial from a perspective of a climate services 
user. The Navy desires access to readily available, reliable, 
and consistent data and information in an easily available and 
preferably consolidated location to move us away from the 
current disparate method of locating and obtaining climate 
information such as standard climatology, Arctic sea ice, 
historical trends and future trends or current observations.
    It is outside the Navy's purview to comment on the 
specifics of how best to provide climate data and services and 
how the collection of dissemination of climate services should 
be carried out. However, the Navy does acknowledge initiatives 
that result in increased effectiveness and efficiency and 
appreciates the potential benefits of a consolidated 
organizational construct.
    The Navy recognizes the need to better understand the 
processes that are affecting the Earth's climate, predict how 
the climate will change in the future, and anticipate the 
security risks that may arise. The Navy is focused on readiness 
and adaptation while reducing the risk to vulnerable facilities 
and training our forces to be prepared for any future missions 
operating environments that much of the Navy has not regularly 
seen.
    The Navy is focused on understanding the many uncertainties 
and challenges that climate change may have in the future on 
our facilities and operations. Climate change may add 
additional stresses to vulnerable and unstable regions. In 
addition of significance, our coastal infrastructure will be 
affected by changes in sea level by the impact of severe storm 
events. Credible and authoritative climatological data and 
predictions are necessary for us to conduct studies and 
assessments which are essential to inform Navy needs and future 
investments.
    In this regard, the Navy has developed and is implementing 
two roadmaps, one for the Arctic region specifically and one 
focused on global climate change. These roadmaps outline the 
navy's approach to observing, predicting, and adapting to 
climate change with a list of actions for the next few years so 
as to better understand the potential impacts of and actions 
related to a changing climate on naval operations and 
investments.
    Thank you, Mr. Chairman. I look forward to answering any 
questions that you or the Committee may have.
    [The prepared statement of Mr. Winokur follows:]
                 PREPARED STATEMENT OF ROBERT WINOKUR,
           DEPUTY OCEANOGRAPHER, U.S. DEPARTMENT OF THE NAVY

I. Introduction

    Mr. Chairman, Members of the Committee and distinguished 
colleagues, I want to thank you for the opportunity to discuss with you 
today the Navy's interests for climatological data and information. My 
name is Robert Winokur and I am the Deputy Oceanographer of the Navy. 
The Oceanographer also holds the titles Director of Navy's Task Force 
Climate Change and Naval Deputy to the National Oceanic and Atmospheric 
Administration (NOAA). Today I am speaking about the Navy's needs for 
actionable climate information, how we have used climatology in the 
past, and how we would use projections in the future.

II. Background

    Strategic planners have long used climatological records to provide 
guidance on weather and sea conditions at a particular place and time 
of year. Climatological records are based on long-term trends 
identified in recorded meteorological and oceanographic observations, 
providing a range of potential and probable conditions that could be 
encountered.
    Since operations at sea are very susceptible to environmental 
conditions, a better sense of what might be experienced allows mission 
planners to make critical decisions that help ensure greater safety and 
efficiency. With proper knowledge, they can avoid planning exercises at 
times and in locations where high winds and seas, extreme temperatures, 
fog and haze, and frequent storms may make conditions unsafe for 
specific types of operations. Knowledge of probable wind conditions can 
help identify optimal windows of opportunity for near-shore flight 
operations. Climatology is an important component of conducting at-sea 
search and rescue operations and determining the best location to 
conduct ammunition transfers for surface ships beginning or completing 
extended deployments. By understanding probable sea conditions, we can 
route ships to minimize fuel usage. Likewise, climatological models of 
the upper atmosphere allow us to route long-distance flights to 
maximize fuel efficiency. For our shore facilities, climatology allows 
us to more efficiently plan for heating and cooling costs.
    The Navy has used climatological information for over 150 years, 
based initially on the groundbreaking work of Commander Matthew 
Fountaine Maury in the mid-19th century. The Naval Hydrographic Office 
continued Maury's work, providing the Navy with climatological data 
until 1951, when the National Climatic Data Center in Asheville, North 
Carolina, became the authoritative source for federal climatological 
data.
    Increasing evidence, however, suggests that historical records will 
be inadequate for describing conditions of the future. While we know 
the climate is changing, we also know the specific details are 
uncertain. What we do know is that changes are magnified in the Arctic, 
and that will impact naval missions later this decade. The broader 
trends in global climate indicators point to even more changes in 
mission requirements in the next few decades. In fact, both A 
Cooperative Strategy for 21st Century Sea Power, the National Maritime 
Strategy, and the Quadrennial Defense Review (QDR) highlight climate 
change as a significant factor to be considered when anticipating naval 
requirements of the 21st century.
    The 2010 Quadrennial Defense Review (QDR) identifies climate change 
as an issue that will play a significant role in shaping the future 
security environment, and directs the Department of Defense to take 
specific actions to reduce the risks associated with climate change, 
while also identifying climate change and energy security as 
``inextricably linked.'' In addition, climate change is addressed in 
the 2010 National Security Strategy, which states that the issue is a 
key challenge requiring broad global cooperation.
    The QDR discusses how climate change will affect the Department of 
Defense (DoD) in two broad ways: first, by shaping the operating 
environment, roles, and missions that we undertake; and second, 
describing the need for DoD to adjust to the impacts of climate change 
on our facilities and military capabilities by constructing a strategic 
approach that considers the influence of climate change.
    Taking into account Federal and DoD guidance, the Navy recognizes 
the need to adapt to climate change and is closely examining the 
impacts that climate change will have on its military missions and 
infrastructure and the information needs required to understand these 
impacts. In May 2009, the Chief of Naval Operations, Admiral Roughead, 
created a task force to provide scientifically grounded assessments and 
recommendations for future naval operations. Task Force Climate Change 
includes representatives from various naval staff and program offices 
and the operational fleet, with the close collaboration of the U.S. 
Coast Guard and NOAA.
    Within the two last years the Navy promulgated two roadmaps 
concentrated on the Arctic and global climate change. The roadmaps 
guide Navy's strategy, future investment, action, and public discussion 
on the Arctic and global climate change. The Navy Arctic Strategic 
Objectives, released in May 2010, specify the objectives required to 
ensure the Arctic remains a region where U.S. national and maritime 
interests are safeguarded and the homeland is protected.
    Through Task Force Climate Change, the Navy is assessing the timing 
and magnitude of climate change impacts on mission requirements, force 
structure, and infrastructure. To ensure readiness throughout the 21st 
century, the Navy has a need for actionable and operationally relevant 
climate information that improves its understanding of environmental 
change in order to both inform future investments and broaden 
cooperative partnerships, while adapting to fundamental changes.

III. Current Needs

    The Arctic is one example of a critical area where the Navy has a 
need for accurate climate services. As stated by the Navy's Arctic 
Strategic Objectives, increasingly rapid environmental changes in the 
Arctic will make it more challenging to promote the end goal of a 
``safe, stable, and secure Arctic region.'' September 2007 was a record 
low in sea ice extent and the declining trend has continued--September 
2010 was the third lowest sea ice extent on record, and the overall 
trend has shown an 11.2 percent decline per decade in seasonal ice 
coverage since satellites were first used to measure the Arctic ice in 
1979. Perhaps more significantly, estimates from the University of 
Washington's Applied Physics Laboratory show that the volume of sea ice 
(as indicated by ice thickness) continues to decrease dramatically. 
September ice volume was at a record low in 2010--78 percent below its 
1979 maximum and 70 percent below the mean for the 1979-2009 period. 
Regardless of changes to sea ice, the Arctic will remain ice-covered in 
the winter through this century and remains a very difficult operating 
environment.
    The changing Arctic has national security implications for the 
Navy. The QDR identifies the Arctic as the region where the influence 
of climate change is most evident in shaping the operating environment 
and directs DoD to work with the Coast Guard and Department of Homeland 
Security to address gaps in Arctic communications, domain regional 
awareness, search and rescue, and environmental observation and 
forecasting capabilities. The Navy's Maritime Strategy identifies that 
new shipping routes have the possibility to reshape the global 
transportation system. For example, the Bering Strait has the potential 
to increase in strategic significance over the next few decades as the 
ice melts, the shipping season lengthens, and companies begin to ship 
goods over the Pole rather than through the Panama Canal.
    While the Arctic is a bellwether for global climate change, there 
are other impacts of global climate change that may impact peace-
keeping, humanitarian assistance, and disaster relief missions. 
Availability of freshwater will change with the redistribution of 
precipitation patterns and saltwater intrusion resulting from sea level 
rise. Alterations in freshwater systems will present challenges for 
flood management, drought preparedness, agriculture, and water supply. 
Understanding how and when precipitation patterns will shift, or the 
frequency of future floods and droughts, will help the Navy anticipate 
future threats to security, enabling it to establish mechanisms ahead 
of time to prevent future conflict that could be caused or exacerbated 
by environmental changes. The 2011 National Research Council Report 
requested by the Chief of Naval Operations, National Security 
Implications of Climate Change for U.S. Naval Forces, recognizes these 
potential mission impacts and recommends Navy action to address them in 
six priority areas, including preparing for an increase in humanitarian 
assistance and disaster relief and Arctic operations, addressing 
emerging technical requirements, and supporting research and 
development.
    The National Research Council report also finds that ``U.S. Navy, 
Coastal Guard, and Marine Corps coastal installations around the globe 
will become increasingly susceptible to projected climate change.'' The 
Navy's operational readiness hinges on continued access to land, air, 
and sea training and test spaces. Coastal infrastructure is 
particularly vulnerable because it will be affected by changes in 
global and regional sea level coupled with a potential increase in 
storm surge and/or severe storm events, and regional water resource or 
infrastructure challenges. Bases such as Guam and Diego Garcia provide 
a strategic advantage to the Navy in terms of location and logistics 
support. In order to limit the negative effects of climate change on 
sea level rise, the Navy requires access to climatological information 
on rates of global sea level rise and local coastal processes that will 
allow adaptation efforts and planning of new coastal facilities to be 
initiated at the right time and cost, especially for installations 
identified as high risk.
    Currently the Navy is conducting a Capabilities Based Assessment 
(CBA) for the Arctic to identify capabilities required for future 
operations in the region and possible capability gaps, shortfalls, and 
redundancies. Assessments such as these will inform Navy strategy, 
policy, and plans to guide future investments. Furthermore, the Office 
of Naval Research is making investments in its FY 12 budget to improve 
the Navy's capability to persistently monitor and accurately predict 
critical Arctic environmental changes and increase understanding of 
climate variability.
    The Navy is actively leveraging interagency, international, and 
academic partnerships to ensure it has access to the best science and 
information and to avoid duplication of efforts. These partnerships 
have the added benefit of conserving resources in this fiscally 
constrained environment. We are participating, in coordination with 
appropriate DoD offices, in interagency efforts being conducted to 
improve coordination of climate services, including the National 
Science and Technology Council's Roundtable on Climate Information and 
Services, co-chaired by the Office of Science and Technology Policy, 
the National Oceanic and Atmospheric Administration, and the U.S. 
Geological Survey; the National Ocean Policy's strategic action plans, 
particularly the plan that focuses on the Arctic Ocean; and the U.S. 
Global Change Research Program's National Climate Assessment, which in 
part are coordinating agency climate science needs and adaptation 
efforts across the Federal Government.
    Finally, the Navy is jointly planning an effort with the Air Force, 
the National Oceanic and Atmospheric Administration, and other agencies 
to advance U.S. environmental prediction capability to mitigate the 
impact of the severe weather and answer operational requirements facing 
our nation. This capability will combine the forecasting skills of the 
Navy's and the National Weather Service's global numerical weather, 
ocean, and ice models to provide a better Earth Systems Prediction 
Capability in the next 10 years.

IV. Conclusion

    Part of the military mission is to anticipate threats and changes 
to national security. Climate change, and its interaction with and 
impacts on demographics, technology, globalization, and resource 
allocation and management, will be one of the drivers of security in 
this century. It is in this spirit that the Navy has identified its 
needs for improved understanding of a changing global environment.
    The Navy's role and responsibility regarding climate services would 
be as a customer; using the information for tactical, operational, and 
strategic planning and execution; and to provide feedback to those 
organizations that provide the services so that they might continue to 
improve them. It is outside the Navy's purview to comment on what 
agency should provide climate services to the Federal Government, how 
they should carry out the collection and dissemination of climate 
services, and what level of funding is necessary to carry out this 
effort.
    The Navy recognizes the need to better understand the processes 
that are affecting the Earth's climate, predict how the climate will 
change in the future, and anticipate the security risks that may arise. 
The Navy is focused on readiness and adaptation, while reducing the 
risk to vulnerable facilities, training our forces to be prepared for 
any future missions operating in environments that much of the Navy has 
not regularly seen.
    Thank you Mr. Chairman. I look forward to answering any questions 
the Committee may have.

    Chairman Hall. I thank you, sir, and I thank you both for 
your testimony.
    I don't have to remind the Members here that we are 
relegated to five minutes, and I will try to set the pattern by 
being within five minutes. At this time I recognize myself for 
questions for five minutes.
    Dr. Lubchenco, in testimony before the appropriators 
earlier this year, you argued that the entire Climate Service 
proposal by the Administration was really just an optical 
change that wouldn't impact daily operations. Specifically you 
said, and I quote: ``This is a matter of appearances. The 
reality is no change to the dollars that are going to the 
science or to the dollars that are going out the door. We are 
not funding less science. We are not funding different science. 
We are not changing anything other than the fact that the 
climate scientists that were in oceanic and atmospheric 
research are now in the Climate Service. Other science remains 
there and will continue to thrive.'' Is this really just a 
matter of appearances, that you won't change the science, you 
won't change the money you fund or how you fund it? Why is it 
such a big deal to have such a hard time to answer the 
questions we sent to you and to be 26 days late in answering 
questions for this Committee? Do you have a good answer for 
that?
    Dr. Lubchenco. Mr. Chairman, we have had multiple exchanges 
of letters and meetings and calls. I have instructed my staff 
to be as responsive and transparent with the Committee as 
possible. I know that in response to your requests, we have 
delivered two sets of documents totaling over 6,000 pages. 
There is an extensive record within NOAA, and we have been 
working very, very diligently and hard to provide you and your 
colleagues and your staff with all of the information that you 
are requesting.
    Chairman Hall. I thank you for that. You can solve that by 
answering the questions we have sent you. I hope you are going 
to do that.
    Mr. Winokur, the title of this hearing is ``Examining 
NOAA's Climate Proposal,'' yet you conclude your written 
testimony by saying--and you are here at the request of the 
minority, right?
    Mr. Winokur. That is correct, Mr. Chairman.
    Chairman Hall. All right. You said, ``It is outside the 
Navy's purview to comment on what agencies should provide 
climate services to the Federal Government, how they should 
carry out the collection and dissemination of climate services 
and what level of funding is necessary to carry out this 
effort.'' Just so we are clear, your testimony is that the Navy 
has no position on NOAA's proposed Climate Service. Is that 
right?
    Mr. Winokur. Correct, Mr. Chairman. Our position is that is 
an internal decision for NOAA to decide how best to organize. 
From the Navy, we require credible and authoritative data in a 
timely fashion so it would facilitate our requests if there was 
a coordinated and focused approach to answering Navy needs for 
data.
    Chairman Hall. As you sit there today, then, and I thank 
you for your service to the Navy and to the country, would it 
be fair to say that it sounds as though the Navy doesn't 
actually need a Climate Service? Is that what you are telling 
us?
    Mr. Winokur. No, I think what I am saying, Mr. Chairman, is 
that the Navy needs climate data, and if Climate Service is in 
fact the best way to provide it to us, then certainly we leave 
that to NOAA on how best to organize, but we do need a focused 
approach. The current situation of obtaining data from 
disparate sources makes it a little more complicated for the 
Navy to get what it needs, so we would certainly support 
efficiencies within any agency, and if this is the best way for 
NOAA to provide it, we would support it, but we are not taking 
an official position on how NOAA should best organize.
    Chairman Hall. I appreciate that, and I think my time is 
about up.
    The gentleman from Oregon, Mr. Wu, is recognized for five 
minutes. Ms. Johnson had a vote in another committee. She will 
return shortly. Mr. Wu, I recognize you for five minutes.
    Mr. Wu. Thank you very much, Mr. Chairman.
    Chairman Hall. I stayed within four minutes and 59 seconds.
    Mr. Wu. I have restarted my clock. Before I start my five 
minutes, Mr. Chairman, we have one additional letter of support 
from 23 climate- and weather-related private sector entities, 
and Mr. Chairman, I would like to add this letter to the 
previous letters that Ms. Johnson submitted for the record, and 
I do note that the majority staff has received a copy of this 
letter.
    Chairman Hall. Without objection, so ordered.
    [The information can be found in Appendix 2.]
    Mr. Wu. Thank you very much.
    Chairman Hall. You can continue now. You have four minutes 
and 49 seconds left.
    Mr. Wu. Very good.
    I want to start by noting that NOAA does not have an 
organic act. This Congress has failed to pass one, even though 
NOAA was created in 1970 and it has existed for either 40 or 41 
years. It was created by then-President Nixon, not by Executive 
Order but I believe by an Executive Reorganization Proposal. 
And the failure to pass an organic act, I think, leaves it to 
the executive branch and NOAA not to reorganize without input 
from Congress but to substantially take initiative in its 
reorganization while consulting Congress when appropriate, and 
this Committee and Congress have made strenuous efforts to pass 
an organic act but we have failed to do so. This Committee has 
passed an organic act through this Committee several times. It 
had made it through other Committees and not made it through 
the full House of Representatives, and I want to just lay that 
down. It, I think, explains some of NOAA's actions in 
reorganizing itself because it has to take additional actions 
in doing so in the absence of an organic act.
    Administrator Lubchenco, I would like to return for a 
moment. You did address this in your testimony, but I would 
like to return for a moment to the difference between climate 
and weather because it is so important. Maybe Members of the 
Committee understand part of that. Maybe the staff understands 
that fully. But perhaps members of the general public do not 
fully understand the difference between climate and weather and 
the functions of the Weather Service and any future Climate 
Service, and I want to give you further opportunity to explain 
the difference.
    Dr. Lubchenco. Thank you very much, Congressman, and thank 
for your support of NOAA and recognition of the importance of 
having an organic act but also the importance of our continuing 
to reorganize to be better and better and to deliver what 
Congress and the American people expect.
    To your question, weather happens over hours to days. Our 
weather models that provide some of the best weather forecasts 
in the world provide each and every American with information 
about weather but also warnings, and this is in the time frame 
that is generally less than two weeks. Anything longer than 
that is what we define as climate. Climate is future weather 
more than two weeks out and so this focuses on weeks to months 
to years and beyond, and much of the climate services of which 
we are speaking and that we currently provide under existing 
authorizations but want to do a more effective job of providing 
has to do with information about pending droughts, pending 
floods, pending severe storm conditions, things that more than 
two weeks out. We utilize observations and modeling and 
understanding of past weather and climate information to 
anticipate what is likely down the road. And so, for example, 
when last fall NOAA warned the communities in the upper Midwest 
that the spring was likely to be a very significant flooding 
year, that is an example of a climate service. That kind of 
information is extraordinarily useful for planning purposes--
how many sandbags do we need to buy, what kind of information 
do we need to provide to our communities, how can we begin to 
think about and be prepared. The same is true for firefighters 
battling fires in Texas. Having information beginning last 
winter that this was going to be a very, very dry and warm 
spring enabled planning to begin. That kind of climate service 
information we currently provide but we don't do so in a way 
that is as effective or as efficient as we believe it could be, 
hence the proposal for this reorganization.
    Mr. Wu. Thank you very much, Administrator Lubchenco, for 
that very interesting example of the difference between 
tornadoes tomorrow and floods next year. Thank you.
    Chairman Hall. The gentleman yields back. The gentleman 
from California, Mr. Rohrabacher, is recognized for five 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
would like to ask Dr. Lubchenco, do you believe that you are 
obligated to--that your actions are obligated to be within the 
parameters that are set by law by the Congress?
    Dr. Lubchenco. Yes, sir.
    Mr. Rohrabacher. And what is your interpretation of the 
last Department of Defense continuing appropriations act of 
2012 when a reading of it from our side suggests that you are 
prohibited from using funds to implement, establish or create a 
NOAA Climate Service? Is that your interpretation as well?
    Dr. Lubchenco. Yes, Congressman. We were instructed very 
explicitly not to implement or create a Climate Service, and we 
have not done so.
    Mr. Rohrabacher. Okay. Now, you have a director that--well, 
what is the title for Mr. Tom Karl's position in your 
operation?
    Dr. Lubchenco. Mr. Karl is the Director of the National 
Climatic Data Center. He also serves as the Transitional 
Director for the NOAA Climate Service, the proposed NOAA 
Climate Service.
    Mr. Rohrabacher. Is Climate Service Transition Director 
part of his title?
    Dr. Lubchenco. Yes, it is.
    Mr. Rohrabacher. All right. Thus, you think that when 
Congress says you are--no funding shall be used to implement 
Climate Service, that you are within the guidelines from 
Congress in establishing a Climate Service transitional 
director. Isn't that implementing a Climate Service for NOAA on 
its face?
    Dr. Lubchenco. No, Congressman, it is not. I believe that 
it is being smart and----
    Mr. Rohrabacher. Smart is not necessarily considered law.
    Dr. Lubchenco. I understand. I will change my wording. I 
believe that prior to implementing any potential change, 
whether that change comes about or not, requires good planning 
and good execution if the proposal is approved, and in this 
case, we set--the kind of proposal that is before Congress now 
is a very substantial one and moves--does a reorganization that 
requires extensive amount of planning and begun under Vice 
Admiral Lautenbacher, we began to think about what would a new 
line office look like, how should it be structured, and Mr. 
Karl was----
    Mr. Rohrabacher. But once you go beyond that and you 
actually hire someone, for example, have you not also hired six 
new NOAA regional Climate Service director positions in this 
last year? So not only do you have one man seated just in case 
you are able to follow through with this in another law, you 
have also put on six new regional directors as well.
    Dr. Lubchenco. Congressman, the six regional Climate 
Service climate directors, Climate Service directors, were 
hired using existing funds and are part of our ongoing 
commitment to provide climate services for which we have 
explicit authorization from Congress and to enable regional 
managers, regional planners, regional businesses to have the 
kind of long-term weather and climate information that they 
need. That is part of our existing authority.
    Mr. Rohrabacher. When you say existing funds, then you say 
the appropriations bill that we just--the continuing resolution 
which prohibits the use of funding, that your use of existing 
funds is not restricted by that prohibition by Congress?
    Dr. Lubchenco. Congressman, those regional directors were 
hired prior to the continuing resolution and they are 
consistent with what we normally do to provide climate services 
under existing authorizations.
    Mr. Rohrabacher. So a continuing use of funds for people to 
provide salary for people who legislation has suggested you are 
prohibited from using funds to implement a Climate Service but 
continuing use of funds is not restricted in your analysis by 
this law?
    Dr. Lubchenco. Congressman, those regional directors are 
not part of our proposed reorganization.
    Mr. Rohrabacher. But they are part of your budget.
    Dr. Lubchenco. Of course they are part of our budget. 
Everybody on the payroll is part of our budget but they are not 
part of this proposed reorganization, which we have not 
implemented----
    Mr. Rohrabacher. Well, it doesn't say here as part of your 
reorganization. It says prohibits use of your funds that 
Congress provides you. It doesn't say you are prohibited unless 
it has something to do with your reorganization.
    Ms. Lubchenco. I believe that the language prohibits us 
from implementing or creating a Climate Service, and we have 
not done that.
    Mr. Rohrabacher. It would appear to me, one last note, Mr. 
Chairman, is a quote from this new Transitional Director, Tom 
Karl, when asked about whether or not they were establishing 
the Climate Service, he said, ``We have moved in. We are 
waiting for the marriage certificate but we are acting like we 
have a Climate Service.'' So I am not going to ask you anything 
about living in climate sin without the marriage certificate, 
but it seems to me that something is going on here that you do 
not have authority to do with your budget, and I think we need 
to further look at this very closely, Mr. Chairman. Thank you 
very much.
    Chairman Hall. The gentleman yields back his time.
    The chair recognizes the gentleman from California, Mr. 
McNerney, for five minutes.
    Mr. Wu. Mr. Chairman, I would like to yield my position to 
Mr. Miller because I need to step away for some votes, and I 
also want to note for the gentleman from California that the 
six hires and Mr. Karl, that they were put in place before Mr. 
Hall's amendment and before the appropriations bill was passed 
last year. Thank you, Mr. Chairman.
    Chairman Hall. I recognized Mr. McNerney, and if Mr. 
McNerney wants to yield his time to Mr. Miller, certainly he 
would be welcome to do that.
    Mr. Wu. I apologize.
    Mr. McNerney. Thank you, Mr. Chairman.
    Dr. Lubchenco, one of the objections that I seem to be 
hearing from the majority party is a lack of cooperation or 
planning with the agency between the agency and the Committee 
here. Would you consider your agency as being cooperative or 
uncooperative, and if you consider it cooperative, could you 
give some specific examples of meetings or actions that took 
place in an effort to cooperate in terms of developing the 
plan?
    Dr. Lubchenco. Thank you, Congressman. I believe we have 
been very responsive, very cooperative. I fully admit and have 
apologized for the fact that I think we got off on the wrong 
foot when we did the initial announcement, and I think that was 
a serious mistake. We have consistently been in dialogue with 
the Committee. Our staff has been communicating quite 
frequently. I have briefed this Committee about our proposed 
reorganization. I have met with the Chairman a number of times, 
and in fact, this dialogue began with this very Committee quite 
a while ago as we were considering this proposal. So we have 
had, I believe, very extensive interactions and communications.
    This Committee and Congress, for example, requested when we 
first proposed this reorganization in February of 2010, 
Congress directed us to engage the National Academy of Public 
Administration to review our plans and to provide this 
Committee and Congress with an evaluation of the proposal that 
we had. So that is a specific example of some of the 
interaction and dialogue that we have had following the 
original proposal. That study was very extensive, very 
exhaustive. They delivered a report last September which has 
strongly endorsed the proposal that we have provided. It also 
made a very strong case for the need for a Climate Service to 
provide much more effective and efficient delivery, one point 
easily identified and that committee report has been very 
helpful in informing and modifying our proposal as we move 
forward.
    Mr. McNerney. Thank you.
    Mr. Winokur, in your experience, how would you revamp 
NOAA's effect--never mind. How can the proposed Climate Service 
benefit the Navy and our national security?
    Mr. Winokur. From a Navy perspective, we would like frankly 
a simple and easy entry point into the organization so that, 
for example, if we were dealing with disparate parts of NOAA, 
it facilitates our interaction with NOAA if we can go through a 
single organizational component or in the context of data, if 
you will allow me to put it this way, through a single data 
portal. So rather than for the Navy to go to one part or NOAA 
or another part of NOAA or frankly to another part of the 
Federal Government, it would facilitate our needs for data if 
we could ease the entry point and work through a single 
coherent organization. Overall, as I said in my testimony, we 
do need credible, authoritative information in a timely manner 
so that we can use that for future planning.
    Mr. McNerney. And do you think this has an impact on 
national security?
    Mr. Winokur. I think it would facilitate our ability to 
obtain data that we need for national security.
    Mr. McNerney. Thank you.
    Dr. Lubchenco. Congressman, would you consider letting me 
add one quick thing to that?
    Mr. McNerney. Yes.
    Dr. Lubchenco. I believe that another way that the 
reorganization will help not only the Navy but Department of 
Defense and others in addition to what Mr. Winokur has said is 
that housing science and services together in a single line 
office allows faster transfer of new knowledge into delivery of 
services. So above and beyond the one point easily identified 
source, the services that are available are delivered more 
rapidly and are more current.
    Mr. McNerney. Would that allow collaboration among non-
agency scientists on the issues that were being considered and 
discussed and presented?
    Dr. Lubchenco. Absolutely. We currently collaborate 
extensively not only with other agencies but with academia, 
with the private sector, and that collaboration is only 
enhanced when you can identify one place to go instead of five 
or six across the agency.
    Mr. McNerney. Thank you.
    Mr. Chairman, I have expired my time.
    Chairman Hall. I thank the gentleman and recognize the 
gentleman from Georgia, Dr. Broun, for five minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Dr. Lubchenco, NOAA's National Weather Service already has 
the Climate Prediction Center, which has the stated goal of 
being ``the world's best, most trusted climate service center 
using partnerships to develop cutting-edge climate products.'' 
Its stated mission is to ``deliver climate prediction, 
monitoring and assessment products for time scales from weeks 
to years to the Nation and the global community for the 
protection of life and property and the enhancement of the 
economy.'' On its Web site, CPC states that its ``products are 
operational predictions of climate variability, real-time 
monitoring of climate and the required databases and 
assessments of origins of major climate anomalies. The products 
cover time scales from weeks to seasons, extending into the 
future as far as technically feasible and cover the land, ocean 
and atmosphere, extending into the stratosphere.''
    The proposed NOAA Climate Service would gut research in 
modeling from the Office of Atmospheric Research, OAR, and data 
centers from NCDS. It basically politicizes the issue and 
minimizes the other core missions of the agency, all in an 
attempt to increase coordination. On top of that, its stated 
goal is to ``bridge the gap between climate science and 
decision making.'' That sounds a lot like a propaganda office 
to me.
    Since the National Weather Service, a trusted source of 
impartial information, already has an office executing this 
task and the Office of Atmospheric Research is conducting 
climate research, what is the goal of the National Climate 
Service other than policy advocacy?
    Dr. Lubchenco. Congressman, the Climate Prediction Center 
and the Weather Service, the great science that we have in the 
Office of Atmospheric Research, other units like the National 
Climatic Data Center that are in the satellite division are all 
existing strong pieces that we have that provide either climate 
science or climate services. The challenge is that they are 
located in disparate parts of NOAA. They do not have a--we have 
to connect them through our matrix management structure, and 
others from the outside don't necessarily know where to go to 
get easy information. Our proposal----
    Mr. Broun. Well, pardon me, because I have just a limited 
amount of time. The Navy has complained that they don't have 
one source to contact you. It seems the CPC does all the goals 
that you are expecting NOAA's new Climate Service that I think 
you are already instituting against the law actually, but why 
not just support and reinforce the work of CPC or data centers 
which already have trusted reputations rather than standing up 
a politically charged office? This seems to be an unneeded 
distraction that has nothing to do with science or providing 
the public with better information. If it is better to gut 
climate research out of OAR and put it in a separate line 
office, why aren't you suggesting that for other line offices 
and why do we need OAR if we are just going to align research 
with each line office? Do you also suggest that we eliminate 
OAR?
    Dr. Lubchenco. Congressman, the Climate Prediction Center 
is only one part of our climate sciences and services, and it 
alone cannot do all that we need to have done. We are having 
increasing requests for information about climate, long-term 
weather and climate, and we believe that providing this 
information to the diversity of users is best done by having a 
single identifiable place that is much greater than what just 
the Climate Prediction Center does. This is a proposal to be 
responsive to our existing mandates from Congress as well as 
more responsive to the American people in providing the 
information that they need and that we believe will be very, 
very helpful.
    Mr. Broun. Well, I think the CPC is already doing what you 
are suggesting. I think you are breaking the law, frankly, 
because you are standing up a service that Congress has told 
you not to do along with the questions that Mr. Rohrabacher 
gave you. I think you are standing this up against Congress's 
direct instructions to you in the law. CPC could do exactly 
what you are doing. The Navy could contact CPC if you just do 
your job and let the Climate Prediction Service do what it 
could do. This just seems like a politically motivated advocacy 
office that this Administration is trying to stand up. Even 
though these people were already hired prior to that bill being 
passed, it doesn't mean that we need to continue funding them.
    Mr. Chairman, I yield back.
    Mr. Harris. [Presiding] Thank you very much.
    The gentlelady from Florida, Ms. Wilson, is recognized for 
five minutes. Not here? Ms. Sewell is recognized for five 
minutes.
    Ms. Sewell. Thank you so much, Mr. Chairman.
    Madam Administrator, I know that those were pretty harsh 
allegations that were just made against NOAA, and I was 
wondering if you would like to respond to the last question.
    Dr. Lubchenco. Thank you, Congresswoman. We believe that we 
are doing exactly what Congress instructed us to do. We have 
existing authorization dating back to 1978 through three 
different pieces of legislation that Congress has passed that 
require us to provide climate science and climate services. 
That is exactly what we have been doing and are continuing to 
do. We have not and will not implement or create the proposed 
Climate Service until we have permission from Congress to do 
so.
    Ms. Sewell. Well, I know that one of the things that we are 
all concerned about is that the goal if we are to create a 
Climate Service, a proposed Climate Service to NOAA, is that we 
want to make sure that your basic mission is not impeded in any 
way.
    I hail from Alabama, and we have had some pretty harsh 
tornadoes that have affected my district and my State, and I 
just want to know what assurances you can give us that your 
forecasts, your climate forecast operations and your 
environmental satellite program will not be in any way 
negatively impacted by any proposed Climate Service.
    Dr. Lubchenco. Thank you, Congresswoman. When we first set 
out to consider possible different options for reorganization, 
we had a number of criteria in mind. One of them was to not in 
any way, shape, or form undermine the very good work of any of 
the other important parts of NOAA. We also wanted to have a 
reorganization that was budget-neutral, did not cost any 
additional resources and that would provide the most effective 
and efficient climate services to the American people. The very 
careful, thoughtful way that we have gone about thinking about 
reorganization, the extensive consultation we have done with 
our Science Advisory Board, with the National Academy of Public 
Administration and others has resulted in the proposal that is 
before Congress, and we believe that the proposal will not only 
provide--satisfy the growing and increasing demand for climate 
services, long-term weather information, climate services but 
also strengthen science within NOAA. That is one of my highest 
priorities and we believe that this renewal of the Office of 
Atmospheric and Oceanic Research is--this is a great 
opportunity to renew research focus in OAR and to do so in a 
way that incubates long-term research and integrates science 
across NOAA. So we believe this is a win-win for the American 
public and is completely consistent with what we have been 
directed to do by Congress.
    Ms. Sewell. Thank you. How do you feel that NOAA's weather 
and climate forecasts are helping people like the folks in my 
district prepare for these catastrophic events, weather events 
that we have been experiencing? Can you just give me--address 
NOAA's efforts to help prepare communities like mine?
    Dr. Lubchenco. Congresswoman, I had the opportunity to 
visit Tuscaloosa in your district just a few days after the 
disastrous tornado that was there, and I saw firsthand how 
horrid much of the damage was and how many people's lives were 
disrupted, and despite the fact that there were a large number 
of people that were killed by that tornado, I think it is quite 
likely there would have been many, many more had we not had the 
multiple days worth of warnings from the National Weather 
Service that enabled people to get out of harm's way, to be 
prepared, that alerted the emergency responders that this is 
serious, the fact that we issued warnings five days in advance, 
thanks to the information from our polar orbiting weather 
satellites, and then two-day warnings, one-day warnings, day-of 
warnings. That is a prime example of what our Weather Service 
does so exceptionally well, and we consistently try to get 
better and better at those kinds of short-term weather alerts 
and warnings. By the same token, information that is months out 
that says floods are likely, droughts are likely, wildfires are 
likely will also enhance communities' ability to be prepared.
    It also creates a new opportunity for the private sector. 
We have seen the emergence of a billion-dollar private sector 
weather enterprise. The Weather Channel, Accu-Weather are some 
familiar examples. We fully anticipate that as we achieve the 
ability to do these longer-term weather forecasts and climate 
forecasts, we will have a comparable demand from the private 
sector for information where they can take publicly provided 
information, add value and grow a whole new industry around 
climate services. So we see multiple potential benefits in 
this.
    Ms. Sewell. Thank you very much.
    Mr. Harris. Thank you very much.
    Now, Mrs. Adams from Florida is recognized for five 
minutes.
    Mrs. Adams. Thank you.
    Dr. Lubchenco, you and I have had our differences on the 
fishing issue and everything else, and I was just listening to 
the discussion about restoring good will with this Committee. 
Do you consider 26 days late timeliness in response?
    Dr. Lubchenco. Congresswoman, I am not sure what you are 
speaking of with respect to----
    Mrs. Adams. As the chairman said, he was waiting 26 days it 
took to get the answers----
    Dr. Lubchenco. We have been providing information to the 
Committee on a rolling basis.
    Mrs. Adams. But apparently there are some answers to 
questions that have been asked that they are still waiting for?
    Dr. Lubchenco. There are still questions outstanding in 
part because the scope--well, I am sorry, 26 hours. I know what 
you are speaking of now. The chairman in his opening remarks 
said that my testimony to the Committee for this hearing was 26 
hours late, and that is true, and it is highly unfortunate. It 
is something for which I apologize, and it is what it is. I 
can't ignore that that was----
    Mrs. Adams. And we are still waiting for some answers to 
some questions that the Committee has asked, correct?
    Dr. Lubchenco. So the Committee has----
    Mrs. Adams. Just yes or no. I have a short period of time.
    Dr. Lubchenco. There are additional questions to be 
answered.
    Mrs. Adams. You mentioned in your opening statement the 
climate science office was needed to offer services like those 
used during the Deepwater Horizon oil spill. Was NOAA unable to 
offer the services that were needed to assist in this incident?
    Dr. Lubchenco. NOAA provided a wealth of information in 
direct support in response----
    Mrs. Adams. Was that a yes or no?
    Dr. Lubchenco. [continuing]. And if we had the Climate 
Service----
    Mrs. Adams. Ms. Lubchenco, I have a short amount of time. 
Yes or no.
    Dr. Lubchenco. [continuing]. We could have done even more.
    Mrs. Adams. So was it a yes? Were you able to provide?
    Dr. Lubchenco. We provided a lot. We could have done better 
had we had this.
    Mrs. Adams. So that is your reasoning and rationale for the 
need for this new service?
    Dr. Lubchenco. Among many others.
    Mrs. Adams. You know, I am looking at research, a 2004 
research review team report to the NOAA Science Advisory Board 
on research organization and management within the agency 
included the following recommendation. There should be a single 
authority for OAR laboratory programs to join institutes to 
help establish partnerships with other agencies and 
universities and that the wholesale dissolution of OAR and 
distribution of its resources and talent to the other lines 
would splinter rather than more tightly connect the science and 
research enterprise. In developing your Climate Service 
proposal, did you consider these expert suggestions to 
consolidate NOAA research programs and warnings against the 
splintering of OAR resources and talent? If not, why, and if 
so, why were the recommendations dismissed?
    Dr. Lubchenco. Congresswoman, that report in 2004 did in 
fact advise our thinking. A later report in 2011 and others 
from the same Science Advisory Board endorsed the proposal that 
we have brought before Congress today. Their thinking evolved 
as did ours.
    Mrs. Adams. In your written testimony, you have laid out 
the reasons for the reorganization of 53 percent of your 
agency's assets into a single line office. What I found most 
interesting was the language you used to describe this change. 
You used the term ``climate variability'' eight times to 
describe the research activities of the new office line. Is 
this change meant to reorient NOAA towards having the majority 
of its budget for climate change research without actually 
saying that?
    Dr. Lubchenco. I am not sure what you are asking, 
Congresswoman.
    Mrs. Adams. Is this change meant to reorient NOAA towards 
having the majority of its budget for climate change research 
without actually saying that?
    Dr. Lubchenco. Congresswoman, anything longer than two 
weeks out is in the category that we call climate variability 
and climate change. The climate system has natural fluctuations 
that is climate variability.
    Mrs. Adams. Is the movement of so much of your research 
assets into this new office being done for the purpose of 
creating an office which advocates a specific model or climate 
change rather than producing data to inform researchers?
    Dr. Lubchenco. There is no advocacy in what we are 
proposing or intending. We are providing information to enable 
others to make informed decisions.
    Mrs. Adams. And is your agency so bureaucratic that you 
need to move 53 percent of your assets into one place just to 
have a single source of data?
    Dr. Lubchenco. Having--it is good government to reorganize 
periodically and to become more efficient and effective, which 
is exactly what we are doing.
    Mrs. Adams. Mr. Winokur, I have about 10 seconds. I just 
want to confirm, does the Navy have a single entry point for 
data from NOAA now? Is your testimony that you don't have a 
single entry data point to NOAA?
    Mr. Winokur. That is correct, Congresswoman. We go to 
different parts of NOAA depending on the type of information 
that we require.
    Mrs. Adams. Do you receive that information that you are 
asking in a timely manner?
    Mr. Winokur. Ultimately, we receive it, yes, but we go----
    Mrs. Adams. Is it in a timely manner?
    Mr. Winokur. Generally, yes.
    Mrs. Adams. Thank you.
    Mr. Harris. Thank you very much.
    It is my pleasure to recognize Ms. Johnson, the Ranking 
Member, for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chair, and let me 
say, Dr. Lubchenco, I am limited to five minutes, your 
responses are not, so I am going to ask three questions up 
front.
    This spring, the United States has experienced an 
unprecedented number of extreme weather and climate events 
including drought, floods, fires, and tornadoes, and it does 
not seem these storms are stopping. In fact, we are seeing 
extreme events in places we have never seen them before. 
Instead of stopping NOAA's efforts to find a better way of 
providing this country with information, we should be ensuring 
that NOAA is providing these services in the most efficient way 
possible. What impact would this proposed Climate Service have 
on the creation of jobs, stability of food prices, and the 
growth of the economy? And how will the proposed Climate 
Service help better prepare us for such climate extremes in the 
future? And then the third question is, you mentioned that NOAA 
already has the authority to conduct climate science and 
deliver climate services. In fact, NOAA already does both. But 
if this proposed reorganization is not approved by Congress, 
what would be the impact of this decision on the public and the 
American businesses?
    Dr. Lubchenco. Thank you, Ranking Member. I think that the 
extreme events to which you allude really underscore the 
importance of having an effective and efficient ability to 
provide long-term weather and climate information to people. 
Currently, firefighters around the country use NOAA's climate 
forecasts from seasonal precipitation and drought outlooks to 
weekly on-the-ground drought monitoring information assessments 
to help them prepare for wildfires. Farmers require seasonal 
temperature, precipitation, and frost freeze data to determine 
what kind of crops to grow. The U.S. homebuilding industry 
estimates it saved over $300 million per year in construction 
costs by using the information that NOAA provides. Local 
community and emergency management offices use our sea-level 
data, for example, and storm frequency information to help them 
prepare, insurance companies, public health departments, power 
utilities and others. These are all examples of current users 
of our climate data and information, and we believe that this 
reorganization will enable us to provide this information in a 
more timely manner and more effective.
    I have mentioned that we believe there is a huge potential 
to grow a new private sector enterprise around climate 
services. That is most definitely a jobs issue. As you 
appreciate that the current private weather enterprise totals a 
billion dollars, I think there is huge potential.
    And finally, you posed the very important question of what 
would happen if we did not receive permission from Congress to 
implement this reorganization. Currently, our climate service 
and science is distributed across five different line offices. 
If it is limited to the current organization, we would continue 
to have bureaucratic inefficiencies, no clear access point, 
missed opportunities for synergies between scientific advances 
and fast-evolving services, and we would not be in a position 
to help catalyze this emerging private sector enterprise. So it 
would be business as usual, which is not in the best interest 
of the American public, I believe.
    Ms. Johnson. Thank you very much. I am within my five 
minutes. As a matter of fact, I am going to yield back a few 
seconds.
    Mr. Harris. I thank you very much. I recognize myself for 
five minutes. Thank you, Dr. Lubchenco, for appearing before 
the Committee again, and Mr. Winokur.
    Dr. Lubchenco, does NOAA right now have a prediction for 
sea-level change in the next 50 or 100 years?
    Dr. Lubchenco. Yes, Congressman, it does.
    Mr. Harris. And what is it?
    Dr. Lubchenco. Well, it varies by region.
    Mr. Harris. Let us do my district, the 1st Congressional 
district of Maryland, Chesapeake Bay.
    Dr. Lubchenco. I don't have those numbers at my fingertips, 
Congressman, but I would be happy to get them to you.
    Mr. Harris. So you have possession. Good. Well, I hope it 
kind of agrees with what is published on the NOAA Climate 
Service's Web site. I take it that the NOAA Climate Service's 
Web site is what you referred to as the NOAA climate portal in 
your testimony?
    Dr. Lubchenco. The NOAA climate portal, yes.
    Mr. Harris. Okay. And you do have an increased number of 
hits. Now, I share the concern of my fellow physician from 
Georgia here, Dr. Broun, that, you know, our hesitation is that 
the Climate Services could become a little propaganda source 
instead of a science source. And I am going to ask for it to be 
entered into the record. In the Climate Watch magazine on the 
NOAA Climate Service, now, I didn't know you published a 
magazine because normally when you think of science, you don't 
think of magazines, but I guess NOAA is a little different in 
that thinking, and it republishes an article I believe from 
Chesapeake Quarterly. Now, Chesapeake Quarterly, as far as I 
know, is not a peer-reviewed scientific publication, is it?
    Dr. Lubchenco. I am not familiar with it, Congressman.
    Mr. Harris. Okay. Well, if you could get that information 
to me, I am pretty sure it is not. If you go through the 
article published it says on March 10, 2011, this year, it is 
called ``Before the Next Flood'' and it deals with sea-level 
change or water rising in the Chesapeake Bay area, and it does 
it in a fairly sensational way. Because, for instance, it shows 
a picture of a four-foot sea-level rise and then on top of that 
a six-foot rise from a storm like Isabel. Now, does that imply 
that NOAA believes there is going to be a four-foot sea-level 
rise in the Chesapeake Bay?
    Dr. Lubchenco. I do not know what our estimates are, 
Congressman.
    Mr. Harris. Well, why would you put something on your Web 
site that has a picture of a four-foot sea-level rise with no 
designation of the time? I mean, this doesn't say, you know, 
potential within 100 years. It actually quotes IPCC as the 
source for the sea-level rise, not a NOAA study, and it says a 
three-foot rise over 100 years with no range. I believe the 
IPCC report had a range, didn't it, of projected sea-level 
rise?
    Dr. Lubchenco. That is correct, Congressman.
    Mr. Harris. Is that the way normally you would present 
something scientifically? Like you would suggest, you would 
footnote it and you would perhaps put other data in? I mean, is 
this science? Is what NOAA has on its Climates Service's Web 
site science? That is what I would like to know.
    Dr. Lubchenco. Congressman, I am not familiar with that 
article. I would be happy to look at it and comment on it. 
Typically, we would present a range of information, and I am 
guessing that having concrete visuals enables people to 
translate a particular rate of change into something that is 
actually----
    Mr. Harris. Doctor, that is exactly right, but there is no 
rate. It just says four foot. It doesn't say four-foot rise 
projected by the IPCC to be at the 95th percentile chance of 
probability in the year 2020 or 2120. It just has a picture of 
a four-foot rise.
    Now, Dr. Lubchenco, you are also aware that on the eastern 
shore of Maryland, that there are two factors. One is that the 
eastern shore is sinking.
    Dr. Lubchenco. Correct.
    Mr. Harris. And that the sea level may be rising and 
probably is rising. I read this article, and it doesn't talk 
about--I mean, it, you know, just occasionally mentions it but 
it talks about sea level but it doesn't talk about the land 
sinking around it and how different that might be and the 
implications might be different. And then it talks about the 
fact that they can't get a local zoning code change since 
Hurricane Isabel 10 years ago when the sea-level rise was six 
feet. Now, how does this part of NOAA's scientific contribution 
to our understanding of climate change when you are talking 
about getting a local zoning change in response to a hurricane? 
I don't get it. There is a disconnect. Is this where we are 
going to concentrate what ultimately will be billions of 
dollars of our money is to publish an online magazine?
    Now, as part of the justification for your center, you 
actually say that you had a 57 percent increase in climate-
related data and information Web site hits. I assume that 
includes hits on this magazine article. You don't really want 
us to set up a new service at NOAA to publish a magazine 
article taken from another magazine where you are merely 
republishing it from Chesapeake Quarterly which I will profer, 
and I am sure your staff will determine, is not a scientific 
peer-reviewed journal. Do you really want us to do that? You 
are asking Congress when we have got to borrow 41 cents out of 
every dollar including a significant amount of that from the 
Chinese to set up a Climate Service for you to publish this?
    Dr. Lubchenco. Congressman, I haven't seen that article so 
I can't really comment.
    Mr. Harris. Well, I am going to ask you to comment on it in 
the questions that will be coming from the Committee after this 
because this is absolutely atrocious. This exactly exemplifies 
what the gentleman from Georgia was talking about.
    With that, the gentleman from Maryland, Mr. Sarbanes, is 
recognized for five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you very much, 
Administrator Lubchenco.
    Just to follow up on that for a second, would you like to 
take a moment and speak briefly, because I have a bunch of 
questions, but speak to the resource that NOAA represents and 
the fact that you are having increasing use of the Web site for 
scientific data from the audiences that you serve and why that 
is a benefit to those audiences?
    Dr. Lubchenco. Thanks, Congressman. We do--we are receiving 
increased, just overwhelming number of increases for 
information in general but data in particular, and we have 
quantified that. Between 2009 and 2010, we saw an 11 percent 
increase in direct requests for data and information, and our 
data centers provided 86 percent more climate-related data in 
2010 than 2009, and these requests are coming primarily from a 
wide variety of users from firefighters, from farmers, from 
electricity providers, from home insurers, from other agencies, 
the Department of Health, USDA, the Army Corps of Engineers, 
and coastal managers. They are all looking for the kind of data 
that we have on temperature, on precipitation, on water 
resources, on sea-level rise, and because we are getting more 
and more increases in these requests, we believe we have a 
responsibility to be responsive, which has in large part 
prompted our asking ourselves how can we be more efficient, how 
can we do more with less, how can we be stewards of taxpayer 
dollars in a way that is responsive to these increasing 
requests.
    Mr. Sarbanes. I appreciate that. Let me just make a few 
comments.
    First of all, I want to thank NOAA. I think it is a 
terrific organization.
    Dr. Lubchenco. Thank you.
    Mr. Sarbanes. I think that the research you are doing 
frankly serves as a foundation for so many important policy 
decisions that we need to make here and that the country needs 
to make going forward. So it is a critical function that NOAA 
serves, and it does so in a very, very professional way. All of 
the people that I have had the opportunity to deal with at NOAA 
reflect, I think, a cultured professionalism and dedication to 
science and facts and data and evidence that really makes the 
reputation of that agency I think a premier one, in particular 
with respect to the work that you do in the Chesapeake Bay, 
providing critical information for us so that we can make these 
tough decisions going forward.
    You said it a number of times but I want to reiterate that 
all you are trying to do with this proposal that you have made 
is to do your job better. We have people parading around the 
halls of the Capitol every day talking about how government has 
to operate more efficiently, has to find ways to save, to 
reduce duplication, to spend the taxpayers' money wisely. Here 
is an agency, NOAA, that is hearing that and taking it to heart 
and trying to implement many ideas that can achieve that, and 
proposing other ideas such as this one with the Climate Service 
that represents efficiency. I thought you answered very well 
the questions regarding having a transition director with 
respect to Climate Service. If you had come up here and 
proposed to have a new Climate Service, the next question would 
be, well, what is that going to look like, and if you hadn't 
had somebody in charge of looking into and planning, you 
wouldn't be able to answer those questions. Any responsible 
proposal is going to have to do a certain amount of research to 
come forward and say this is what this would look like, and the 
efficiencies that you are proposing I think make a lot of 
sense, so I congratulate the agency on that. I also appreciate 
your very thoughtful responses to the questions and I apologize 
that in some instances you were cut off while you were trying 
to respond.
    And so I want to thank you for your testimony. I find it 
very compelling, the need for this. It started way before you, 
so others on both sides of the aisle have recognized the 
importance of doing this, and I hope that we can move forward 
and create this opportunity.
    And I want to thank you, Mr. Winokur, as well for your 
testimony. You said at one point that you recognize the 
benefits of a consolidated organizational construct. I regard 
that as an endorsement, even though you are not offering up an 
official position of the Navy, an endorsement of the proposal 
that has been set forth by Dr. Lubchenco and NOAA.
    So I hope we can move forward with this, and I thank you 
all for your testimony and I yield back.
    Mr. Harris. Thank you very much, Mr. Sarbanes.
    I recognize Mr. Quayle for five minutes.
    Mr. Quayle. Thank you, Mr. Chairman.
    Dr. Lubchenco, you have emphasized that the Climate Service 
is needed to more closely align climate science information 
with delivery of services to the public and that your proposed 
structure will make communication of this information more 
productive and more effective. Do you see any tradeoffs or 
potential downsides to this proposal or is it just win-win?
    Dr. Lubchenco. Congressman, we spent a lot of time thinking 
long and hard about this and did extensive consulting with 
others to better understand what the tradeoffs might be, and we 
believe that the proposal that is before Congress enables us to 
be more efficient with the dollars that we have, to respond to 
the increasing demands for information about long-term weather 
and climate, to support a growing private sector enterprise and 
essentially be good stewards of taxpayer dollars. We believe 
that we can increase the strength of science within NOAA with 
this proposal. It does not in any way diminish the caliber or 
the quantity of science that is being done. It will afford us 
an opportunity to better directly connect the science and 
services within a climate single unit, and at the same time 
strengthen science elsewhere in the organization by enabling 
the Office of Atmospheric and Oceanic Research to be an 
incubator of long-term science and integrate science across the 
agency. So we think this is a win-win.
    Mr. Quayle. I am just curious, what about non-climate 
research that you are proposing to transfer into the Climate 
Service? Isn't there really a risk that basic research to 
understand the atmosphere or applied research to improve 
weather prediction will be impacted negatively if subsumed into 
an organization whose mission is solely focused on climate?
    Dr. Lubchenco. Congressman, that is a legitimate concern, 
and I think we have a number of examples within NOAA where we 
have superb, outstanding science that coexists with a service-
providing entity. We do that in our fisheries line office, for 
example. We do it in ocean service line office. And by analogy, 
we believe that we can have really strong science and have the 
science connected to services within this proposed Climate 
Service line office.
    Mr. Quayle. Okay. Now, you are proposing to move the 
research physical science division in Boulder to the Climate 
Service. Is that correct?
    Dr. Lubchenco. We are not proposing to move any people or 
any labs to any new physical entity. We are putting them under 
a new management structure if this is approved.
    Mr. Quayle. Okay. And so is that the same for the OAR's 
chemical science division?
    Dr. Lubchenco. That is correct.
    Mr. Quayle. So I have understood that about 98 percent of 
the current physical science division's work is weather 
research and water science. Is that right?
    Dr. Lubchenco. I don't know the exact number. That is 
approximately correct.
    Mr. Quayle. And about one-third of the chemical science 
division involves air quality, weather, water, coasts, 
estuaries and oceans research in science. So when you are 
saying you are not proposing to move resources away from non-
climate activities, I don't understand how that really squares 
with that.
    Dr. Lubchenco. The design principles that we utilized when 
we started to have this conversation included wanting to have 
the most efficient and effective delivery of climate service 
information, to protect the integrity of science and to not 
disrupt and break apart any existing laboratories. The 
laboratories, the programs that we are proposing to move into 
the climate science, I mean the Climate Service line office do 
include pieces that do both climate and other kind of science 
and it is important that they stay together, and that is the 
proposal. There is a lot of need for integration across all of 
NOAA because physical sciences or chemical sciences that might 
relate to climate also would relate to weather. That is just 
the nature of that science, and so in moving them, this will 
not diminish--it won't change what they do. It won't undermine 
their ability to do that well. It will enhance the connection 
of climate science to climate services.
    Mr. Quayle. Okay. Thank you very much. I yield back.
    Mr. Harris. Thank you very much.
    I recognize the Ranking Member of the Energy and 
Environment Subcommittee, Mr. Miller, for five minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    Dr. Lubchenco, I apologize if I slip up and call you 
Admiral. I am used to calling the----
    Dr. Lubchenco. I would take that as a compliment, sir.
    Mr. Miller. [continuing]. Head of NOAA Admiral. You have 
been accused of breaking the law in giving an existing employee 
a new title that included the word ``climate'' and adding new 
employees, six new employees that had ``climate'' in their 
titles. When did you add those positions or change that title?
    Dr. Lubchenco. Congressman, those were done before the 
Continuing Resolution.
    Mr. Miller. Six months ago, nine months ago? I mean, last 
year?
    Dr. Lubchenco. Last year.
    Mr. Miller. Okay. And then you said before the Continuing 
Resolution, the Hall amendment that supposedly says that those 
two employment actions ran afoul of was how long ago?
    Dr. Lubchenco. A number of months ago.
    Mr. Miller. But well after you renamed those positions and 
added employees?
    Dr. Lubchenco. That is correct.
    Mr. Miller. Did you have authority--did you think you had 
authority to add those positions with ``climate'' in their 
title and change an existing employee's title to add 
``climate'' when you did that?
    Dr. Lubchenco. We absolutely did, Congressman. We have 
three Acts passed by Congress that direct us to do climate-
related science and delivery of services. The National Climate 
Act of 1978, the Global Change Research Act, and the National 
Integrated Drought Information System Act are existing 
authorizations under which we operate, under which we have 
people who do climate service provision and do climate science, 
and we are operating under those authorities.
    Mr. Miller. Okay. Obviously climate and weather aren't 
exactly the same but they are not unrelated, either. A forecast 
of the ocean levels in 50 years is climate, and whether it is 
going to rain tomorrow and what the temperature is going to be 
tomorrow is weather, but where is the demarcation? You said 
earlier about two weeks. Is that correct?
    Dr. Lubchenco. That is correct. Our weather models allow us 
to make reasonable forecasts out to about 10 days, and so--and 
then the climate--so we define weather as anything less than 
two weeks, roughly.
    Mr. Miller. Okay, and climate----
    Dr. Lubchenco. And climate is longer than that.
    Mr. Miller. Okay. You said earlier that there was an 
increasing demand in the private sector for climate services. I 
think Mr. Sarbanes' questions got at that some but could you 
tell us what kind of requests you are getting and what kind of 
products or services do you think NOAA can provide with your 
climate forecasting abilities that to the private sector would 
be useful, would find useful?
    Dr. Lubchenco. Congressman, let me answer with an example. 
I met about a year ago with the Western Governors Association, 
who were having--the focus of their meeting was on water and 
drought, which is a major issue in the West, and they have been 
very pleased with our National Drought Information Services 
that we created in response to a request from them. That is an 
example of a climate service that we currently provide, and 
that like a number of other services I believe are increasingly 
important to a wide variety of managers and users of data.
    Now, the private sector is already marshaling, preparing to 
respond to the increasing demand, and many of the Governors 
were telling me of the private companies that they have 
contracted with to give them better information about the 
likelihood of water in different parts of their State, water 
resources, what is the likelihood of drought. Those companies 
take the information that we currently provide and tailor it to 
a specific place or user. We believe that we can be even more 
helpful to them by this reorganization that enables them to 
more easily find the information they need and to create 
additional services in response to their demand, much like what 
we do with the Weather Service. We would provide basic core 
information and then the private sector can take that, add 
value, tailor it, repackage it, put whatever bells and whistles 
they want on it.
    Mr. Miller. You gave a statistic that the homebuilders had 
given for how much they thought your services had saved them. 
How much--what was that statistic again?
    Dr. Lubchenco. The U.S. homebuilding industry tells us that 
they believe they have saved over $300 million per year in 
construction costs alone by using just one of NOAA's climate 
tools that relates to freezing and frost depths. So in building 
homes in a way that is specific to a place instead of more than 
is needed, they can save a huge amount of money.
    Mr. Miller. And that is just residential construction, not 
all construction?
    Dr. Lubchenco. That is correct.
    Mr. Miller. Mr. Chairman, my time has expired.
    Mr. Harris. Thank you very much.
    I recognize the gentleman from Illinois, Mr. Hultgren, for 
five minutes.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Thank you both for being here. Sorry, I have a couple 
different committees going on at once, so sorry to be coming in 
a little bit late, but good to be here and appreciate you being 
here as well.
    A couple questions. NOAA's Next Generation Strategic plan 
that was issued back in December of 2010 stated that one of the 
main objectives for achieving a long-term goal for climate 
adaptation and mitigation is improved scientific understanding 
of the changing climate system and its impacts. Specifically, 
it states international, national, state and local efforts to 
limit greenhouse gases require reliable information to support 
emissions verifications as do efforts to track climate changes 
and mitigate impacts. The statement raises several red flags, I 
think, since it seems to be stating that NOAA will be 
conducting research to support the implementation of greenhouse 
gas emission reduction policies. H.R. 1 made the position of 
the House of Representatives very clear on greenhouse gas 
reduction policies. Therefore, it really must be concluded that 
this objective is a political one and not science-based.
    Furthermore, the United States is not a party to the Kyoto 
Protocol, the only international agreement aimed at reducing 
greenhouse gas emissions. For many people, the stated goal is 
the heart of the concern about NOAA's proposal that this 
service will be driven by a political agenda and not scientific 
research needs. Question--sorry for the long preface here, but 
what guarantees can you give to this Committee that the Climate 
Service will not be used to promote such policies that have not 
been passed by Congress nor signed into law by the President?
    Dr. Lubchenco. Congressman, thanks for that question. Our 
proposed reorganization has nothing to do with cap and trade. 
It is not regulatory. It is not advocacy. Our mission is to 
provide scientific information and to translate that 
information into usable data, usable products like weather 
outlooks, like hurricane forecasts, like drought outlooks, to 
take that information and provide it to the American public, to 
the private sector, to state and local managers so that they in 
turn can use that information to make the best decisions. We 
don't advocate, we provide information.
    Mr. Hultgren. How do we make sure that that continues, that 
it doesn't shift? It sounds like from the statements that we 
have heard that there is some shift going more toward the 
political side and less towards science-based and what 
guarantees are in place to make sure that that--as you state, 
the intention is to be all science-based, no political agenda. 
What guarantees are there? What precautionary steps are being 
taken to make sure that that actually occurs?
    Dr. Lubchenco. Congressman, one of the benefits of the 
proposed reorganization is that it has greater transparency in 
terms of how taxpayer dollars are spent. You can look at our 
budgets and see exactly where the money goes, and I believe 
that that is one of the kinds of checks and balances that is 
appropriate. I reiterate that we are providing information so 
that others can make decisions.
    Mr. Hultgren. Switching gears a little bit here, Dr. 
Lubchenco. You have repeatedly emphasized that the Climate 
Service proposal would strengthen science within NOAA and that 
the proposed focus on climate services will not detract from 
the quality or focus of science that NOAA conducts. With that 
in mind, help me understand the process through which Climate 
Service budget and planning is developed. What line office 
within NOAA has led this effort? And then just wondering too, 
is the Office of Atmospheric Research, which is responsible for 
delivering the science foundation that NOAA depends on, are 
they involved in this, delivering this? If you can just help me 
understand the structure.
    Dr. Lubchenco. Sure, Congressman. We currently have science 
in multiple line offices within NOAA, and this proposal to do a 
reorganization and create a new Climate Service line office 
benefited from extensive input from all parts of NOAA as well 
as extensive consultation outside. It was an idea that was 
initially proposed in the late 1990s and that my predecessor, 
Admiral Lautenbacher, and the Bush Administration said this is 
an idea we should pursue, a line office for climate services. 
When I came on board, I thought that was exactly what we 
needed, and we have proceeded in a very deliberate and 
consultative fashion to work through the different options and 
give the proposal to Congress that we are bringing.
    Mr. Hultgren. What line office within NOAA has led the 
effort?
    Dr. Lubchenco. No single line office. It has been an all-
NOAA effort. The OAR that is our lead for science has been an 
active participant, so too have the other line offices--the 
Weather Service, fisheries, ocean services, our satellite 
division. Each of those has participated very actively in this 
proposal.
    Mr. Hultgren. Thank you. I see my time is up. I yield back.
    Mr. Harris. Thank you very much.
    The gentlelady from Ohio, Ms. Fudge, is recognized for five 
minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank 
both of you for being here.
    I am going to ask you a question that absolutely has no 
politics to it at all, because flooding affects Republicans and 
Democrats. I am aware that NOAA provides long-term seasonal 
outlooks that help communities and businesses prepare for 
flooding. This is an activity that is especially relevant to 
Ohio. Could you please describe for me the types of long-term 
forecasts that NOAA provides that help Ohioans prepare for 
flooding and other Midwestern areas that have experienced this 
spring? Everybody's house floods in our area. I don't care what 
side of the aisle they are on.
    Dr. Lubchenco. Thank you, Congresswoman. One of the 
services that we currently provide is our outlooks about 
droughts and floods, various things having to do with water, 
and as early as last fall, NOAA alerted the states in the upper 
Midwest and mid-Midwest that in fact conditions were likely to 
have very significant flooding this spring, and then in I 
believe late, I think it was December, but I can check on that, 
we issued--actually, I think I might have this here. No, I 
don't want to look for it. We issued a warning saying 
essentially that because of the amount of snow pack that was 
present and because of the conditions that were developing 
having to do with La Nina, with other atmospheric changes, that 
it was highly likely we would get very, very significant 
flooding in the Mississippi River drainage basin and then later 
we added the Missouri River as well, and that is exactly what 
we have seen this year, and these outlooks that said, I think 
it was from Montana to Wisconsin and from the Canadian border 
down to St. Louis, originally that was the outlook said we will 
have very significant flooding this year, get ready, and that 
is exactly what has transpired. I believe that that outlook and 
those warnings have been very useful in helping communities be 
prepared, for helping state managers marshal their resources, 
and we have indeed seen extraordinary flooding this year in 
both the Mississippi as well as the Missouri River, and it has 
caused an inordinate amount of damage, but the damage would 
likely have been much worse had we not had these kinds of 
outlooks.
    Ms. Fudge. Thank you very much. Do you consider this a 
climate service?
    Dr. Lubchenco. Yes, Congresswoman.
    Ms. Fudge. I just wanted to be clear because----
    Dr. Lubchenco. Yes. Thank you for that clarification.
    Ms. Fudge. Because some people I think don't understand 
what a climate service is, so I thank you. And with the minute 
or so I have left, is there something that you would like to 
share with us that maybe you did not get an opportunity to 
answer? Certainly, I am no scientist so I have learned a great 
deal today about the difference between what my Republican 
colleagues believe is science and what is not science. So if 
you could just give me some closing comments, I would 
appreciate it very much.
    Dr. Lubchenco. Congresswoman, I think I would start with 
the clarification you requested and simply emphasize that 
climate service is really shorthand for long-term weather and 
climate information, and that that information is vitally 
important to saving lives and property but also to stimulating 
businesses, to helping businesses plan and save money. Our 
intention in doing this reorganization is to provide what we 
are being asked increasingly to provide but to do so in a way 
that is consistent with our Congressional mandates and with the 
needs of the American people, and to do so in a way that is 
being a good steward of American taxpayer dollars, to do so as 
efficiently and effectively and as collaboratively as we can.
    This proposal is good government, and I am immensely proud 
of what NOAA does each and every day, the 13,000 employees of 
NOAA, in providing the amazing weather forecasts, the climate 
services, drought outlooks, fire, hurricane outlooks, flooding, 
and wildfire. All of that kind of information we understand is 
important and we want to do an even better job of providing it.
    Ms. Fudge. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Harris. Thank you very much, and as the noon hour is 
approaching, I do want to thank both witnesses for taking your 
time and for sitting with us for the last two hours.
    The Members of the Committee may have additional questions 
for any of you. I encourage any of the Members who have 
additional questions to please submit them and we will ask you 
to respond to them in writing. The record will remain open for 
two weeks for additional comments from Members.
    I would like to get a commitment, though, Dr. Lubchenco, 
for you to try to get the questions back, both the leftover 
ones from the March 10th hearing as well as today's as soon as 
feasible because we do want to complete the record and we do 
need to move on into the appropriations process at some point, 
and I do want to thank NOAA for a job well done and the 
Department of the Navy for a job well done.
    Thank you very much, and the witnesses are excused and the 
hearing is adjourned.
    [Whereupon, at 12:00 p.m., the Committee was adjourned.]
                               Appendix 1

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Jane Lubchenco,
Undersecretary of Commerce for Oceans and Atmosphere 
and NOAA Administrator,
National Oceanic and Atmospheric Administration, U.S. Department of 
        Commerce,
Washington, DC 

Questions submitted by Chairman Ralph M. Hall

Q1.  In the 2004 Research Review Team report to the NOAA Science 
Advisory Board, it was noted that ``for all science-based operational 
agencies or companies reviewed, there were organizational and 
operational mechanisms that provided for funding stability for a 
research program with a longer-term focus. With the development of a 
NOAA research plan and data obtained during this research review, NOAA 
OAR can quickly implement changes necessary to manage a successful 
research program for NOAA.'' [page 28]

Q1a.  Given the current fiscal environment, and the concerns laid out 
in the NAPA report about the long-term budgetary feasibility of 
creating a new Climate Service line office, why should NOAA risk 
research funding stability and sacrifice expediency in an effort to 
create a separate Climate Service line office?

A1a.  In their report, the National Academy of Public Administration 
panel states:

    The Panel is skeptical that current funding levels (even as 
augmented at levels consistent with the President's FY 2011 budget 
request) will adequately sustain public and private sector expectations 
for climate services and research in the years ahead. It would be 
impossible for this Panel to propose a precise budget for this new 
Climate Service based on the limited information available to us, and 
choices still to be made by NOAA. Nonetheless, by its design and 
because of growing needs, the NOAA Climate Service can reasonably be 
expected to take on a great deal more than its current workload in the 
years ahead. It will have to prioritize its new research and service 
deliverables with tenacious discipline.

    NAPA then goes on to state, ``This budget challenge, we wish to 
make clear, would be a poor reason to oppose creation of the new NOAA 
line office.''
    The proposal to create a Climate Service line Office is budget 
neutral and would maintain, strategically realign, and make targeted 
investments in the NOAA research enterprise, including but not limited 
to climate research. The proposed reorganization would not eliminate or 
reduce any of NOAA's research activities.
    The demand for climate services is increasing and will outstrip 
current private and public capacity to respond. To better anticipate, 
develop, and deliver the science and services to address this growing 
need, it will be necessary for academic institutions, government 
agencies, the private sector, and others to work together in a 
coordinated and concerted manner, and to prioritize efforts.
    NOAA's proposal to create a Climate Service Line Office would not 
only allow the agency to more efficiently and effectively participate 
in the broader enterprise; it would also provide more streamlined and 
reliable access to NOAA's authoritative climate data and information 
and therein allow partners to maximize their contributions to the 
enterprise. The proposed Climate Service Line Office structure reflects 
NOAA's response to the needs of numerous demands for climate services, 
so that the agency can: (1) promote integration of NOAA's climate 
science and service assets; (2) heighten the accessibility and 
visibility of NOAA's climate services for our partners and users; and 
(3) allow NOAA to more efficiently address user and partner needs 
compared to our current distributed structure.
    In the same way, NOAA recognizes the need to prioritize climate 
service activities in light of the tremendous existing and anticipated 
demand. To this end, based on recommendations from NAPA and the NOAA 
Science Advisory Board Climate Working Group, NOAA undertook an 
internal and public process to draft the Vision and Strategic 
Framework. This document outlines and prioritizes both foundational 
science and information services that NOAA would continue to provide to 
partners and users to support their development of tailored products 
and services, as well as four key societal challenges--coasts, marine 
ecosystems, extreme events, and water--where NOAA would focus 
advancements across the spectrum of climate science and services.

1b.  Furthermore, what reasoning exists, given these risks, for NOAA to 
move forward without having conducted an extensive assessment of the 
impact on the rest of the activities,organizational structure, and 
synergy of NOAA's other line offices, including what would remain of 
OAR?

A1b.  The idea of creating a Climate Service Line Office at NOAA is not 
new. The concept first surfaced in the early 1970s, not long after NOAA 
was established, and later gained prominence and traction in NOAA 
during the George W. Bush Administration. NOAA's reorganization 
proposal benefited from several years of extensive analysis by internal 
and external groups. As a result, the proposal carefully considered and 
minimized impacts to NOAA's organizational synergy, and in fact seizes 
on the opportunity to strategically renew and realign NOAA's research 
portfolio to strengthen science and innovation across the agency. This 
proposal would help prioritize and stabilize funding for NOAA's entire 
research portfolio.

Q2.  As you noted in your testimony, last September the National 
Academy of Public Administration (NAPA) released a report making 
suggestions for the creation of a NOAA Climate Service. While it was 
strongly supportive of the creation of a Climate Service, it was 
skeptical that NOAA could reorganize internally in a budget neutral way 
without diverting resources from other NOAA functions.

Q2a.  Please explain why you believe NAPA's conclusion with respect to 
budget neutral creation of a climate Service is wrong.

A2a.  NAPA rightly identifies the dramatically increasing public 
expectation for climate science and services are greater than can be 
addressed at current levels of resources. This increasing public demand 
and the consequent need for greater effort, however, will continue 
independent of whether NOAA establishes a Climate Service Line Office. 
NOAA, NAPA, and a broad consensus of external partners and 
organizations believe strongly that for NOAA to most efficiently and 
effectively deploy its climate capabilities at any level of funding, 
the agency's climate-related capabilities are best consolidated under a 
singular management structure. In this way NAPA clearly states, ``This 
budget challenge, we wish to make clear, would be a poor reason to 
oppose creation ofthe new NOAA line office.''
    Addressing the public's demand for climate information is a job 
that requires all hands on deck--no one agency or organization alone 
can meet the increasing need. NOAA fully recognizes that responding to 
the increasing demand for climate services poses a capacity challenge 
to the existing climate services enterprise, which includes academic 
institutions, government agencies, the private sector, and other 
organizations. In order to better anticipate, develop, and deliver the 
science and services to address this growing need, it would be 
necessary for the entire enterprise, not just NOAA, to work together in 
a coordinated and concerted manner.
    To that end, NOAA's proposal to create a Climate Service Line 
Office would not only allow the agency to more efficiently and 
effectively participate and partner in the broader enterprise; it would 
also provide more streamlined and reliable access to NOAA's 
authoritative climate data and information and therein allow our 
partners in the enterprise to maximize their contributions and 
innovation potential.

2b.  How will NOAA be able to provide the same services and still pay 
for a transition? Doesn't the manpower needed for this reorganization 
cost money?

A2b.  One of NOAA's key design principles for evaluating reorganization 
options to create a Climate Service Line Office was that it must be 
budget neutral and not require any additional funds beyond our current 
appropriations to execute. The elements of this ``budget-neutral'' 
character of our proposal include the following:

    <bullet>  The proposal does not grow the size of our administrative 
functions or overhead.

    <bullet>  In order to minimize transition costs, no existing 
programs, labs, or centers would have to be relocated, and no employees 
would be required to move from their current locations.

    <bullet>  The proposal maintained material efficiencies, like 
keeping NOAA's data centers together, in order to keep those shared 
capabilities and infrastructure intact.

    NOAA's proposal seeks to minimize unnecessary disruptions at every 
step of the proposed transition process, for example, by keeping our 
labs intact and only moving programs that are principally climate-
focused. Equally, if not of greater importance are the potential cost 
savings to the American people and businesses that need to access 
NOAA's climate information. Currently,there is no single point of entry 
for the public to access NOAA's climate science and services. NOAA's 
proposal would create that front door, a feature our stakeholders are 
asking for, and in doing so significantly cut down on their transaction 
costs for accessing our information and doing business with NOAA. We 
believe that any short-term transition costs would be far outweighed in 
the longer term by more efficient and effective operations as we 
develop and deliver climate services under a single management 
structure.

Q3.  In your testimony, you state that the NAPA study concluded that 
NOAA's current organizational structure was inadequate to meet current 
demand. NAPA came to this conclusion from the narrow point of view of 
how to improve climate services at NOAA. However, NAPA's endorsementof 
your proposal did not consider the effect that the creation of the 
Climate Service would have on the rest of the line offices.

Q3a.  Has NOAA conducted an internal analysis or contracted with an 
independent review team to assess the impact this reorganization will 
have on the rest of the Agency?

A3a.  There has been significant analysis and discussion both internal 
to NOAA and among external groups about the best organizational 
structure for a climate service in NOAA. The breadth of expertise and 
interests represented and the time that was afforded for these 
discussions over several years was tremendously beneficial to the 
formulation of NOAA's proposed reorganization. The Department of 
Commerce and NOAA have taken such discussion and the ideas they have 
generated very seriously. In response, NOAA has worked with some of the 
brightest minds on institutional planning and administration, service 
delivery, stakeholder involvement, and climate science to develop, 
evaluate and integrate the many ideas that have arisen from these 
discussions into the proposed reorganization contained in the 
President's FY 2012 budget proposal.
    NOAA's proposal to create a Climate Service took great care to 
consider and reflect recommendations from numerous prominent studies 
and external groups, including the NOAA Science Advisory Board (SAB) 
and more recently the National Academy of Public Administration (NAPA) 
study that was requested by the Commerce, Justice and Science 
Subcommittees of the House and Senate Appropriations Committees, to 
provide recommendations for how NOAA should be better organized to 
deliver reliable and timely information on climate to a variety of 
stakeholders. In addition to their recommendations about the 
organizational structure for climate service in NOAA, NAPA evaluated 
impacts to other parts of NOAA from potential reorganization options. 
For example, in evaluating the impacts of consolidating climate science 
and services in the National Weather Service, NAPA concluded, ``that a 
forced marriage of weather and climate missions would serve neither 
well.'' Similarly, in evaluating impacts of consolidating all climate 
science and services under OAR, NAPA concluded that, ``Compelling and 
thoroughly reasonable demands to strengthen climate research and 
services would, in this case, over time likely dilute and diminish 
OAR's unique abilities to support multiple NOAA line offices, including 
a NOAA Climate Service.'' NAPA further asserted that, ``all parts of 
NOAA benefit from OAR's work to incubate fundamentally new approaches 
to mission-centered science, a capability best sustained by maintaining 
a nimble, freestanding OAR line office.''
    Prior to NAPA's more recent analysis, from 2008 to 2009 the NOAA 
SAB and its Climate Working Group (CWG) undertook an effort to compare 
and contrast specific options for the development of a National Climate 
Service--a broad enterprise of agencies, including NOAA, and 
organizations comprised of users, researchers and information 
providers. The CWG established four Tiger Teams and a Coordinating 
Committee to evaluate the pros and cons of each option. This effort 
resulted in the June 5, 2009, SAB report entitled Options for 
Developing a National Climate Service.
    More recently, the SAB CWG winter 2011 report further reinforced 
NOAA's proposal for dedicated Climate Service Line Office, stating:

    The lack of action in several areas highlighted in the previous 
reviews speaks loudly to the need for a new line organization for 
climate services. These responses clearly illustrated the considerable 
inertia that exists within the present system and the difficulty in 
moving from a matrix managed program to a line organization. Let there 
be no mistake: there is a tremendous amount of world-class climate 
research being performed within the agency. Yet, transitioning such 
high-quality research into a service-oriented and operational setting 
is quite another matter. There are some fairly major systemic 
challenges that need to be confronted going from a loose federation of 
somewhat independent NOAA organizations to a functioning climate 
service. Short of a Climate Service line organization with budgetary 
authority, the CWG believes it will prove very difficult to effect 
change if NOAA's approach to climate services continues in a matrix 
structure or manner. (SAB CWG Winter 2011 Report)

    Finally, NOAA has conducted extensive internal analyses as it 
developed its reorganization proposal. NOAA has taken great care to 
consider the reorganization proposal's impacts and opportunities to the 
agency. The proposal was designed taking careful account of this 
analysis to not only minimize disruption and impacts across the agency, 
but also to ensure the continuation of agency-wide synergies and 
further seize on opportunities to make critical agency-wide 
advancements to strengthen our science portfolio.
    At the broadest level of analysis, NOAA brought together its expert 
scientists and managers from each of its Line Offices across the agency 
to develop a vision, goals, and principles for a climate service. NOAA 
has provided the Committee with numerous examples of these analyses, 
which started as early as January 1974, in a document produced by the 
Federal Coordinator for Meteorological Services and Supporting Research 
entitled Federal Plan for Natianal Climatic Services. Others which have 
been provided include:

    <bullet>  Draft Strategic Plan for a National Climate Service, 
(2008). Draft Strategic Plan by NOAA's Climate Service Development 
Team.

    <bullet>  Solomon, S, R. Dole, R. Feely, I. Held, W. Higgins, J. 
Payne, E. Shea, U. Varanasi, M. Westley (2009) A Vision for Climate 
Services in NOAA. Perspectives from a panel of NOAA research 
scientists.

    At a more detailed level of analysis, scientists and managers from 
across the agency have diligently worked to develop and analyze options 
for a climate service in NOAA with appropriate consideration of impacts 
to the entire agency. First, prior to developing a suite of 
reorganization options to consider, NOAA set out several design 
principles for all reorganization options that would be considered. 
These principles, and the subsequent options evaluated, were informed 
by the recommendations received from our SAB and a variety of other 
internal and external sources of input and advice. The specific 
principles NOAA set out to guide its development of options included 
the following:

    <bullet>  Although various programs and activities would be 
consolidated, renamed, and managed collectively, any reorganization 
could not initiate or create new programs or activities not provided 
for in NOAA's existing authorizations and appropriations;

    <bullet>  All realigned activities in the current year would 
continue to be funded at Congressionally directed levels;

    <bullet>  The reorganization would not increase or decrease the 
NOAA Full-Time Equivalent (FTE) or billet allocation, or require any 
relocation of employees;

    <bullet>  The reorganization would not require any physical 
relocation of programs or labs, or require any new facilities to 
accommodate this reorganization;

    <bullet>  Result in a zero sum realignment of funds within the 
current NOAA budget; and

    <bullet>  Not increase the size of NOAA overhead.

    Adhering to these principles, NOAA subsequently developed and 
analyzed four potential organizational structures to reorganize 
existing NOAA climate assets against a set of design criteria. All 
options considered were budget neutral, none grew the size of 
headquarters, and all had no impact on funding for NOAA's science 
portfolio. These options included: (a) consolidating major climate 
science and service assets in the National Weather Service, (b) 
consolidating major climate science and service assets in new Climate 
Service Line Office and eliminating OAR by moving its research into 
relevant Line Offices, (c) consolidating major climate science and 
service assets in OAR, and (d) maintaining OAR and consolidating major 
climate science and service assets in a new Climate Service Line 
Office.
    NOAA evaluated its four organizational options against the design 
criteria listed below. Of the five criteria employed, three focused 
explicitly on broader agency impacts and opportunities (i.e., #1, #2, 
and #4 below).

Design Criteria

    1. Strengthen science in the agency.

    <bullet>  Strengthen and enhance the visibility, quality, and 
relevance of science that supports NOAA's Mission and long-term 
strategy;

    <bullet>  Integrate climate science within the Climate Service Line 
Office and across NOAA to address cross-disciplinary areas such as 
climate and coastal, and climate and ecosystems.

    2. Minimize disruptions and promote efficiency.

    <bullet>  Promote efficient implementation and operation;

    <bullet>  Minimize organizational complexity;

    <bullet>  Utilize existing programs to the greatest extent 
possible.

    3. Establish climate leadership.

    <bullet>  Create a single line of accountability and responsibility 
for performance;

    <bullet>  Create a senior advocate for climate policy, strategy, 
and budget within NOAA.

    4. Enhance program coordination.

    <bullet>  Develop effective mechanisms that leverage program 
execution from across the agency and with our partners.

    5. Promote user engagement on climate.

    <bullet>  Create clear points of access for users;

    <bullet>  Facilitate and improve stakeholder engagement;

    <bullet>  Integrate user input into service development.

Q3b.  NOAA has other complex projects, such as environmental satellite 
programs, that regularly go through independent reviews and 
assessments. Would you be willing to subject your proposal to such an 
independent and objective assessment?

A3b.  From the beginning, NOAA developed its proposal in an open and 
transparent manner.The proposal to create a Climate Service Line Office 
in NOAA underwent several independent reviews and assessments. If 
Congress approves a Climate Service Line Office within NOAA, the agency 
would look to the CWG and other groups to provide independent and 
objective reviews of our progress and effectiveness in transitioning to 
and implementing the new office. Most notably, NOAA commissioned a 
National Academy of Public Administration (NAPA) study, as requested by 
the Commerce, Justice and Science Subcommittees of the House and Senate 
Appropriations Committees, to provide recommendations for how NOAA 
should be better organized to deliver reliable and timely information 
on climate to a variety of stakeholders. These and others are detailed 
above in part A of this question.
    Previously, in 2008, NOAA contracted with Accenture, a global 
management consulting,technology services and outsourcing company, to 
study organizational options for improving the agency's climate service 
delivery. NOAA provided a copy of Accenture's report to the Committee 
on May 6, 2011.
    In addition, NOAA's Science Advisory Board (SAB) Climate Working 
Group (CWG) conducts ongoing reviews of NOAA's climate activities. NOAA 
continues to support the CWG and other groups' independent and 
objective reviews of our climate programs. NOAA has provided the 
Science Committee with copies ofthe CWG's recent reports. Most 
recently, the SAB CWG winter 2011 report further reinforced NOAA's 
proposal for a dedicated Climate Service Line Office, stating:

    The lack of action in several areas highlighted in the previous 
reviews speaks loudly to the need for a new line organization for 
climate services. These responses clearly illustrated the considerable 
inertia that exists within the present system and the difficulty in 
moving from a matrix managed program to a line organization. Let there 
be no mistake: there is a tremendous amount of world-class climate 
research being performed within the agency. Yet, transitioning such 
high quality research into a service-oriented and operational setting 
is quite another matter. There are some fairly major systemic 
challenges that need to be confronted going from a loose federation of 
somewhat independent NOAA organizations to a functioning climate 
service. Short of a Climate Service line organization with budgetary 
authority, the CWG believes it will prove very difficult to effect 
change if NOAA's approach to climate services continues in a matrix 
structure or manner. (SAB CWG Winter 2011 Report)

Q4.  In January 2008, National Weather Service Director Jack Hayes 
issued a directive that stated: ``Provision of climate services, in 
particular the monitoring of variations in climate and climate 
forecasting, is essential to mitigate the loss of life and property and 
to enhance the national economy. The NWS [National Weather Service] is 
the federal agency charged with delivering these services to the U.S., 
its territories, and, as appropriate, its interests abroad.'' As part 
of this charge, the National Weather Service maintains the Climate 
Prediction Center in Camp Springs, Maryland, supports ``Climate 
Services Programs'' at each NWS regional office, issues climate 
products on a daily basis from the more than 120 Weather Forecast 
Offices, and oversees these efforts from the Climate Services Division 
at the NWS Headquarters. NOAA's Science Advisory Board, in making 
recommendations on the development of a National Climate Service in 
February 2009, suggested that including the Climate Service as part of 
the NWS would be the ``option simplest to implement'' from ``every 
practical standpoint.'' The Report also supported ``[g]reater 
connectivity between weather and climate functions.''

Q4a.  If the National Weather Service is currently handling much of the 
climate services portfolio now, why is a separate line office 
necessary? Will the 1,000 National Weather Service employees that 
currently perform Climate Service work as a fundamental function of 
their jobs be transferred to the new line office?

A4a.  This question illustrates the reasons for NOAA's proposal to 
reorganize its existing assets to form a Climate Service Line Office. 
NOAA's climate science and services have developed organically and 
independently in multiple forms and functions throughout five of our 
six line offices. As a result, significant effort must be expended on 
coordination to meet our climate goals. For example, the climate 
products produced by NWS are funded, in part, by another line office in 
order to leverage the expertise at NWS. Similar examples are also found 
in NESDIS and OAR. By bringing together NOAA's dispersed climate assets 
under one umbrella of a line office, the agency would be more efficient 
and effective with taxpayer dollars.
    NOAA's weather services are provided on a time scale of hours to 10 
days out, whereas climate services are provided from two weeks out to 
months, seasons, years, decades and beyond. Currently, the National 
Weather Service's Climate Prediction Center, which has been identified 
to move into the proposed Climate Service Line Office, provides climate 
forecasts and predictions for precipitation, temperature, hurricanes, 
and extreme weather on the order of weeks to seasonal outlooks. Also, 
NWS currently supports a fraction of the climate services that are 
encompassed throughout NOAA. Other climate services components not in 
the NWS include research, observations, modeling, data collection and 
storage, and services. The Climate Prediction Center is a nexus between 
the weather and climate communities at NOAA and beyond. By proposing to 
move the Climate Prediction Center to the proposed Climate Service Line 
Office, a move endorsed by National Weather Service Employees 
Organization (NWSEO), NOAA would leverage this capacity to the 
betterment of both the weather and climate communities within NOAA.
    To answer your second question, the only NWS staff that would be 
moved into the proposed Climate Service Line Office would be the 
Climate Prediction Center employees and contractors, which currently 
number approximately 50 FTEs and 25 contractors. Other staff in the NWS 
that work on climate activities, such as NWS staff in local weather 
forecast offices that serve as climate focal points for the public, 
would remain in the NWS and closely coordinate with the proposed 
Climate Service Line Office. This relationship would allow for 
leveraging of existing on-the-ground NOAA capabilities, serve as a 
nexus between NOAA's suite of weather and climate services, and provide 
the public with seamless access to weather and climate information.

Q5.  The Weather Service is often cited as a model for the Climate 
Service. However, most of the research and science that informs and 
helps develop Weather Service products is housed separately within 
NOAA's research office. Presumably, this model of distinct research and 
weather service activities is working, or NOAA would be trying to 
change it.

Q5a.  If so, then, why won't the same model work for the Climate 
Service?

Q5b.  What is your reasoning for proposing that research associated 
with climate services be treated differently than research associated 
with weather services?

A5a-5b.  The dedicated people of NOAA's NWS excel at the 24-hours-a-
day, seven-days-a-week, on-time and on-demand operational aspects of 
delivering accurate weather services that the Nation relies on to 
protect life and property. In the Weather Service, where the beat of 
operations is on the order of minutes to hours to days, the strongest 
organizational structure is to separate long-term weather research from 
operations because of the long time frame of weather research 
investments (5 to 10 to 15 years) and the large operational 
infrastructure and subsequent resource requirements of the Weather 
Service's 122 forecast offices that require constant attention and 
funding streams.
    In contrast to the NWS model, where science and service (or 
operations) are housed in separate line offices, NOAA would not 
envision a service delivery component for the proposed Climate Service 
Line Office at the scale of the NWS with its 122 local forecast offices 
and other regional infrastructure. The research and science component 
of the proposed Climate Service Line Office would continue to be much 
larger than its services component, where NOAA intends to employ an 
approach that leverages assets outside the proposed Climate Service. 
Within NOAA, we would continue leveraging the service delivery 
infrastructure of the NWS and other partners like the Regional 
Integrated Sciences and Assessments (RISAs), Regional Climate Centers, 
State climatologists, Sea Grant extension, Coastal Services Centers, 
National Marine Sanctuaries, and other parts of NOAA. Given the growing 
demands for climate information from business, we are working with 
private sector companies that are providing climate information today 
or are interested in developing this line of business. This latter 
approach is much akin to the relationship between the National Weather 
Service and the vibrant private weather community that exists today.
    Furthermore, climate services do not have the same beat of 
operations as weather services. Climate services are relevant to longer 
time scale decisions, such as where and how to build critical 
infrastructure, or whether water conservation measures need to be taken 
now to mitigate the upcoming drought season. Because climate services 
are rapidly evolving, it is beneficial for climate science and service 
development to go hand in hand in order to develop products and 
services that can evolve together and be initiated rapidly when needed 
in response to scientific information as it emerges. Services benefit 
from the close proximity to continuous advancements in climate science, 
not only because advancements can constantly improve products (science 
push), but also because users can be asking new questions of the 
science (user pull). Because high-quality climate science is at the 
core of climate services, housing both climate science and services 
under one organizational structure would allow NOAA to better 
transition climate research findings into usable information and 
services that help businesses and communities make more informed 
economic decisions and safeguard lives and property.

Q6.  Recognizing that budget realities demand policymakers prioritize 
and make difficult choices, which is a higher priority for NOAA: 
enhancing short-term weather prediction to save lives and property from 
deadly storms such as tornadoes, or improving long-term predictions of 
climate to enhance planning and decision making by business and 
governments?

A6.  NOAA provides science, stewardship, and service to the Nation. 
NOAA's weather forecasts, from minutes out to two weeks, are critical 
to protecting lives and property from extreme events. NOAA's forecasts 
of two weeks and beyond, also known as climate forecasts, are critical 
to making the advanced planning decisions from weeks to months ahead of 
time that allow for a prepared response to such events such as the 
ongoing drought in Texas. Additionally, NOAA's climate information also 
supports informed decision making for national security as well as 
economic growth and resiliency in both the short and long term.
    NOAA's FY 2012 President's Budget request is the result of a 
rigorous review and prioritization ofthe agency's programs and 
activities necessary to meet NOAA's responsibilities to the Nation. 
Low-priority programs or activities have already been curtailed or 
eliminated, core functions and services are sustained, and targeted 
increases are requested for only the most critical programs, projects, 
or activities necessary to meet the growing demand for NOAA's services. 
Both NOAA's weather and climate missions to the Nation will continue to 
be a priority for the agency.

Q7.  If you move activities such as the Geophysical Fluid Dynamics Lab 
in Princeton, whose scientists work collectively and individually on 
the multidisciplinary aspects of weather, environmental, as well as 
climate modeling, to an exclusive climate service, how do you prevent 
the scientists from ``stovepiping'' their efforts, ignoring or dropping 
their other diminished modeling pursuits, and losing the current 
synergy and collaboration?

A7.  NOAA's research labs, including the Geophysical Fluid Dynamics 
Laboratory (GFDL), are at the forefront of our scientific understanding 
about the Earth System. Today, GFDL's research is primarily focused on 
diverse aspects of climate modeling, including modeling the 
interactions between climate and ecosystems and climate and oceans. 
Although the lab is principally focused on climate research and 
modeling, GFDL's interdisciplinary efforts and collaborations are 
translating their climate expertise to NOAA's other mission areas. For 
example, GFDL has been applying their work to help answer questions 
ranging from the linkages between climate and extreme weather, seasonal 
predictions and projections, and fisheries. These interdisciplinary 
collaborations are critical to NOAA's mission and would continue under 
the proposed Climate Service if approved.
    In order to minimize disruption to NOAA's mission responsibilities 
and employees, maintain current synergies (such as those GFDL is 
engaged in), and leverage material efficiencies, the labs, centers and 
programs that have been identified to move to the Climate Service would 
be transferred as intact units. NOAA recognizes that while the majority 
of the research conducted within the proposed Climate Service would be 
climate focused, there are other important research capabilities that 
are proposed to move and must be preserved. Similarly, not all of 
NOAA's climate research would occur within the proposed Climate 
Service. Partnerships across all these parts of the agency, as well as 
with a variety of external partners, would be a key to success on such 
issues. NOAA recognizes that cross-line integration and coordination on 
research issues would continue to be essential, as they are today.
    The missions of existing OAR programs that are proposed for 
transfer to the Climate Service in the reorganization would not change. 
Existing research, modeling, monitoring, and observational programs, 
including their internal vs. extramural funding distributions, are also 
envisioned to continue under the proposed Climate Service, with 
sustenance of the scientific rigor. That said, while the core missions 
ofthese programs would not change, minor strategic redirections of 
funding would continue to occur each year as a result of careful 
program reviews in the context of NOAA's Next Generation Strategic Plan 
and NOAA leadership approval in order to ensure the agency's portfolio 
of programs most efficiently and effectively meets the Nation's 
evolving needs.
    NOAA is also using the proposed reorganization as an opportunity to 
strategically realign its existing core research line office, the 
Office of Oceanic and Atmospheric Research (OAR), to strengthen the 
agency's overall science enterprise. To this end, OAR would have a key 
role in ensuring cross line office synergies are maintained and 
cultivated, promoting multi-disciplinary collaborations internal and 
external to NOAA. Further, as leader of the central research Line 
Office, the OAR assistant administrator would become the senior advisor 
to the NOAA Chief Scientist and would serve as vice-chair of the NOAA 
Research Council.

Q8.  The Committee's understanding is that about 80% of the current 
Physical Science Division's work is weather research and water science, 
and that about one-third of the Chemical Science Division involves air 
quality, weather, water, coasts, estuaries, and oceans research and 
science. When you say you are not proposing to move resources away from 
non-climate activities, how does that square with the facts?

A8.  The proposed transfer would not result in deviations from the core 
missions or activities of these programs. The proposed reorganization 
does not eliminate or reduce any of NOAA's research and weather 
activities (including National Weather Service's budget). In fact, 
NOAA's FY 2012 proposal maintains NOAA's research funding levels. As 
proposed, NOAA would transfer the Geophysical Fluid Dynamics 
Laboratory, the Climate Program Office, and three divisions of the 
Earth System Research Laboratory--Chemical Sciences Division, Physical 
Sciences Division, and Global Monitoring Division--to the proposed 
Climate Service.
    The difference between weather and climate is our Earth's 
environmental changes (e.g., the atmospheric conditions) in a short 
time (days as weather) versus in long time (weeks, months, years and 
longer, as climate). NOAA's weather-related activities are captured in 
NOAA's National Weather Service, while the activities of the Physical 
and Chemical Science Divisions (from the questions) have more profound 
impact on the understanding and prediction of our Earth's climate 
system (including the atmosphere, water, ecosystem, etc).
    The Physical Sciences Division (PSD) was created during the 
formation of the Earth System Research Laboratory in 2005 to address 
time scales from weather (less than two weeks) to those normally 
associated with climate variability (seasonal- to-interannual time 
scales). PSD maintains a significant focus on water resources (too 
much/too little), supporting NOAA programs such as the 
Hydrometeorological Testbed (HMT) and the National Integrated Drought 
Information System (NIDIS). While 80% of the current PSD work may be 
weather research and water science, it is closely integrated with 
short-term c1imate research and serves a broad range of applications. 
For example, PSD is preeminent in the science of air-sea interaction, 
which has led to improvements in both weather and climate models. 
Because PSD research cuts across time scales, it is quite effective in 
diagnosing the origins of extreme events such as droughts, floods, and 
heat waves so as to improve their prediction and to inform adaptation.
    Approximately one-third of the Chemical Sciences Oivision (CSO) 
work involves air quality, weather, water, coasts, estuaries, and 
oceans research. However, the CSO work that could be termed 
``nonclimate'' is very closely tied to understanding impacts of climate 
change and variability, and it also contributes to climate research as 
well. In addition, the tools used for air quality research are very 
closely aligned with climate research. The CSO work on weather is 
mostly related to boundary layer meteorology that is fundamental to 
assessing climate impacts, wind energy, and evaluation of emissions 
essential for climate studies.

Q9.  In your testimony, you state that you look forward to working with 
this Committee to continue to advance NOAA's mission-focused science 
enterprise. Do you see NOAA as an operational agency supported by 
science, or do you see NOAA as a science agency with operational and 
regulatory functions?

A9.  NOAA has a three-part mission--science, service and stewardship. 
NOAA works to understand and predict changes in climate, weather, 
oceans, and coasts; to share that knowledge and information with 
others; and to conserve and manage coastal and marine ecosystems and 
resources. Science provides the foundation and future promise of the 
service and stewardship elements of NOAA's mission.

Q10.  NOAA's Next Generation Strategic Plan issued in December 2010 
outlined four primary goals for the future. The first long-term goal is 
climate adaptation and mitigation. Within that goal, the first 
objective is to improve scientific understanding of the changing 
climate and its impacts. ``Research on the connections between weather 
and climate, for instance, is necessary to understand how a changing 
climate may affect precipitation patterns and severe weather events, 
including hurricanes. On decadal-to-centennial time scales, research is 
needed to understand feedback between atmospheric greenhouse gases and 
the rate of global-to-regional climate impacts, such as changes in sea 
level, heat waves, droughts, and air and water quality. Research is 
required to understand how changes in the global ocean circulation 
affect the climate system and their subsequent impacts on coastal 
regions, including sea level rise, ocean acidification, and living 
marine resources.''

Q10a.  These research needs describe areas of fundamental climate 
science. If, as the National Academy of Sciences said in a 2001 report, 
research supporting a climate service should be mission-oriented, where 
will NOAA conduct the basic research needed to answer these questions?

Q10b.  Aren't the assets you are proposing to move out of the Oceanic 
and Atmospheric Research office the same ones that conduct this 
underlying research? If so, why would you move such assets into an 
organization that requires operationally directed research?

A10a-10b.  Science at NOAA is the systematic study of the structure and 
behavior of the ocean, atmosphere, and related ecosystems; integration 
of research and analysis; observations and monitoring; and 
environmental modeling. NOAA science includes discoveries and ever-new 
understanding of the oceans and atmosphere, and the application of this 
understanding to such issues as the causes and consequences of climate 
change, the physical dynamics of high-impact weather events, the 
dynamics of complex ecosystems and biodiversity, and the ability to 
model and predict the future states of these systems. Science provides 
the foundation and future promise of the service and stewardship 
elements of NOAA's mission. All NOAA science relates to NOAA's mission, 
and is therefore mission-oriented.
    The proposed Climate Service would include basic physical science 
research as well as adaptation and other applied climate research. As 
proposed in the PB FY 12, OAR would transfer the Geophysical Fluid 
Dynamics Laboratory, the Climate Program Office, and three divisions of 
the Earth System Research Laboratory--Chemical Sciences Division, 
Physical Sciences Division, and Global Monitoring Division--to the 
proposed Climate Service. The proposed transfer would not result in 
deviations from the core missions or activities of these programs.
    Creating a single Line Office would establish a stronger position 
for NOAA to strategically guide its climate research, monitoring, and 
assessment work in a coordinated fashion. Climate services are rapidly 
evolving; therefore, it is beneficial that climate science and service 
development go hand in hand to develop products and services that can 
evolve together and be initiated rapidly when needed in response to 
scientific information as it emerges. Services benefit from the close 
proximity to continuous advancements in climate science, not because 
advancements can constantly improve products (science push), but also 
because users can be asking new questions of the science (user pull). 
Because high-quality climate science is at the core of climate 
services, housing both climate science and services under one 
organizational structure would allow NOAA to better transition climate 
research findings into usable information and services that help 
businesses and communities make more informed economic decisions and 
safeguard lives and property. It also would enable improved information 
sharing and more productive partnerships. with federal agencies, local 
governments, private industry, and other users and stakeholders.
    As mentioned above, this reorganization proposal would maintain the 
highest standards of scientific integrity for all NOAA science. In 
doing so, the proposal would preserve OAR as NOAA's core research and 
innovation hub, a key NAPA recommendation, and would seize on the 
opportunity to strengthen science across NOAA by strategically renewing 
OAR's forward-looking research agenda. In proposing to house much of 
OAR's climate research in the proposed Climate Service Line Office, 
NOAA would both be able to better transition its high-quality climate 
science into usable services and seize upon the opportunity to refocus 
OAR's efforts to incubate solutions to tomorrow's long-term science 
challenges, integrate an agency-wide science portfolio, and drive NOAA 
science and technology innovation.

Q11.  Keeping in mind the accuracy problems encountered by the National 
Weather Service, what assurances can you provide regarding the accuracy 
of and uncertainties associated with projects issued by a NOAA Climate 
Service, which will presumably forecast climate and weather patterns 
weeks and months out in the future, and on regional scales?

A11.  NOAA has instituted a major initiative to strengthen science 
across the agency. As laid out in the draft Vision and Strategic 
Framework document, through strength in research, the Climate Service 
would aim to grow the body of scientific knowledge about climate 
variability and change, including the determination and quantification 
of uncertainties and confidence intervals. The Climate Service would 
ensure its data, information, and services meet the highest standards 
of scientific excellence. This mandates careful quality assurance, 
including:

    <bullet>  Rigorous and internationally recognized procedures for 
calibration and validation of observation and monitoring systems;

    <bullet>  Transparent peer-review procedures for articles, 
documents, and assessment reports;

    <bullet>  Quantification and accurate communication of uncertainty 
in model outputs; and

    <bullet>  Accessible metadata documenting the quality of data 
products and services.

    The Climate Service would identify--and make public--the teams 
responsible for the quality assurance of particular products, to ensure 
that its services are trustworthy, relevant, well described, and easily 
accessible.
    The National Weather Service continually improves its forecasting 
accuracy and abilities through investments in new technology and a 
skilled workforce. This improvement is tracked with performance 
measures that show outcome-based results. For example:

    <bullet>  Since 1990, NHC's Official Annual Average track forecasts 
(based on track error) have improved by about 60%. Current five-day 
error is as large as the three-day error was just 10 years ago. In 
other words, today's five-day forecast is as good as 2000's three-day 
forecast. As Craig Fugate, Administrator of the Federal Emergency 
Management Agency, said recently, ``if this year was just 10 years ago, 
they would have had to evacuate Florida's coast for Hurricane Irene'' 
(evacuations were ordered for NC and northward).

    <bullet>  Tornado warning lead time has increased from less than 
five minutes in the early 90s to over 14 minutes today. Tornado warning 
accuracy has increased from 40 percent to 75 percent over the same 
time. Flash flood warning lead time increased from about 14 minutes to 
over 90 minutes over the past 20 years.

    Climate outlooks, predictions and projections would be held to the 
same rigorous scientific standards and results monitored with 
performance measures.

Q12.  A primary justification you have cited to argue for creation of 
the Climate Service is that NOAA has been ``inundated'' with requests 
for climate information from businesses as well as State and local 
governments.

Q12a.  Approximately how many such requests have you received? With 
respect to forecasts, approximately what percentage of these requests 
are longer-term in nature, i.e,. beyond one year?

A12a.  Americans who depend upon NOAA's climate information to make 
decisions for their family, business, and community balance sheets are 
now demanding more data, increasingly complex products, and advanced 
scientific study. A more efficient and effective organizational 
structure, such as the proposal that the President included in his FY 
12 budget proposal to Congress, would better enable NOAA to meet these 
demands. At this time, with so many requests coming into the agency 
through multiple venues, NOAA can only track the aggregate number of 
requests and does not have the capacity to inventory individual 
requests.
    However, the following aggregate statistics demonstrate the 
tremendous increase in demand from such sectors as business, insurance/
reinsurance, finance, energy, transportation, water management, 
agriculture, national security, and resource management via incoming 
requests through a number of NOAA's user interfaces.
    (1) Direct requests from users for climate-related data and 
information services: From fiscal year 2009 to 2010, NOAA saw an 
increase of 11 percent in direct requests (includes individual requests 
via phone calls, emails, and other direct correspondence) from 26,000 
to 29,000 individual requests.
    (2) Climate-related data provided from data centers: In FY 2010 
NOAA provided 86% more climate-related data from data centers as 
compared with data provided in FY 2009--from 806 terabytes to 1,500 
terabytes (or 1.5 petabytes). This stems both from an increased 
quantity of data available and a greater number of user requests. To 
put this in context, a Kindle or other electronic book download 
averages about 800,000 bytes. Using this as a comparison, NOAA provided 
a total of at least 1.9 billion Kindle books worth of climate data, 
roughly 867 million more Kindle book equivalents than in 2009.
    (3) In calendar year 2010, NOAA's National Climatic Data Center 
(NCDC) Comprehensive Large Array data Stewardship System site served 
over five times as much climate-related data as in calendar year 2009--
from 43 terabytes to 253 terabytes.
    (4) From FY 2009 to FY 2010, Web hits for NOAA climate services 
experienced a 57% increase in climate-related data and information Web 
site hits--from 906 million to 1.4 billion hits. This does not include 
hits to our new Climate Portal that launched in February 2010 and 
currently hosts over 27,000 visitors every month. Because of the huge 
numbers involved, it would not be practical to provide documentation of 
each request. We can, however, provide statistics as to the origin of 
the requests related to the domain name of the user request. Our 
statistics indicate the following approximate distribution over the 
past two years.

    <bullet>  .com ---- 15%

    <bullet>  .edu ----- 9%

    <bullet>  .gov ---- 12%

    <bullet>  .mil ----- 1%

    <bullet>  .net ---- 24%

    <bullet>  .us ------ 7%

    <bullet>  Foreign - 13%

    <bullet>  Unresolved 19%

    Such demands come in from multiple interfaces across multiple Line 
Offices within NOAA, and we do not track them in a comprehensive 
manner. Housing NOAA's climate activities in one line office could 
allow us to more effectively track and analyze the nature of these 
requests.
    For example, while NOAA's National Climatic Data Center (NCDC) 
cannot currently maintain an inventory of specific requests, NCDC does 
maintain a program of user engagement and services in 12 key economic 
sectors including: agriculture, civil infrastructure, coastal hazards, 
energy, health, insurance, litigation, marine and coastal ecosystems, 
national security, tourism,transportation and water resources.
    A recent analysis by staff of NCDC and the Cooperative Institute 
for Climate and Satellites (CICS) used statistics collected by one of 
NCDC's primary partners, the Regional Climate Centers (RCC) and an 
analysis of orders from NCDC's Climate Data Online service to get a 
snapshot of the sectoral breakdown of key customers for RCC services 
and, by proxy, NCDC, as shown in the following graph. This analysis 
indicated that businesses and consultants account for more than 20% of 
customer orders with a customer group breakdown.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Within this increasing demand are requests from a breadth of 
economic and industry sectors,including both governmental, private 
sector, and non-governmental stakeholders. Specific examples of these 
types of requests that were received include:

    <bullet>  An agricultural expert in Wilkes County, NC, requested 
daily high and low temperatures for the 2010 growing season from April 
1, 2010, thru October 31, 2010, to calculate the growing degree days or 
temperature above 50+ F in the Wilkes County area. He is researching 
growing degree days and length of growing season for a possible 
vineyard in the Yadkin Valley, American Vitacultural Area.

    <bullet>  Firefighters in Texas, New Mexico, and Arizona used 
seasonal, weekly and daily temperature forecasts to help prepare for 
and respond to this record wildfire season.

    <bullet>  Emergency managers along the Mississippi, Missouri, and 
Red River basins used seasonal snowpack, precipitation, and river 
forecasts to help prepare communities for the onset of flooding months 
before it began.

    <bullet>  Public Service/Utility Commissions around the country 
downloaded NOAA's Climate Normals, which include spatial and temporal 
averages of climatological variables (e.g.,temperature, precipitation, 
etc.) that describe base climatic conditions. Utilities subsequently 
use this information in formal processes to determine the rate that 
each utility is allowed to charge its customers.

    <bullet>  Municipalities around the country accessed NOAA's U.S. 
Snowfall Climatology information, which includes historical information 
about the severity of extreme snowfall events and return period 
probability. This information is used to develop annual municipal 
snowfall removal budgets and results in efficient planning and cost 
savings.

Q12b.  Although you include an appendix in your testimony that claims 
to list these requests, it does not give us a full scope of the 
requests you claim NOAA has been getting. Will you compile a complete 
list of these requests and provide it to the Committee?

A12b.  The appendix in Dr. Lubchenco's testimony before the House 
Science, Space, and Technology Committee provided a summary list that 
is representative of requests the agency receives for climate 
information. At this time, due to the limitations of our staff, budget 
and organizational structure, we are not able to quickly provide a 
complete and comprehensive list of all requests received across NOAA's 
broadly distributed access points for climate information and services. 
When NOAA has this capacity, we would be pleased to share this 
information with the public and the Committee. The answer for 12a 
represents the best overall characterization of requests that our 
tracking systems are able to reasonably provide at this time.

Q13.  How much money had NOAA already spent on transition activities 
prior to the April 15th Appropriations Act that prohibited the use of 
funds for such activities?

Q13a.  Which line office did those funds come from?

Q13b.  What functions did NOAA forgo in order to find the funding for 
these transition activities?

Q13c.  Please provide the Committee with a dollar amount spent on 
transition activities in FY 11 up through April 15th, and specify 
exactly what the funding was used for.

A13a-13c.  The 2011 Full-Year Continuing Resolution Appropriations Act 
(the Act), Sec. 1348, states ``None of the funds made available by this 
division may be used to implement, establish, or create a NOAA Climate 
Service as described in the `Draft NOAA Climate Service Strategic 
Vision and Framework' published at 75 Federal Register 57739 (September 
22, 2010) and updated on December 20, 2010: Provided, That this 
limitation shall expire on September 30, 2011.'' NOAA has not used any 
funds to implement, establish, or create a NOAA Climate Service, as 
prohibited by the Act.
    The Act does not apply retroactively; therefore, to the extent the 
Committee suggests that the Act prohibited the use of funds for 
activities undertaken prior to the date of enactment of the Act, we 
respectfully disagree.

Q14.  In a December 2010 interview regarding the NOAA Climate Service 
(NCS) activities, Tom Karl, Director of NOAA's National Climatic Data 
Center and transitional director of NCS, said, ``We're moved in . . . 
we're waiting for the marriage certificate, but we're acting like we 
have a Climate Service.'' This appears to contradict your testimony 
that NOAA is not currently implementing a Climate Service program. Can 
you explain the discrepancy?

A14. The quote above was an unfortunate misstatement and did not 
accurately characterize the realities of our planning efforts to submit 
a formal proposal to Congress. I want to assure you that NOAA has not 
implemented, established, or created a NOAA Climate Service as 
prohibited by the 2011 Full-Year Continuing Resolution Appropriations 
Act.

Q15.  Public Law 112-10, the Department of Defense and Full-Year 
Continuing Appropriations Act, prohibits the use of funding to 
implement, establish or create a NOAA Climate Service. This limitation 
expires September 30 of this year.

Q15a.  Knowing of this Committee's reluctance over your agency's 
advancement of an NCS without appropriate congressional oversight in 
advance, will you continue to abide by this restriction in the absence 
of Congress explicitly approving formulation of a Climate Service as 
part ofthe FY 12 budget process?

A15a.  The 2011 Full-Year Continuing Resolution Appropriations Act (the 
Act), Sec. 1348, states ``None of the funds made available by this 
division may be used to implement, establish, or create a NOAA Climate 
Service as described in the `Draft NOAA Climate Service Strategic 
Vision and Framework' published at 75 Federal Register 57739 (September 
22, 2010) and updated on December 20, 2010: Provided, That this 
limitation shall expire on September 30, 2011.'' NOAA has not used, and 
would not use, any FY 2011 funds to implement, establish, or create a 
NOAA Climate Service as prohibited by the Act.
    NOAA has submitted its reorganization proposal to Congress as part 
of the President's Fiscal Year 2012 Budget Request.

Q15b.  Are all NOAA line offices organizations, programs, projects and 
activities being conducted as currently authorized and appropriated by 
Congress?

A15b.  We interpret your question as relating to NOAA's climate 
mission. NOAA carries out its climate mission consistent with existing 
authority, including the National Weather Service Organic Act, 15 USC 
Sec. 313, the National Climate Program Act, 15 USC Sec. Sec.  2901-
2908, and the Global Change Research Act, 15 USC Sec. Sec.  2931-2961, 
among other relevant statutes.
    Following the passage of the 2011 Full-Year Continuing Resolution 
Appropriations Act (the Act), section 1348, NOAA managers were promptly 
informed of the prohibition contained in the Act and reminded to 
continue to refrain from taking any program, administrative, or 
personnel actions to implement, establish, or create a Climate Service 
Line Office.

Q15c.  Do all NOAA line office organizations, programs, and operations 
exist today as constituted on January 1, 2010?

A15c.  NOAA's current organizational structure is outlined in the 
following two Department of Commerce Department Organization Orders, 
which were provided to the Committee on May 6, 2011:

    <bullet>  January 7, 2011: Department of Commerce Department 
Organization Order: National Oceanic and Atmospheric Administration. 
00025-5 (prescribes the organization, management structure, and 
assignment of functions down to the Staff Office level and to the first 
level beneath each Assistant Administrator).

    <bullet>  March 14, 2011: Department of Commerce Department 
Organization Order: Under Secretary of Commerce for Oceans and 
Atmosphere and Administrator of the National Oceanic and Atmospheric 
Administration. 000 10-15 (prescribes the scope of authority and 
functions of the position of Under Secretary of Commerce for Oceans and 
Atmosphere and Administrator of NOAA).

    NOAA's line office and program operations continue to be governed 
by and in compliance with the NOAA Business Operations Manual dated 
February 2011, which describes how NOAA works within the structure 
established by the DOOs.
    If the Committee would like the versions of 000 25-5, 000 10-15 and 
the Business Operations Manual that were effective on January 1, 2010, 
we would be pleased to provide them.

Q15d.  Has NOAA been planning, transitioning, and/or reorganizing for 
the future creation of a Climate Service? Has a Climate Service 
transition infrastructure been put in place?

A15d.  In order to develop the Climate Service Line Office 
reorganization proposal outlined in the President's Fiscal Year 2012 
Budget Request, NOAA's expert scientists and managers from across the 
agency were engaged in normal planning and budget formulation 
activities until the time that the proposal was delivered to Congress 
as part of the President's FY 2012 budget. Since that time NOAA has 
continued to engage in budget formulation as part of the normal agency 
budget process. NOAA has not used any funds to create, establish, or 
implement a Climate Service as described in the ``Draft NOAA Climate 
Service Strategic Vision and Framework'' published at 75 Federal 
Register 57739 (September 22, 2010) and updated on December 20, 2010, 
as prohibited by the 2011 Full-Year Continuing Resolution 
Appropriations Act, Sec. 1348.

Q15e.  Has an interim NOAA Climate Service staff been formed with 
policy and operational control of climate science and service programs, 
projects, and activities throughout NOAA?

A15e.  NOAA's organization and decision-making processes, including 
management functions and organizational and strategic structures for 
all of NOAA's programs, are outlined in the NOAA Business Operations 
Manual, dated February 2011, which was submitted to the Committee on 
May 6, 2011. NOAA's climate science and service programs continue to be 
governed by and in compliance with that NOAA Business Operations 
Manual.

Q15f.  Is Tom Karl the NOAA Climate Service Transition Director?

A15f.  Since 1998, Tom Karl's official position has been Director of 
the National Climatic Data Center. In addition, Tom Karl was assigned 
the additional title of NOAA Climate Service Transition Director in 
March 2010. His duties were set forth in a memo dated March 5, 2010, 
which was provided to the Committee on May 6, 2011. Those duties are 
consistent with, and not prohibited by, the 2011 Full-Year Continuing 
Resolution Appropriations Act, section 1348.

Q15g.  Is there a Climate Service Executive Board in NOAA? If so, what 
is the purpose of the Board, and what responsibility and functions does 
it carry out?

A15g.  There is no Climate Service Executive Board in NOAA. NOAA does 
maintain a Climate Strategic Planning Board that coordinates across 
NOAA line offices on budget planning and evaluation for NOAA's climate 
goal under NOAA's formal matrix management structure--the Strategy 
Execution and Evaluation process. In addition, over approximately the 
past 10 years, groups of NOAA lab and center directors, and other 
officials from across NOAA, have communicated, collaborated, and met in 
person in order to improve upon the development and delivery of NOAA's 
existing array of climate science and services products, as well as to 
develop the proposal for a Climate Service Line Office. These groups 
have used various titles to refer to themselves, including ``NCS 
Executive Team,'' ``Transition Corporate Board,'' and ``Executive 
Board.'' Management responsibility for NOAA activities is set forth in 
the DOOs and the Business Operations Manual described in Question 15c, 
above.

Q15h.  Is NOAA in the process of creating or implementing a new line 
office?

A15h.  NOAA submitted a proposal in the President's Fiscal Year 2012 
Budget Request to create a Climate Service Line Office. NOAA has not 
created, established, or implemented a Climate Service Line Office, as 
prohibited by the 2011 Full-Year Continuing Resolution Appropriations 
Act, Sec. 1348.

Q15i.  Is NOAA in compliance with the law in the current Continuing 
Resolution statutory language prohibiting implementation, including any 
and all planning, transitioning, and reorganizing,for a new Climate 
Service line office? If so, does NOAA disagree that Climate Service-
related planning, transitioning, and reorganizing constitute 
implementation that is currently prohibited by law?

A15i.  Section 1348 of the 2011 Full-Year Continuing Resolution 
Appropriations Act prohibits use of FY 2011 funds to ``implement, 
establish, or create a NOAA Climate Service as described in the `Draft 
NOAA Climate Service Strategic Vision and Framework' published at 75 
Federal Register 57739 (September 22, 2010) and updated on December 20, 
2010.'' NOAA is in compliance with this law.

Q16.  Who currently plans, develops, formulates, and proposes NOAA's 
pre-decisional climate science and research budget and program 
priorities? Is it OAR? Or is that undertaken elsewhere?

A16.  No single individual, entity, or position within NOAA has sole 
responsibility for NOAA's entire climate science and research budget 
and program priorities. NOAA has climate science and research interests 
distributed across the agency. Although most of our climate science and 
research assets are primarily located in OAR, NWS, and NESDIS, there 
are activities being carried out in NOS and NMFS (e.g., ocean 
acidification, and socioeconomic research) that require consideration 
and coordination in order for NOAA to develop an effective and 
comprehensive climate research portfolio. Priorities and funding for 
climate science and services are ultimately driven by NOAA's goal to 
maintain the highest quality climate science while being responsive to 
user needs, such as making scientific data and information about 
climate easily accessible in order to help people make informed 
decisions in their lives, businesses, and communities.
    NOAA uses a strategy implementation process that builds off the 
Administration, Department, and Agency priorities. The process 
emphasizes results-based budgeting and evaluation. Planning, 
development and formulation of climate science and research priorities 
require a collaborative effort across line offices (OAR, NESDIS, and 
NWS) and staff offices that house climate-related programs, as well as 
with the Chief Financial Officer (CFO), Office of Program Planning and 
Integration (PPI), and NOAA Headquarters. By using fiscal guidance and 
consistent performance measures across each step of the process, 
improved communication is enabled among all participants. The proposed 
Climate Service line office, if approved by the Congress, would help to 
streamline the process and makes it more efficient.

Q17.  Does each NOAA line office control budget policy development for 
activities funded within their respective office? If not, please detail 
and explain any instances in which budget policy for individua/line 
offices related to the FY 11, FY 12, and FY 13 budget years is led or 
controlled outside of that line office.

A17.  Please refer to the previous answer--each NOAA line office, in 
collaboration with the NOAA CFO, PPI, NOAA Headquarters, and the 
Department of Commerce, works to develop and implement budget policy 
for activities funded within their respective line office. Please see 
NOAA's Business Operations Manual and NOAA's Next Generation Strategic 
Plan for further information.

Q18.  Have you enlisted the NOAA General Counsel to help compile, 
review, and fully and legally comply with my explicit, targeted inquiry 
made on March 15 for transition plans, directives, and assignments, 
including emails, regarding the Climate Service? If so, who and when? 
If not, why not?

A18.  As with other significant Congressional document requests, the 
NOAA General Counsel's office, along with other offices within the 
Department of Commerce and NOAA, are assisting with the ongoing 
response to the Committee's March 15 document request.

Q19.  Since the announcement of the NOAA Climate Service proposal in 
February 2010, have off-site trips, travel, conferences, workshops and/
or retreats been used to make transition and reorganization decisions 
and do Climate Service planning, development, strategy, vision, and 
implementation?

Q19a.  How many out-of-town meetings have there been, and how many NOAA 
employees have traveled and attended these gatherings? How much has all 
this travel cost?

Q19b.  Please submit a listing of all the trips, conferences, 
workshops, retreats and other sessions, their itineraries, who 
attended, and how much each cost NOAA.

A19a-19b.  NOAA's broad suite of climate research, information and 
services staff and capabilities is distributed throughout the United 
States in numerous labs and centers. In order to ensure NOAA's climate 
vision, strategy, and priorities reflect the breadth of its expertise, 
it continues to be critically important for the agency's key climate 
scientists and managers to be brought together in person from time to 
time. Particularly, as NOAA developed its reorganization proposal and 
the draft Vision and Strategic Framework, it was more critical than 
ever that NOAA hear from scientists and managers across the agency to 
ensure that these developments benefit from their insights, expertise, 
and experience.
    Since NOAA's announcement in February 2010 of the intent to create 
a Climate Service in NOAA, there have been a total of five meetings 
outside the Washington, DC, metro area focused on developing NOAA's 
reorganization proposal, which is contained in our fiscal year (FY) 
2012 Budget Request currently before Congress for approval, and writing 
the draft Vision and Strategic Framework document.The majority ofthese 
meetings have been held in locations where NOAA has facilities (one in 
Boulder, CO, and two in Asheville, NC), and the others were held in a 
central location (Chicago, IL) relative to the NOAA scientists and 
managers who participated.
    A total of approximately 81 NOAA employees have traveled to one or 
more these five meetings. The number of employees who traveled to each 
meeting is listed below.

    <bullet>  65 travelers to Boulder, CO;

    <bullet>  12 travelers to Asheville, NC;

    <bullet>  13 travelers to Chicago, IL;

    <bullet>  23 travelers to Chicago, IL;

    <bullet>  23 travelers to Asheville, NC.

    Total travel costs (e.g., airfare, lodging, per diem, ground 
transportation, and miscellaneous) for these meetings were 
approximately $117,517.61, for an on average cost of $864/person/trip.
    Meetings listed below were attended by climate scientists, subject 
matter experts, lab and center directors, headquarters staff, and 
administrative staff, including representatives across all NOAA Line 
Offices.

    <bullet>  Boulder, CO. Travel cost: $ 61,979.60; no facilities 
cost.

    <bullet>  Asheville, NC. Travel cost: $ 12,433.93; no facilities 
cost.

    <bullet>  Chicago, IL. Travel cost: $ 17,542.00; facilities cost: 
$16,486.32 (for both Chicago meetings).

    <bullet>  Chicago, IL. Travel cost: $ 29,784.55; facilities cost 
included in item 3.

    <bullet>  Asheville, NC. Travel cost: $ 12,263.85; no facilities 
cost.

Q20.  A recent study looking to cut waste and duplication in the 
Federal Government through reorganizations suggested moving NOAA out of 
the Department of Commerce, or perhaps splitting it up between the U.S. 
Department of the Interior and NASA.

Q20a.  What impact would either of these actions have on plans for an 
NCS?

Q20b.  From Congress' perspective, such actions appear to send a signal 
that the Administration may not believe in the need for an NCS--do you 
agree?

A20a-20b.  NOAA is not clear to which study this question refers. At 
this time, the only official reorganization proposal endorsed by the 
Administration is included in the President's fiscal year 2012 budget 
that was submitted to the Congress in February, 2011--the proposal for 
the NOAA Climate Service Line Office. This good government proposal 
would allow NOAA to most efficiently and effectively provide climate 
information to fuel the American economy, create jobs, and support 
resilient communities.

Questions submitted by Representative Andy Harris

Q1.  In the hearing you said that NOAA had predictions for sea-level 
change in the next 50 and 100 years for my district. Can you please 
provide these predictions and include the range of uncertainty 
associated with these predictions?

A1.  NOAA's National Ocean Service (NOS) provides baseline assessments 
of sea level trends from historical and present-day water level 
observations at more than 128 long-term water level stations using a 
minimum span of 30 years of observations at each location. Those data 
are compiled into sea level trends, as in the example below for 
Cambridge, Maryland (trends for other locations are available at http:/
/www.tidesandcurrents.noaa.gov/sltrends). These baselines are important 
because the local rates of sea level rise relative to the land are 
highly variable depending on the amount of vertical land motion along 
the coast. When assessing the potential amount of sea level rise for a 
given long-term water level station, the observed trends in relative 
mean sea level published by NOAA can be used as ``baseline'' 
information by extending the observed trend into the future. This makes 
no assumptions and uses no input about future changes in the rates of 
sea level rise due to climate change; the trends are based on what is 
actually observed today. For the mid-Chesapeake Bay on the eastern 
shore of Maryland, the relative sea level trend at the NOAA Cambridge 
tide station can be used as this observed baseline; the current 
relative mean sea level trend at Cambridge, MD, is approximately 
3.48mm/yr <plus-minus>0.39. Projecting this observed rate forward from 
2010, the sea level would rise relative to the land at Cambridge by 174 
mm <plus-minus>19.5 (0.57 ft. <plus-minus> 0.06) by 2060 and by 348 mm 
<plus-minus> 34.8 (1.14 ft. para. 0.11) by 2110. These projected rates 
are based entirely on actual sea level trends observed over the last 30 
years in Cambridge, Maryland, and they do not factor in projected 
global sea level rise estimates from the IPCC.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The plot shows the monthly mean sea level without the regular 
seasonal fluctuations due to coastal ocean temperatures, salinities, 
winds, atmospheric pressures, and ocean currents. The plotted values 
are relative to the most recent Mean Sea level datum established by CO-
OPS. The long-term linear trend is also shown, including its 95% 
confidence interval. The mean sea level trend is 3.48 <plus-minus> 0.39 
mm/yr, based on monthly mean sea level data from 1943 to 2006. This 
equates to a change of 0.57 feet <plus-minus> 0.06 over 50 years or 
1.14 feet <plus-minus> 0.11 over 100 years, but does not factor in 
projected effects of climate change on sea levels.
    NOAA climate models run by the Geophysical Fluid Dynamics 
Laboratory have contributed to assessments of projections of global sea 
level change. In 2007, the Intergovernmental Panel on Climate Change 
used such models and low, medium, and high emission scenarios to 
project a rise in the world's oceans from a range of approximately 
seven to 15 inches (0.58 to 1.25 feet) for scenario B1 (low emissions 
scenario) to a range of 10 to 23 inches (0.83 to 1.92 feet) for 
scenario A1F1 (high emissions scenario) when comparing the period 2090-
2099 to 1980-1999. \1\ As for uncertainties, the global sea level 
change estimates only take into account the contributions of thermal 
expansion of the oceans and changes in land ice. They do not include 
some aspects of ice sheet dynamics (for example, the possibility of 
accelerated melting in Greenland or West Antarctica) because these were 
too poorly known at the time of the 2007 assessment to be included with 
any scientific confidence. The contributions to future sea level by ice 
sheet dynamics and ocean-ice interactions, as well as the regional 
distribution of sea level change due to changes in oceanic and 
atmospheric circulation, are topics of current active research in NOAA 
and in the broader scientific community.
---------------------------------------------------------------------------
    \1\  See Table SPM.3 in Intergovernmental Panel on Climate Change 
(IPCC) 2007: Summary for Policymakers.In: Climate Change 2007: The 
Physical Science Basis. Contribution of Working Group I to the Fourth 
Assessment Report of the IntergovernmentalPanel on Climate Change, 
http://www.ipcc.ch/pdf/assessment-report/ar4/wg1/ar4-wg1-spm.pdf).
---------------------------------------------------------------------------
    Global climate models cannot, at this time, provide sea level 
projections to the scale of one Congressional district; however, 
efforts to increase the spatial resolution of global climate models are 
currently underway at NOAA's Geophysical Fluid Dynamics Laboratory, and 
downscaling these global predictions through coastal models with local 
fidelity is a current area of research at NOAA. In the meantime, NOAA 
is providing state and local communities with tools and expertise to 
begin identifying vulnerability to sea level change and other 
inundation threats and to visualize a variety of sea level scenarios.
    With support from NOAA through the Coastal Zone Management Act, the 
State of Maryland is creating a foundation to map, plan, and adapt to 
sea level rise, Over the past 10 years, Maryland has collected high-
resolution elevation data to inform models and predictions for flooding 
and inundation. In addition, NOAA's National Ocean Service recently 
completed a report (2010-01) titled ``Technical Considerations for Use 
of Geospatial Data in Sea Level Change Mapping and Assessment,'' which 
provides technical guidance to agencies, practitioners, and coastal 
decision makers on how to understand, collect, and apply geospatial 
data for sea level change assessments and mapping products.
    Another resource is the Climate Change Science Program (CCSP) 
Synthesis and Assessment Product 4.1, ``Coastal Sensitivity to Sea-
Level Rise: A Focus on the Mid-Atlantic Region.'' This report assesses 
the effects of sea level rise on coastal environments and presents key 
challenges to be addressed. The assessment highlights global and local 
sea level rise projects, as well as a case study that describes how 
Maryland is dealing with this issue. This report was co-authored by 
EPA, NOAA, and USGS.
    In addition to sea level rise, the Chesapeake Bay is subject to 
storm surges, as was experienced during Hurricane Isabel in September 
18-19, 2003. Storm surges of 3-5 ft above normal tide levels were 
observed over the central portions of the Chesapeake Bay, 5-6 ft over 
the southern portion of the Bay in the vicinity of Hampton Roads, 
Virginia, and 6-8 ft above normal levels were observed in the upper 
reaches of the Chesapeake Bay near Annapolis and Baltimore, Maryland, 
and in most of the main stem rivers draining into the Chesapeake Bay. 
Even higher surges occurred at the heads of the rivers, with values of 
8.5 ft above normal levels at the Richmond City locks along the James 
River in Virginia and nearly 8 ft along the Potomac River in 
Washington, DC. Water levels exceeded previous record levels 
established in the Chesapeake-Potomac Hurricane of 1933 in Washington, 
DC, Baltimore, and Annapolis (see http://www.nhc.noaa.gov/
2003isabel.shtml).

Q2.  The article on the NOAA Climate Portal we discussed at the hearing 
comes from Chesapeake Quarterly. Is Chesapeake Quarterly a peer-
reviewed scientific publication?

A2.  Although Chesapeake Quarterly is not a peer-reviewed publication, 
it is a high-quality, award-winning publication of Maryland Sea Grant, 
an entity that is administered by the University of Maryland Center for 
Environmental Science. Chesapeake Quarterly is published for a lay 
audience and includes articles that explore scientific, environmental, 
and cultural issues relevant to the Chesapeake Bay and its watershed. 
The articles are developed by experienced writers following an 
editorial process that provides quality control. The articles draw on 
peer-reviewed literature and on other sources of information such as 
interviews. Articles are reviewed editorially with source citations 
noted.

Q3.  Does NOAA pay a subscription fee to publish articles on the NOAA 
Climate Portal from publications such as Chesapeake Quarterly?

Q3a.  If so, how many publications does NOAA currently pay a 
subscription fee to?

Q3b.  Please provide a list of all such publications NOAA pays a 
subscription fee to publish articles on the NOAA Climate Portal.

A3a-3b.  NOAA does not pay a subscription fee to Chesapeake Quarterly 
to republish selected articles on the NOAA Climate Portal Prototype; 
nor does NOAA pay a subscription fee to any other source of articles 
published on the Portal.

Q4.  Is the purpose of the NOAA Climate Portal to provide information 
to the public from all sources,including advocacy or "gray" literature?

Q4a.  How will users of the Web site be able to distinguish between 
information from advocacy organizations and information from peer-
reviewed scientific publications?

Q4b.  How does NOAA's publication of nonpeer-reviewed data or advocacy 
information comply with its responsibilities under the Data Quality Act 
to ensure and maximize the quality, objectivity, utility, and integrity 
of information (including statistical information) disseminated by 
federal agencies?

A4a-4b.  The NOAA Climate Portal is a prototype created for the purpose 
of evaluating an approach to providing a wide range of objective data 
and information that is based on primary climate science sources, 
including the peer-reviewed climate science literature, climate science 
data, and interviews with subject matter experts. The information 
presented, whether peer reviewed or nonpeer-reviewed, is of known 
quality or from sources acceptable to the relevant scientific and 
technical communities and is labeled so that readers can distinguish 
the source. NOAA will take steps to ensure that it more clearly 
distinguishes between the types of content appearing in the Portal's 
different sections, each of which has its own audience and focus.
    The technically qualified managers and editors of the NOAA Climate 
Portal Prototype review products before publication and set publication 
priorities based upon one or more of the following: (i) significant new 
science results, upon publication in peer-reviewed journals; (ii) 
relevant case studies in which NOAA climate science and/or services 
(such as decision support tools) are used in decision-making contexts 
for societal benefit; (iii) information to address commonly asked 
questions and/or misconceptions about climate; and (iv) information to 
help explain and contextualize climate-related current events and their 
societal relevance.
    NOAA is committed to scientific rigor and quality on the Portal. To 
date, the Chesapeake Quarterly article discussed in Question 2, above, 
is the only journal article from a non-NOAA source that has been 
published. NOAA will take steps to ensure that its rigorous pre-
publication reviews of products posted on the Portal formally document 
the agency's compliance with the Data Quality Act.

Q5.  Does the NOAA Climate Portal include the range of uncertainties 
related to the information it provides? If so, are these uncertainties 
communicated in a way that average users can understand them? If not, 
why not?

A5.  Describing ranges of uncertainty is an important component of 
communicating climate science and our understanding of the impacts of 
climate variability and change. NOAA has a strong record of success in 
communicating uncertainties around its weather forecasts and warnings, 
and is committed to the same when communicating climate research to the 
public and translating climate science into usable information for 
decision makers. NOAA is committed to being a neutral broker of weather 
and climate science and services. In the NOAA Climate Portal Prototype, 
NOAA is continuing its work to better communicate uncertainty.
    The Portal Prototype includes both peer-reviewed technical articles 
that present uncertainty, as well as discussions and presentations of 
the concepts of scientific uncertainty for lay audiences through such 
vehicles as articles in the Climate Watch Magazine. For example, 
scientific uncertainties are addressed in the authoritative, peer-
reviewed literature and climate assessment reports, which are linked to 
in the Portal's ``Understanding Climate'' section. Separately, in a 
Climate Watch Magazine article, describing how scientists and planners 
accommodate the uncertainty of model projections of future climate was 
one of the main themes of a story NOAA published about the Boulder, 
Colorado's, water supply. As explained in that story, model projections 
of future precipitation vary widely--some predicting wetter futures, 
some predicting drier futures, and NOAA detailed how scientists studied 
the implications for the city's water supply in each of these possible 
outcomes; page three of the article is devoted to explaining the 
diverging projections and their significance for assessing Boulder's 
water supply (see www.climatewatch.noaa.gov/article/2011/39522/3).
    NOAA also provides Portal Prototype users with references to 
authoritative reports and peer-reviewed literature for readers who want 
that level of complexity. Permanent links and references to peer-
reviewed, authoritative sources are also provided in the Understanding 
Climate section of the Portal Prototype. As NOAA continues to develop 
the Climate Portal during this prototype phase, we are committed to 
continuing to improve the scientific rigor of the information 
presented, including information about uncertainty, through our own 
evaluation and valuable feedback from a diversity of external users.

Q6.  If the intent of the NOAA Climate Portal is to be a ``one-stop-
shop'' for climate information, why has no other agency posted 
information on your Web site?

A6.  The intent of the Climate Portal Prototype is to be a ``one-stop-
shop'' for NOAA's climate information. Based upon the success of 
prototype and user feedback--and if there is sufficient interest from 
other agencies with a commensurate level of contribution and support 
from them--the Portal's scope could be scaled up to serve as a one-stop 
for climate information and services for all of the Federal Government.
    However, the NOAA Climate Portal has published data and information 
from other agencies. Specifically, we have published other agencies' 
data in the:

    <bullet>  Global Climate Dashboard;

    <bullet>  Understanding Climate section, which includes links to 
authoritative assessment reports published by the USGCRP, the IPCC, the 
National Academy of Sciences, and the World Meteorological 
Organization;

    <bullet>  Education section, which includes links to educational 
information produced by many agencies;and

    <bullet>  ClimateWatch Magazine, which features quite a few 
articles with images and information from other agencies.

    NOAA is still in a prototype phase of development, as stamped on 
the Portal's banner, and as explained in the ``About this site'' page 
at http://www.climate.gov/about.html. NOAA made the NOAA Climate Portal 
Prototype available to allow the public to interact with it and provide 
the agency feedback as to whether it meets their needs for climate data 
and information. Questions and comments from the public are actively 
solicited on the ``Frequently Asked Questions'' page at http://
www.climate.gov/faq.html. NOAA has been gathering lessons learned from 
this evaluation period to help the agency identify ways of refining and 
improving the prototype.

Questions submitted by Representative Paul C. Broun

Q1.  What role do NOAA scientists play in the IPCC assessments and in 
IPCC policy deliberations, such as the IPCC 33rd Session held in Abu 
Dhabi, United Arab Emirates, May 10-13, 2011? Specifically,how many 
NOAA employees attended this session? How many NOAA employees attended 
the previous session?

A1.  NOAA scientists have contributed to the IPCC assessments in 
various roles from coordinating lead authors, lead authors, 
contributing authors and review editors to overall reviewers. In the 
last assessment report, released in 2007, a NOAA scientist served as 
co-chair of a Working Group responsible for producing an entire volume 
of the report. NOAA scientists and NOAA-supported university partners 
also indirectly contribute data, model runs, and other research to the 
IPCC Assessments, as these are often cited in the reports.
    NOAA has also participated in the intergovernmental aspects of the 
IPCC as part of the U.S. delegation to IPCC plenary meetings. NOAA sent 
one representative to the Abu Dhabi meeting and one to the session 
prior to that in Busan, Korea.

Q2.  In last year's InterAcademy Council review of IPCC, the Council 
recommended that that IPCC ``should develop and adopt a rigorous 
conflict of interest policy that applies to all individuals directly 
involved in preparation of IPCC reports, including senior IPCC 
leadership (IPCC Chair and Vice Chairs), authors with responsibilities 
for report content (i.d., WG Co-Chairs, coordinating lead authors 
(CLAs), and lead authors (LAs), Review Editors (Res), and technical 
staff directly involved in report preparation (e.g., staff of the TSUs 
and the IPCC Secretariat).'' \2\
---------------------------------------------------------------------------
    \2\  InterAcademy Council, ``Climate change assessments, Review of 
the processes and procedures for the IPCC,'' October 2010, p.53 (http:/
/reviewipcc.interacademycouncil.net/report/Climate Change Assessments, 
Review of the Processes & Procedures of the IPCC.pdf).

---------------------------------------------------------------------------
Q2a.  Do you support that recommendation, and if not, why not?

A8.  NOAA supports this recommendation, which the United States 
endorsed in its 32nd Plenary.

Q3.  At the May IPCC Abu Dhabi meeting, the IPCC delayed adopting a 
conflict of interest policy as recommended by last year's InterAcademy 
Council review until at least early 2012. \3\
---------------------------------------------------------------------------
    \3\ IPCC 33rd Session, 10-13 May 2011, Abu Dhabi,``Decisions Taken 
With Respect to the Review of IPCC Processes and Procedures Conflict of 
Interest Policy.''.

Q3a.  Given that work on the IPCC's Fifth Assessment Report (ARS) is 
well underway, isn't it imperative for the IPCC to adopt a rigorous 
conflict of interest policy as soon as possible to help ensure the 
---------------------------------------------------------------------------
integrity of the ARS process?

Q3b.  Do you agree, and if so, will you urge Dr. Holdren and Secretary 
of State Clinton to strongly support this position at the next IPCC 
meeting tentatively scheduled in January 2012?

A3a-3b.  The United States supported the InterAcademy Council 
recommendation for a conflict of interest policy, and the State 
Department and White House Office of Science and Technology Policy were 
very actively involved in developing the new draft policy for the IPCC 
plenary. At the 33rd session of IPCC, the plenary approved a conflict 
of interest policy that is consistent with the lAC recommendation, and 
that draws heavily from the policy of the U.S. National Academy of 
Sciences (NAS).
    We expect that the 34th IPCC plenary, currently scheduled for 
November 2011, will agree on the process by which the policy will be 
implemented. This will make the IPCC one of the few science assessment 
processes in the world to have a formal conflict of interest policy. 
Recognizing the need to identify and address any conflicts of interest 
as soon as possible, each of the Working Groups has applied interim 
conflict of interest procedures to authors and editors involved in the 
development ofthe Fifth Assessment Reports.

Questions submitted by Ranking Member Eddie Bernice Johnson

Q1.  NOAA hired six Regional Climate Service Directors (RCSDs). How do 
these RCSDs fit into NOAA's existing activities and mission on climate 
science and services? When were they hired? And what would their 
role(s) be in the proposed reorganization?

A1.  In February 2010, NOAA's National Climatic Data Center (NCDC) 
issued a vacancy announcement for six Regional Climate Services 
Director positions to enhance NOAA's capability to more effectively 
meet the fast-accelerating demand for climate-related information. 
Following a Nation-wide, competitive recruitment process, the 
appointment of the six Regional Climate Services Directors (RCSDs) was 
announced in September 2010. The six RCSDs are co-located with NOAA's 
six National Weather Service (NWS) regional headquarters offices. This 
co-location underscores significant weather-climate linkages and 
recognizes the role that existing NWS regional and local service 
infrastructure will play in the future of NOAA's weather and climate 
services. The directors are building upon a broad range of climate 
products and services in NCDC and across NOAA and leveraging the 
expertise of widely diverse partners to better assess, refine, and 
deliver climate science and information to address specific regional 
needs. In this context, the regional climate services directors are 
working with NOAA's many partners to identify new and emerging regional 
climate issues and help NOAA develop products and services to address 
those issues. Some specific examples include:

    <bullet>  On July 7, 2011, the Southern Regional Climate Services 
Director hosted a South-Central U.S. Drought Impacts Assessment 
Workshop in Austin, TX. Over 40 federal, state, local, and private 
sector organizations were represented at the event, which highlighted 
the current drought status, short- and long-term climate outlooks, a 
range of environmental and socioeconomic impacts observed thus far, and 
state-level planning and response activities. Outcomes from the 
workshop include an updated regional drought outlook and specific pilot 
project opportunities with the Texas Forest Service and Lower Colorado 
River Authority.

    <bullet>  On June 30, 2011, the Western Region Climate Services 
Director served as the moderator for a climate business sector 
roundtable during the Western Governors' Association (WGA) annual 
meeting in Coeur d'Alene, Idaho. The roundtable followed the signing of 
a Memorandum of Understanding between NOAA and WGA to improve the 
development and delivery of climate science and services to Western 
states. Private sector attendees--from BNSF Railways to IBM to 
PepsiCo--discussed two primary issues: (1) how weather and climate 
affect their business operations; and (2) which climate services would 
be most useful for NOAA to provide.

    <bullet>  On March 8th, 2011, the Central Region Climate Services 
Director held a workshop to begin developing and coordinating a 
Missouri Basin Climate Collaboration that involved 12 different federal 
agencies from across the basin. The meeting was held with agreement of 
15 federal executives comprising the Missouri River Basin Interagency 
Roundtable (MRBIR). Participants included multiple NOAA offices; the 
High Plains Regional Climate Center; the Western Water Assessment RISA; 
the National Integrated Drought Information System (NIDIS); National 
Drought Mitigation Center (NDMC); the President of the American 
Association of State Climatologists (AASC); and representatives of 
universities, state, and local government agencies and tribal 
interests. Results from the meeting included improved communication to 
reduce redundancies and better collaboration on projects of mutual 
interest and national and regional priorities.

    <bullet>  On June 15th, 2011, Regional Climate Services Director 
for the Central Region and core partners met with the City of Chicago 
to explore how NOAA climate data and information could aid the ongoing 
development and implementation of their Climate Action Plan. 
Participants included the City of Chicago, Midwestern Regional Climate 
Center, Illinois State Climatologist, Sea Grant representatives from 
Illinois/Indiana, ICLEI, and the National Weather Service Chicago 
office. The City approached NOAA for assistance with this plan, the 
first of its kind for the Chicago metro area aimed at protecting the 
lives, environment, and property of the area.

    <bullet>  On September 21-22, 2011, NOAA's Central Region Climate 
Services Director will host several members of the Oglala Sioux Nation 
to discuss how NOAA climate data and information may be of use in 
planning the Thunder Valley community on the Pine Ridge reservation. 
The project is a product of a HUD/EPA grant to plan sustainable 
communities. The tribal members will meet with NOAA representatives, 
the High Plains Regional Climate Center, and representatives from other 
federal agencies.

    <bullet>  NOAA's Eastern Regional Climate Services Director, in 
partnership with the Regional Climate Center at Cornell University, 
convened a two-day workshop August 3-4, 2011, in Ithaca, NY, that 
focused on inland climate impacts and information needs. The workshop 
focused attention to the inland areas of the region, with discussions 
on climate impacts on agriculture, birds, water resource management, 
forestry, migratory fishes, and infrastructure. The meeting brought 
together over 50 representatives from all 16 states in the region as 
well as federal partners from the Geological Survey, the Fish and 
Wildlife Service, Federal Highways, Forest Service, Fisheries Service, 
and Weather Service, as well as many of our academic partners at 
Cornell.

    <bullet>  NOAA's Regional Climate Services Director forthe Eastern 
Region is a founding member of two interagency federal partnerships in 
the region that focus on climate adaptation and mitigation: the New 
England Federal Partners (originating first in 2002, and more formally 
organizing in 2006) as well as the newly formed NY/NJ Federal 
Partnership for climate, meeting for the first time on July 26, 2011. 
These federal partnerships bring together over 15 different federal 
agencies with quarterly face-to-face meetings founded on the principles 
of communication, coordination, and collaboration on major drivers in 
the natural sciences, specifically climate, coastal, and marine spatial 
planning, and tribal engagement topics. These federal partnerships,and 
others forming in subregions within the East, will serve as the primary 
collaborative for the national climate assessment and ongoing regional 
climate adaptation hubs for future work together.

    The directors are collaborating with regional partners from other 
federal agencies, state, local, and tribal governments, universities, 
the private sector, and non-governmental organizations. In addition to 
establishing broad dialogue on regional climate issues, the regional 
climate services directors are working to strategically integrate the 
work of various NOAA-funded partners already engaged in climate science 
and services at the regional level, including the Regional Integrated 
Sciences and Assessment (RISA) programs, Regional Climate Centers, 
state climatologists, and many partners across the private and 
government sector. Integrating the work of these components in a way 
that significantly leverages their distinct assets will yield increased 
value to users and support more efficient, cost-effective delivery. 
Under the proposed reorganization, the RCSDs would continue to serve as 
the representatives of NOAA's climate services, providing assistance in 
the development, delivery, and evaluation of NOAA products and services 
in regions and ensuring that regional climate information needs and 
priorities are conveyed back to the NOAA Climate Service leadership to 
support the evolution of climate science and services to meet the needs 
of decision makers.
                               Appendix 2

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                  <all>



</pre></body></html>
